1a

APPENDIX A
United States Court of Appeals
for the District of Columbia Circuit
No. 19-5117
LEVEL THE PLAYING FIELD, et al.,
Appellants,
v.
FEDERAL ELECTION COMMISSION,
Appellee.
Appeal from the United States District Court
for the District of Columbia (No. 1:15-cv-01397)
Argued February 24, 2020
Decided June 12, 2020
Alexandra A.E. Shapiro argued the cause for
appellants. With her on the briefs were Eric S. Olney
and Jacob S. Wolf.
Haven G. Ward argued the cause for appellee. With
her on the brief were Lisa J. Stevenson and Kevin
Deeley.
Before: PILLARD and KATSAS, Circuit Judges, and
RANDOLPH, Senior Circuit Judge.
Opinion for the Court filed by Senior Circuit
Judge RANDOLPH.

2a

RANDOLPH, Senior Circuit Judge: The Commission
on Presidential Debates (the “CPD”) is a private
non-profit corporation. For more than thirty years, it
has hosted televised debates among the leading
candidates for President and Vice President of the
United States. The CPD uses several factors to decide
which candidates are eligible to participate in its
debates. At the center of this controversy is the CPD’s
compliance with rules of the Federal Election
Commission (the “Commission”) for determining which
candidates are, or will be, eligible to participate in the
debates.
The Commission’s regulations allow a non-profit
organization to stage candidate debates in federal
elections so long as the organization does not “endorse,
support, or oppose political candidates or political
parties.” 11 C.F.R. § 110.13(a)(1). The debates must
“include at least two candidates” and cannot be
structured “to promote or advance one candidate over
another.” Id. at § 110.13(b). Staging organizations must
use “pre-established objective criteria” to select eligible
candidates, and for general election debates, cannot
“use nomination by a particular political party as the
sole objective criterion.” Id. at § 110.13©.
The plaintiffs in this case are Level the Playing Field,
a non-profit corporation created to promote
independent candidates for elected office; Peter
Ackerman, a registered voter from the District of
Columbia; the Green Party; and the Libertarian
National Committee, Inc. They argue that the CPD
routinely endorses and supports Republican and
Democratic nominees at the expense of third-party

3a

candidates. They also contend that the CPD uses
subjective and biased criteria for selecting debate
participants.
Although the CPD is by definition involved in
politics, it neither endorses nor opposes candidates for
the Presidency. The government does not fund the
CPD, nor does any political party, political action
committee, or candidate. It is governed by an
independent Board of Directors.
To participate in a CPD-sponsored debate, there are
three requirements. The candidate must be qualified
under the Constitution to be President. The candidate
must be on the ballot of enough states to have a
mathematical chance of winning a majority vote in the
Electoral College. And the candidate must have a level
of support of at least 15% of the national electorate, as
determined by five selected national public opinion
polling organizations, using the average of those
organizations’ most recent publicly-reported results at
the time of the determination.
Plaintiffs began their case with two administrative
complaints. The first challenged the 15% polling
criterion, which the CPD used to determine eligibility
for participation in the debates preceding the 2012
Presidential election. The Commission decided 5-0
(with one recusal) that the CPD’s criterion did not
violate the Commission’s debate rules. The second
complaint asked the Commission to initiate a
rulemaking to change its rules to prohibit debate
sponsors from using public opinion polls as a criterion
for eligibility. The Commission rejected this request by

4a

a vote of 4-2. Based on these votes, the Commission
dismissed both administrative complaints.
Plaintiffs sought review in the district court, alleging
that the dismissal of their complaints violated the
Administrative Procedure Act. For reasons unnecessary
to discuss, the district court remanded both
administrative matters to the Commission for further
consideration of the record. The Commission adhered to
its original decision. On the return of the case to the
district court, the court granted summary judgment in
favor of the Commission. We agree with the district
court’s
thorough and well-reasoned decision and,
applying de novo review, we affirm.
I.
Judicial review of decisions by the Federal Election
Commission is highly deferential. Hagelin v. FEC, 411
F.3d 237, 242 (D.C. Cir. 2005). We presume the validity
of the Commission’s decisions and will reverse them
only if they are contrary to law, not supported by
substantial evidence, or are arbitrary, capricious, or an
abuse of discretion. Id.
Plaintiffs urge us to apply a less deferential standard
of review, arguing that the Commission’s decisions
display a “pattern of suspect decisionmaking,” “bias,”
and a “partisan agenda.” But as we have previously
explained, the “arbitrary and capricious and substantial
evidence standards” are “fully adequate to capture
partisan or discriminatory FEC behavior.” Hagelin, 411
F.3d at 243. Indeed, decisions featuring unjustifiable
bias or partisanship are precisely the types of agency
actions that “would work a violation of the arbitrary-

5a

and-capricious standard.” Id. (citation, internal
quotation marks and alteration omitted). Accordingly,
we need not create a new standard of review to assess
the appropriateness of the Commission’s actions in this
case.
II.
Plaintiffs believe that the CPD is an “overtly
partisan” organization whose goal “is to exclude
independent candidates.” They argue that the
Commission refused to recognize this bias, thereby
ignoring the regulations that require debate sponsors
not to endorse, support, or oppose political parties or
their candidates.
As evidence of the CPD’s purported partisanship,
plaintiffs highlight various statements and campaign
contributions made by the CPD’s founders and leaders.
For example, announcing the formation of the CPD in
1987, the Democratic and Republican National
Committees “emphasiz[ed] the bipartisan nature” of
the CPD and noted that the debates would be “partysponsored.” Frank Fahrenkopf, then chairman of the
Republican National Committee and a current CPD
co-chair, indicated that the CPD “was not likely to look
with favor on including third- party candidates in the
debates.” Similarly, Paul Kirk, the chairman of the
Democratic National Committee at the time and a
former CPD co-chair, said he “personally believed that
the [CPD] should exclude third-party candidates from
the debates.”
The Commission carefully considered these and other
statements made when the CPD was created in 1987. It

6a

found the statements to have “limited persuasive value”
for three reasons. First, the Commission reasoned that
decades-old declarations are not particularly probative
of current bias, as organizations can change. Second,
the early statements about the CPD must be
understood in the context of trying to institutionalize
televised debates as a “permanent part of the political
process.” And third, statements made by individuals do
not necessarily reflect an organization’s endorsement or
support. Each of these explanations was reasonable.
Take the first explanation. The record supports
the Commission’s view that the CPD has changed over
time, making “concerted efforts to be independent in
recent years.” After third-party candidate Ross Perot’s
exclusion from the 1996 debates, for instance, the CPD
“adopted new candidate selection criteria and retained
a polling consultant to ensure” “careful and thoughtful
application” of the new criteria. The Commission also
noted that the CPD “conducts a review after every
presidential election of issues relating to the debates.”
In light of these changes and ongoing reviews, it was
reasonable for the Commission to believe that
statements made about the CPD in 1987 do not
adequately describe the CPD as it exists today. See
Hagelin, 411 F.3d at 244.
It was also reasonable for the Commission to place
the early statements made by Fahrenkopf and others in
context. For instance, the Commission credited a sworn
declaration from Fahrenkopf explaining that when the
CPD was first created, “the major impediment to”
institutionalizing televised debates “was securing the
commitment of both major party nominees to debate.”

7a

Thus, references to a “bipartisan” and “partysponsored” organization were meant to convey only
that the CPD would not favor one leading political party
at the expense of the other. American politics has, for
most of American history, been organized around two
parties. See Timmons v. Twin Cities Area New Party,
520 U.S. 351, 367 (1997). So it is plausible that leaders
of the newly-created CPD used terms like “bipartisan”
and “party-sponsored” to assure and secure support
from both major parties.
The Commission explained that “even if these
written and oral statements did reflect more current
sentiments, they are not indicative of CPD’s
organizational endorsement of or support for the
Democratic and Republican Parties and their
candidates. ...” The record supports this finding. The
1987 statement announcing the formation of the CPD,
for instance, was released by the Democratic and
Republican National Committees, and not by the CPD.
Paul Kirk’s statement that the CPD should exclude
third-party candidates was based on his personal view,
and he added that “he could not speak for the
[C]ommission.”
Plaintiffs characterize the Commission’s
explanations as “spurious” and attack the affidavits
submitted by Fahrenkopf and others as “boilerplate”
and “meaningless.” But as the district court explained,
that plaintiffs may disagree with the Commission’s
weighing of the evidence presented to it is not enough
for the courts to overturn the Commission’s decisions
as arbitrary, capricious, or contrary to law. See Level the
Playing Field v. FEC, 381 F. Supp. 3d 78, 101 (D.D.C.

8a

2019). The Commission considered plaintiffs’
submissions and articulated reasonable explanations for
assigning the decades-old statements little probative
value.
Plaintiffs also presented the Commission with
contemporaneous evidence of the CPD’s alleged bias. In
2015, for example, Fahrenkopf was interviewed by Sky
News. During the interview he said that the CPD
“primarily go[es] with the two leading candidates” from
the “two political part[ies].” In 2011, Fahrenkopf wrote
an op-ed in which he praised the Republican Party and
described it as “our great party.” And since 1997,
Fahrenkopf has donated tens of thousands of dollars to
Republican congressional and presidential candidates.
Michael McCurry is also a co-chair of the CPD. He
previously served as President Bill Clinton’s press
secretary and as a director of communications for the
Democratic National Committee. Since 2008, McCurry
has given tens of thousands of dollars to Democrats.
Plaintiffs claim that the statements and contributions
made by Fahrenkopf and McCurry are illustrative of the
CPD’s partisan bias.
The Commission rejected this argument, again
providing reasonable explanations supported by the
record. For example, the Commission noted that during
the 2015 Sky News interview, Fahrenkopf was asked
“about the impact of multiple candidates (the
questioner posited seven) on the educational value of
debates.” Fahrenkopf responded by lamenting the
quality of primary debates, which can feature “seven or
eight people on the stage,” and which “people jokingly

9a

say” are “less of a debate than a cattle show.” He then
said: “That’s why in the general election debate, we
have a system, and we . . . primarily go with the two
leading candidates, it’s between the two political party
candidates . . . except for 1992 when Ross Perot
participated in the debates.” The context of the
interview thus makes clear that Fahrenkopf was
expressing a preference for smaller debates where the
candidates with the most support are given more time
to share their views with voters. He was not, as
plaintiffs suggest, admitting that the CPD seeks to
exclude independent candidates to benefit Democratic
and Republican candidates. Considering Fahrenkopf’s
words in the appropriate context, the Commission
justifiably concluded that plaintiffs’ “interpretation is
not dispositive.”
With respect to Farenkopf’s 2011 op-ed and the
donations he and others have made to candidates from
the two major political parties, the Commission stated
that “individuals may wear multiple hats to represent
multiple interests.” And if this is permissible, the
Commission reasoned, it follows that “an individual’s
leadership role in a given organization does not restrict
his or her ability to speak freely on political issues or
make contributions to political committees when he or
she does so in his or her personal capacity.”
Reviewing the record, the Commission found no
evidence that Farenkopf’s 2011 op-ed was written in his
official capacity as a CPD co-chair or was intended in
any way to represent the views of the organization.
Similarly, plaintiffs cannot identify a single instance of
a donation to a Democrat or Republican that was made

10a

by the CPD or one of its leaders acting in his or her
official capacity.
Plaintiffs’ arguments, then, amount to a
disagreement with the Commission’s view that personal
partisan activities do not necessarily reflect the views or
biases of the organization for which a person works. But
again, as the district court held, “such a disagreement
does not discharge [p]laintiffs of their burden to
establish that the [Commission’s view] was arbitrary,
capricious, an abuse of discretion, or otherwise not in
accordance with law.” 381 F. Supp. 3d at 105. Plaintiffs
have not met that burden. The Commission has
consistently maintained that individuals may support
political candidates when acting in their personal
capacities, even if they would be prohibited from doing
so in their professional capacities. See, e.g. FEC
Advisory Op. 2007-05; Advisory Op. 2005-02; Advisory
Op. 2003-10. And this position is well-founded. It is
axiomatic that, for an agent’s statement to be
attributable to the principal, the “speaking must be
done in the capacity of agent and connected with the
business of the principal.” Restatement (First) of
Agency § 288 cmt. b (Am. Law Inst. 1933).
In sum, far from ignoring plaintiffs’ evidence, the
Commission thoughtfully evaluated the record. The
Commission offered detailed explanations in support of
its view that plaintiffs failed to show impermissible bias
against independent candidates or in favor of
candidates from the two major political parties. And
though plaintiffs may disagree with these explanations,
they have failed to show that the Commission’s
decisionmaking was arbitrary or unreasonable.

11a

III.
Plaintiffs also contend that the CPD’s use of a 15%
polling requirement to select debate candidates is
“subjective” and favors major-party candidates. This
threshold, they argue, violates 11 C.F.R. § 110.13(c),
which requires staging organizations
to
“use
pre-established objective criteria to determine which
candidates may participate in a debate.” In support of
this claim, plaintiffs presented the Commission with
two expert reports. The first, written by Dr. Clifford
Young, posits that “on average, an independent
candidate must achieve a minimum of 60% name
recognition, and likely 80%, in order to obtain 15% vote
share.” The second, prepared by Douglas Schoen,
suggests that an independent candidate “should
reasonably expect to spend approximately $266,059,803
to run a viable campaign capable of reaching 15%
support in polls by September of the election year.”
Plaintiffs argue that these studies show the 15%
threshold is not objective because, while major party
candidates “benefit from the widespread media
coverage of the presidential primaries,” independent
candidates “have no analogous mechanism for
generating name recognition.” And if an independent
candidate must spend over $260 million to achieve 15%
support, plaintiffs reason, “[o]nly a self-funded
billionaire could realistically hope to compete as an
independent.”
The Commission considered and rejected these
arguments. Evaluating the expert reports, the
Commission found several “limitations that undermine

12a

their persuasiveness.” The Young Report, for instance,
“correlates polling results to name recognition alone,”
but as Dr. Young himself acknowledged, several other
factors affect a candidate’s poll numbers, including
“fundraising, candidate positioning, election results,
and idiosyncratic events.” The Commission also noted
that “neither the Young Report nor [plaintiffs] . . . ever
establish that independent candidates do not or cannot
meet 60-80 percent name recognition.” The
Commission cited as a counter-example a 2016 YouGov
poll, which found that 63% of registered voters had
heard of Libertarian candidate Gary Johnson, while
59% had heard of Green Party candidate Jill Stein.
These critiques of the Young Report are reasonable.
The omission of relevant variables from a statistical
analysis “may render the analysis less probative than it
otherwise might be.” Bazemore v. Friday, 478 U.S. 385,
400 (1986) (per curiam) (Brennan, J., concurring). It is
quite plausible that a factor like the unpopularity of
major-party candidates could lead to a high degree of
support for an independent candidate who has less than
60% name recognition. And the Commission reasonably
relied on a YouGov poll to question the notion that
independent candidates cannot achieve 60% name
recognition. Though the Young Report posited 60%
name recognition was necessary among the American
public and the poll only shows name recognition among
registered voters, the poll still suggests independent
candidates may sometimes earn significant name
recognition. See also Buchanan v. FEC, 112 F. Supp. 2d
58, 74 (D.D.C. 2000) (listing George Wallace, John
Anderson, and Ross Perot as examples of independent

13a

candidates who achieved at least 15% support in
pre-election polling).
The Commission identified many reasons to discount
the findings of the Schoen Report, too. For example, the
Commission found that the $260 million estimate rests
“on the assumption that independent candidates are
unable to attract earned media (i.e., free coverage).”
The Schoen Report also fails to account for the role of
social media, which the Commission notes has “enabled
the ubiquitous sharing of [candidates’] messages among
vast global networks.”
Again, these critiques are reasonable and
well-supported. As the Commission highlights,
Libertarian candidate Gary Johnson received extensive
media coverage during the 2016 presidential election.
And at least some of that coverage was not generated by
the campaign’s spending. See, e.g., Jonah Bromwich, ‘I
Guess I’m Having an Aleppo Moment’: Gary Johnson
Can’t Name a Single Foreign Leader, N.Y. Times, Sep.
28, 2016, available at https://www.nytimes.com/2016/09/
29/us/politics/gary-johnson-aleppo-moment.html. The
Commission similarly cited the example of the 2016
Trump campaign, during which “digital media
reportedly replaced field offices,” “thereby reducing
another traditional campaign cost.”
More broadly, we need not conclusively determine
the validity or persuasiveness of the Young and Schoen
reports to decide this case. Even if both reports are
correct, and it takes a large amount of money and name
recognition for a candidate to be viable, the 15% polling
criterion is not impermissible.

14a

All that is required is that the CPD use a
“pre-established objective criteria” to determine debate
eligibility. 11
C.F.R. § 110.13(c). Plaintiffs have
identified many reasons why it might be difficult for an
independent candidate to achieve the support of 15% of
the electorate. But a threshold does not become
“subjective” merely because it is difficult to reach.
There is no legal requirement that the Commission
make it easier for independent candidates to run for
President of the United States. The Commission thus
acted reasonably in determining that a 15% polling
threshold is an objective requirement.
IV.
In addition to challenging the CPD’s existing criteria,
plaintiffs asked the Commission to initiate a
rulemaking to revise and amend 11 C.F.R. § 110.13(c).
Specifically, they believe the Commission’s rules should
preclude debate sponsors from using any polling
threshold and should instead require the CPD to select
some other unspecified “objective, unbiased criteria for
debate admission.”
The Commission rejected the request to change its
regulations. Our review of a rulemaking denial is
“extremely limited and highly deferential.”
Massachusetts v. EPA, 549 U.S. 497, 527-28 (2007)
(internal quotation marks and citation omitted).
Federal agencies have “broad discretion to choose how
best to marshal [their] limited resources and personnel
to carry out [their] delegated responsibilities.” Id. at
527.

15a

Applying this even more deferential standard, we
affirm the Commission’s decision. Plaintiffs suggest
that the Commission’s rejection of their petition was
arbitrary and capricious “for the same reasons”
they challenge the Commission’s decisions about the
CPD’s neutrality and the 15% polling criterion. Because
we have found that the Commission acted reasonably in
reaching those decisions, we hold that the Commission
did not err by electing not to initiate a rulemaking.
For these reasons, the district court’s grant of
summary judgment to the Commission is affirmed.
So ordered.

16a

APPENDIX B
United States District Court
for the District of Columbia
LEVEL THE PLAYING FIELD, et al.,,
Plaintiffs,
v.
FEDERAL ELECTION COMMISSION,
Defendant.
Case No. 15-cv-1397 (TSC)
MEMORANDUM OPINION
This case concerns a highly visible element of our
democratic electoral process: the presidential and
vice-presidential debates held every four years by the
Commission on Presidential Debates (“CPD”).
Plaintiffs Level the Playing Field, Peter Ackerman,
Green Party of the United States, and Libertarian
National Committee, Inc. allege that, following this
court’s remand, Defendant Federal Election
Commission (“FEC”) again violated the Administrative
Procedure Act (“APA”), 5 U.S.C. § 706, in dismissing
two administrative complaints regarding the CPD, and
denying a petition to engage in rulemaking to change
the FEC’s regulations regarding debate staging
organizations. (See ECF No. 76 (“Am. Compl.”) ¶¶
76–82.)

17a

Before the court are Plaintiffs’ motion for summary
judgment (ECF No. 83), Defendant’s cross-motion for
summary judgment (ECF No. 90), Defendant’s motion
to strike (ECF No. 92), and Plaintiffs’ motion to
supplement the record (ECF No. 99). Upon
consideration of the pleadings and the Administrative
Record (ECF No. 105), Defendant’s motion to strike is
GRANTED in part and DENIED in part, Plaintiffs’
motion to supplement the record is DENIED, Plaintiffs’
motion for summary judgment is DENIED, and
Defendant’s cross-motion for summary judgment is
GRANTED.
I. BACKGROUND
This is the second round of summary judgment
briefing in this case. Because this court has already
issued a detailed memorandum and opinion (ECF No.
60), for purposes of this ruling, the court will assume
the parties’ familiarity with the underlying record and
recite only what is necessary to resolve the pending
motions.
A.

The Court’s February 1, 2017 Memorandum
and Opinion

On February 1, 2017, this court issued a
memorandum and opinion finding that the FEC “acted
arbitrarily and capriciously and contrary to law when it
dismissed [Plaintiffs’] two administrative complaints”
and “fail[ed] to provide a reasoned and coherent
explanation” for its denial of Plaintiffs’ rulemaking
petition. (Id. at 28.)

18a

In granting Plaintiffs’ motion for summary judgment
and denying the FEC’s cross- motion for summary
judgment, the court issued five main directives to the
FEC in reconsidering Plaintiffs’ submissions. The court
ordered the FEC to: (1) “articulate its analysis in
determining whether the CPD endorsed, supported, or
opposed political parties or candidates” (id. at 14); (2)
“demonstrate how it considered the evidence,
particularly, but not necessarily limited to, the
newly-submitted evidence of partisanship and political
donations and the expert analyses regarding
fundraising and polling” (id. at 18); (3) notify the ten
remaining directors, address the allegations made
against them, and consider the evidence presented
against them (id. at 19); (4) demonstrate that it had
considered the full scope of Plaintiffs’ evidence as well
as to explain how and why it rejected the evidence in
deciding that CPD’s polling requirement is an objective
criterion (id. at 23); and (5) engage in thorough
consideration of the presented evidence and explain its
decision regarding Plaintiffs’ rulemaking petition (id. at
27–28).
B.

Plaintiffs’ August 11, 2017
Amended Complaint

On August 11, 2017, Plaintiffs filed an amended
complaint alleging that the FEC’s post- remand
decisions indicate that it failed to comply with any of
the court’s directives, and asking the court to take the
following actions:
Declare that the FEC’s dismissals of Plaintiffs’
administrative complaints were arbitrary,

19a

capricious, an abuse of discretion, and otherwise
contrary to law, and direct the FEC, within 30
days, to find that the CPD has violated 11 C.F.R.
§ 110.13 by staging candidate debates in a
partisan manner and without pre- established,
objective criteria; violated 52 U.S.C. § 30118(a) by
making prohibited contributions and
expenditures; and violated 52 U.S.C. §§ 30103 and
30104 by failing to register as a political
committee and by failing to make required reports
and disclosures; and
If the FEC fails to so act, authorize Plaintiffs to
bring a civil action against the CPD, its executive
director, and the directors who have participated
in these violations of federal election law to
remedy those violations; and
Declare the FEC’s denial of the petition for
rulemaking was arbitrary, capricious, an abuse of
discretion, and otherwise contrary to law, and
order the FEC to open rulemaking to revise its
rules governing presidential debates to ensure
that debate sponsors do not unfairly exclude
independent and third-party candidates from
participating.
(See Am. Compl. ¶¶ 3, 9, 21.)
II. STANDARD
On a motion for summary judgment in a suit seeking
APA review, the court must set aside any agency action
that is “arbitrary, capricious, an abuse of discretion, or
otherwise not in accordance with law.” 5 U.S.C. §

20a

706(2). The court’s review is “highly deferential” and
begins with a presumption that the agency’s actions are
valid. Envtl. Def. Fund, Inc. v. Costle, 657 F.2d 275, 283
(D.C. Cir. 1981). The plaintiff bears the burden of
establishing the invalidity of the agency’s action. Id.
The court is “not empowered to substitute its
judgment for that of the agency,” Citizens to Pres.
Overton Park, Inc. v. Volpe, 401 U.S. 402, 416 (1971)
(abrogated on other grounds), but instead must
consider only “whether the agency acted within the
scope of its legal authority, whether the agency has
explained its decision, whether the facts on which the
agency purports to have relied have some basis in the
record, and whether the agency considered the relevant
factors,” Fulbright v. McHugh, 67 F. Supp. 3d 81, 89
(D.D.C. 2014) (quoting Fund for Animals v. Babbitt, 903
F. Supp. 96, 105 (D.D.C. 1995)). “A reviewing court,
however, will accord a somewhat greater degree of
scrutiny to an order that arrives at substantially the
same conclusion as an order previously remanded by
the same court.” Greyhound Corp. v. I.C.C., 668 F.2d
1354, 1358 (D.C. Cir. 1981). “The agency’s action on
remand must be more than a barren exercise of
supplying reasons to support a pre-ordained result.”
Food Mktg. Inst. v. I.C.C., 587 F.2d 1285, 1290 (D.C.
Cir. 1978).

21a

III. ANALYSIS
A.

Defendant’s Motion to Strike and
Plaintiffs’ Motion to Supplement

The FEC moves to strike portions of Plaintiffs’
memorandum of law, portions of Plaintiffs’ counsel’s
declaration, and one of Plaintiffs’ expert affidavits
because the materials were not before the agency when
it made its determinations and are not part of the
administrative record. (See ECF 92 (“Def.’s Mot. to
Strike”) at 1.) The FEC also argues that Plaintiffs’ use
of a FEC Commissioner’s pre-decisional statement is
improper. (See id.) Plaintiffs oppose the motion to
strike and move to supplement the administrative
record with the objected to material. (See ECF No. 99
(“Pls.’ Mot to Supplement”) at 1–2.) Because the
arguments in the motion to strike and the motion to
supplement overlap, the court will assess them
simultaneously with respect to each category of objected
to material.
1. Extra-record Evidence
When reviewing agency actions such as FEC’s
decision here, courts review “the whole record or those
parts of it cited by a party.” 5 U.S.C. § 706; Volpe, 401
U.S. at 420 (“[R]eview is to be based on the full
administrative record that was before the Secretary at
the time he made his decision.”). This includes “all
documents and materials that the agency directly or
indirectly considered” before deciding what action to
take. Pac. Shores Subdiv. Cal. Water Dist. v. U.S. Army
Corps of Engr’s, 448 F.Supp.2d 1, 4 (D.D.C. 2006)

22a

(internal quotation omitted). Judicial review is limited
to the record because a court “should have before it
neither more nor less information than did the agency
when it made its decision.” IMS, P.C. v. Alvarez, 129
F.3d 618, 623 (D.C. Cir. 1997) (quoting Walter O.
Boswell Mem’l Hosp. v. Heckler, 749 F.2d 788, 792 (D.C.
Cir. 1984)). Agencies bear the burden of compiling the
materials and documents they considered, either
directly or indirectly, and the compiled record “is
entitled to a strong presumption of regularity.”
Marcum v. Salazar, 751 F.Supp.2d 74, 78 (D.D.C. 2010).
When, as here, a party seeks to add materials to the
record that it does not contend the agency actually
reviewed, courts have permitted such extra-record
evidence in at least three “unusual circumstances.” Am.
Wildlands v. Kempthorne, 530 F.3d 991, 1002 (D.C. Cir.
2008). These are: (1) when “the agency ‘deliberately or
negligently excluded documents that may have been
adverse to its decision,’” (2) when “background
information [is] needed ‘to determine whether the
agency considered all the relevant factors,’” and (3)
when “the ‘agency failed to explain administrative
action so as to frustrate judicial review.’” City of Dania
Beach v. F.A.A., 628 F.3d 581, 590 (D.C. Cir. 2010)
(quoting Am. Wildlands, 530 F.3d at 1002).
Plaintiffs contend that the extra-record materials
identified in their motion for summary judgment can be
divided into six categories that are permissible under
one of the first two exceptions or for a separate reason.
(See Pls.’ Mot. to Supplement at 2–6.) However, three
of the extra-record materials identified in the FEC’s
appendix—an article regarding a 2018 Senate bid, a

23a

comment made after the 2016 election about the
difficulty of selecting moderators, and an article
concerning Ross Perot’s independent candidacy in
1992—are not encompassed by any of the six categories
delineated by Plaintiffs. For those materials, because
Plaintiffs failed to address them, in accord with Local
Rule 7(b), the court deems the FEC’s motion as
conceded, see Hopkins v. Women's Div., Gen. Bd. of
Glob. Ministries, 238 F. Supp. 2d 174, 178 (D.D.C. 2002)
(citing FDIC v. Bender, 127 F.3d 58, 67–68
(D.C.Cir.1997)) (“It is well understood in this Circuit
that when a plaintiff files an opposition to a motion . .
. addressing only certain arguments raised by the
defendant, a court may treat those arguments that the
plaintiff failed to address as conceded.”), and strikes
those portions from the record. (See ECF No. 83 (“Pls.’
Mot. Summ. J.”) at 14, n.22; 16, n.30; 44, n.58.)
i.

News Articles Regarding CPD Directors’
Participation and Statements

Plaintiffs seek to supplement the record with two
news articles that they allege demonstrate
noncompliance with CPD’s internal policies. The first
article relays CPD Director Olympia Stowe’s opinion
that President Donald Trump was hurting the
Republican brand. (See Pls.’ Mot. Summ. J. at 14, n.18.)
The second article states that CPD Director Frank
Fahrenkopf co-chaired a fundraiser for Adam Laxalt,
who was reportedly considering entering Nevada’s
gubernatorial race at the time. (See id. at 25, n.35.)
Plaintiffs argue that the articles fall under the first and
second Dania Beach exceptions, under which
extra-record evidence may be considered because an

24a

agency has deliberately or negligently excluded adverse
documents, and extra-record evidence may be
considered as needed background information. (See
Pls.’ Mot. to Supplement at 2–3.)
Having considered all arguments, the court finds that
neither of the first and second Dania Beach exceptions
apply to these articles. To prove that the articles fall
within the first Dania Beach exception, Plaintiffs
needed to make a “strong showing of [agency] bad
faith.” Dist. Hosp. Partners, L.P. v. Burwell, 786 F.3d
46, 55 (D.C. Cir. 2015) (quoting James Madison Ltd. ex
rel. Hecht v. Ludwig, 82 F.3d 1085, 1095 (D.C.Cir.1996)
(alteration in original). Here, Plaintiffs proffered only
“conclusory statements,” which “‘fall short’ of that high
threshold.” Id. With respect to the second Dania Beach
exception, Plaintiffs argue that the news articles should
be made part of the record because they show “that the
FEC failed to consider all relevant factors when relying
upon the alleged [internal] policies.” (See Pls.’ Mot. to
Supplement at 3.) But under Dania Beach, it is not
enough that Plaintiffs cursorily allege the evidence
shows a failure to consider all relevant factors;
Plaintiffs must demonstrate that the evidence is
“needed” by the court to make that determination.
Dania Beach, 628 F.3d at 590. And in light of the FEC’s
explanation of the manner in which it relied on CPD’s
representation that it had two internal polices, as well
as the voluminous record, the court is confident that
the two news articles are not needed. See e.g., Lee
Mem’l Hosp. v. Burwell, 109 F. Supp. 3d 40, 54 (D.D.C.
2015) (finding supplementation not needed where
agency provided cogent explanation).
Therefore,

25a

Defendant’s motion to strike the two news articles is
GRANTED, and Plaintiffs’ motion to supplement the
record with them is DENIED.
ii. News Articles Regarding Media Sources
Consulted by Voters
Plaintiffs next seek to admit four news articles under
the first and second Dania Beach exceptions, arguing
that the articles rebut the FEC’s assertion that an
independent candidate can significantly defray the cost
of her campaign by reaching voters through social
media. (See Pls.’ Mot. Summ. J. at 30, nn.38–40; 31,
n.46; Pls.’ Mot to Supplement at 4.)
Here again, the court finds that neither the first nor
second Dania Beach exceptions apply. Plaintiffs proffer
no evidence of bad faith, and therefore cannot meet the
first exception. See Dist. Hosp. Partners, L.P., 786 F.3d
at 55 (noting that to meet the first exception, plaintiffs
must make a strong showing of bad faith on the part of
the agency). And the second exception has not been
met because the FEC’s decision explains how it arrived
at its finding that the Douglas Schoen expert report is
undermined, in part, because the report did not
consider the effect of digital and social media on media
exposure avenues available to independent candidates.
The proffered news articles are not needed to determine
whether the FEC adequately considered all the relevant
factors, including the extent to which voters rely on
social media to learn about presidential candidates. See
e.g., Lee Mem’l Hosp., 109 F. Supp. 3d at 54 (finding
supplementation not needed where agency provided
cogent explanation). Accordingly, Defendant’s motion

26a

to strike the four news articles is GRANTED, and
Plaintiffs’ motion to supplement the record with them
is DENIED.
iii.

Articles, Books, Videos, and Websites
regarding the 2016 Election

Of the FEC’s two decisions—the initial decision was
issued in 2015 and the second decision was issued in
2017—only the 2017 decision references the 2016
election in its analysis. In response to this reference in
the 2017 decision, Plaintiffs seek to supplement the
administrative record with extra-record evidence
concerning the 2016 election. (See Pls.’ Mot. Summ. J.
at 1, n.2; 4, n.6; 13, nn.12–13 & 15–16; 14, nn.17, 19–21,
& 23; 15, nn.24–26; 16, n.29; 33, n.49.) Plaintiffs argue
that the court should either find that the evidence falls
under the second Dania Beach exception or, at a
minimum, take judicial notice of the evidence for
purposes of background. (See Pls.’ Mot. to Supplement
at 5–6.) The court disagrees.
Plaintiffs’ characterization of FEC as “conducting
[its] own sua sponte analysis of the 2016 race,” (see id.
at 6), is a bit of an overstatement. The FEC’s references
to the 2016 election are cabined largely to three
categories:
(1) third party candidates’ name
recognition, media attention, and financial support; (2)
the Democratic and Republican nominees’ spending on
digital marketing; and (3) a potential candidate’s
reported interest in running because of his personal
wealth and name recognition. For each category, the
FEC provides a cogent explanation of its reliance on the
cited materials; thus, supplementation is not needed.

27a

See e.g., Lee Mem’l Hosp., 109 F. Supp. 3d at 54 (finding
supplementation not needed where agency provided
cogent explanation). With respect to Plaintiffs’
alternative argument, because the content of some of
the documents are subject to reasonable dispute and the
court’s focus at this stage is on the documents that can
serve as the foundation for Plaintiffs’ claims, the court
declines to take judicial notice of the documents for
background purposes. Defendant’s motion to strike the
articles, books, videos, and websites is GRANTED, and
Plaintiffs’ motion to supplement the record with them
is DENIED.
iv. Name Recognition Polls Not Mentioned in
FEC’s Decisions
Plaintiffs also seek to supplement the record with a
Gallup and a YouGov poll showing that Libertarian
Party candidate Gary Johnson’s name recognition was
36 percent and 37 percent respectively. (See Pls.’ Mot.
Summ. J. at 27, n.37.) According to Plaintiffs, the polls
show that the FEC erred in relying solely on a
subsequent YouGov poll, which indicated that Gary
Johnson achieved 63 percent name recognition. (Id.)
Plaintiffs argue that the court may take judicial notice
of the polls or, in the alternative, find that the two polls
fall under the first and second Dania Beach exceptions.
(See Pls.’ Mot. to Supplement at 3–4.) However, none of
these three proposed avenues are appropriate here.
“[J]udicial notice is typically an inadequate
mechanism for a court to consider extra- record
evidence when reviewing an agency action.” Dist. Hosp.
Partners, L.P. v. Sebelius, 971 F. Supp. 2d 15, 32, n.14

28a

(D.D.C. 2013), aff’d sub nom. Dist. Hosp. Partners, L.P.
v. Burwell, 786 F.3d 46 (D.C. Cir. 2015). This general
rule rests on the premise that plaintiffs should not be
permitted to exploit the standard for judicial notice to
circumvent the strict standard for supplementing the
administrative record. See Banner Health v. Burwell,
126 F. Supp. 3d 28, 62 (D.D.C. 2015), aff’d in part, rev’d
in part sub nom. Banner Health v. Price, 867 F.3d 1323
(D.C. Cir. 2017) (“Plaintiffs cannot evade that strict
standard by appealing to the standard for judicial
notice.”). And none of the cases relied upon by
Plaintiffs involved an APA case. See e.g., Atkins v.
Virginia, 536 U.S. 304, 316 n.21 (2002) (reviewing
public opinion polling data in death penalty appeal);
Owens v. Duncan, 781 F.3d 360, 362 (7th Cir. 2015)
(using website to determine when sunset and nautical
twilight occurred on certain day in a habeas case).
Therefore, in accord with other courts in this district,
the court declines to take judicial notice of the two polls
because, as discussed below, Plaintiffs have failed to
prove that any of the Dania Beach exceptions apply.
See Riffin v. Surface Transp. Bd., No. 16-1147, 2016
WL 6915552, at *1 (D.C. Cir. Oct. 6, 2016)
(unpublished) (rejecting plaintiff’s effort to supplement
the administrative record through judicial notice and
explaining that none of the three exceptions to the rule
against supplementation were met); Silver State Land,
LLC v. Beaudreau, 59 F. Supp. 3d 158, 172 (D.D.C.
2014) (declining to take judicial notice in APA case
where proposed document did not “qualify for
supplementation of the administrative record or
extra-record review”); see also Dist. Hosp. Partners, 971
F. Supp. 2d at 32 n.14 (“[J]udicial notice of an

29a

adjudicative fact not part of the administrative record
generally is irrelevant to the court’s analysis of the
merits. Instead, a court may only consider an
adjudicative fact subject to judicial notice that is not
part of the administrative record if it qualifies for
supplementation as extra-record evidence.”).
With respect to the first Dania Beach exception, in
addition to their conclusory statement that the two
polls undermine the FEC’s argument and were
deliberately or negligently excluded by the FEC,
Plaintiffs cite to a D.C. Circuit decision permitting
supplementation of the administrative record where the
agency relied on a single memorandum from another
program. See Kent Cty., Delaware Levy Court v. U.S.
E.P.A., 963 F.2d 391, 396 (D.C. Cir. 1992). However, in
that case, the agency looked outside of its own files to
support its decision, but neglected to examine its own
files, which contained several documents “relat[ing] to
the position of the agency’s own experts on the question
central to th[e] case.” Id. Thus, the Court found the
agency negligent for failing to review any of its internal
documents and permitted plaintiff to supplement the
administrative record. Id. Here, however, the poll
relied upon by the FEC and the two polls proffered by
Plaintiffs are all external documents. Thus, there is
insufficient evidence to find that the FEC was either
deliberate or negligent in not including them. Moreover,
Plaintiffs seek to introduce a poll that was taken June
2–5, 2016 and another poll taken July 13–17, 2016. And
because the YouGov poll in the record was taken over a
month later, on August 25–26, 2016, it is not directly
contradicted by the polls proffered by Plaintiffs, and it

30a

is not clear that the polls are adverse to the FEC’s
decision.
Lastly, the second Dania Beach exception does not
apply to the name recognition polls, neither of which
provide insight into the FEC’s findings nor assist the
court in determining whether the FEC adequately
considered the relevant factors. C.f. Rhea Lana, Inc. v.
U.S. Dep’t of Labor, No. 14-CV-00017 (CRC), 2016 WL
10932817, at *1 (D.D.C. Dec. 6, 2016) (finding proposed
supplement provided needed background information
where it included letters “shed[ding] light on the basis
for [the agency’s] decision”). The two proffered polls do
not provide insight into the FEC’s decision making
because they do not reflect the thoughts or efforts of
anyone who participated in the FEC’s decision. And the
court can consider any arguments about to what extent,
if any, the FEC erred in relying only on the August
YouGov poll without considering the two earlier polls
that were not before the FEC. Thus, Defendant’s
motion to strike the name recognition polls is
GRANTED, and Plaintiffs’ motion to supplement the
record with them is DENIED.
v.

2008 Polling Data for President Barack
Obama

Plaintiffs also seek to supplement the record with a
Real Clear Politics poll, which they allege plainly shows
that President Barack Obama’s polling received a boost
after the 2008 Iowa caucuses. (See Pls.’ Mot. Summ. J.
at 42, n.55.) Plaintiffs assert that the court should take
judicial notice of the poll, or consider it under the first
Dania Beach exception, which permits consideration of

31a

extra-record adverse evidence when an agency has
deliberately or negligently excluded it. (See Pls.’ Mot.
to Supplement at 5.)
Plaintiffs have again failed to establish that
supplementation is warranted. They submitted this
poll because “[f]or the first time in its decisions, the
FEC disputed whether President Obama’s polling
received a boost from the 2008 Iowa caucuses.” (Id.)
But the FEC’s decision contains no such dispute; it
simply notes that a polling expert found that President
Obama did not “suddenly burst onto the political scene,
polling shows that he was already reasonably
well-known to voters in advance of the 2008 primaries.”
(A.R. 1934.)1 Nevertheless, even if the decision did
contain the dispute, Plaintiffs have not shown that the
FEC deliberately or negligently excluded the poll, and
judicial notice is inappropriate where none of the Dania
Beach exceptions have been met. Accordingly, the court
will not take judicial notice of the Real Clear Politics
poll and will not consider it as part of the record in
evaluating the cross-motions for summary judgment.
Defendant’s motion to strike the Real Clear Politics poll
is GRANTED, and Plaintiffs’ motion to supplement the
record with it is DENIED.
vi. Douglas Schoen Affidavit
The administrative record in this case includes
Douglas Schoen’s expert report and a cover letter

1

In this opinion, the “A.R.” refers to the administrative
record. The entire administrative record is contained in the
“Second Joint Appendix,” ECF No. 105.

32a

advising Defendant that Schoen’s complete data set
could be provided upon request. Plaintiffs now seek to
supplement the record with an affidavit from Schoen
attaching the data set upon which he relied. (ECF No.
83-3.) Plaintiffs argue that the court should consider
the affidavit and attachment under the second Dania
Beach exception, which allows a court to supplement
the record with evidence that provides needed
background information. (See Pls.’ Mot. to Supplement
at 5.)
The court does not need the affidavit and the data set
to determine whether the FEC considered the relevant
factors. Generally, an administrative record need not be
supplemented with underlying source documents where
a document in the record provides detailed findings. See
Dist. Hosp. Partners, 786 F.3d at 55 (finding
supplementation unnecessary because source data did
not constitute critical background information); Todd
v. Campbell, 446 F. Supp. 149, 152 (D.D.C. 1978), aff’d,
593 F.2d 1372 (D.C. Cir. 1979) (“[T]he Court does not
need to examine the raw data in order to determine
whether or not the Commission decision was arbitrary
and capricious or otherwise not in accordance with
law.”); see also James Madison, 82 F.3d at 1095–96
(“[T]he administrative record included detailed
memoranda describing the examiners’ findings and
recommendations, and [the plaintiff] has given no
reason why the district court should have looked
beyond those memos.”). This case does not present any
reason to depart from this general understanding
because the proposed supplement is, as Plaintiffs
concede, “in many respects [] identical to what Schoen

33a

said in his report.” (Pls.’ Mot. to Supplement at 5.) The
duplicative nature of the supplement renders this case
inapposite to the first case—Oceana, Inc. v. Evans, 384
F. Supp. 2d 203 (D.D.C. 2005)—upon which Plaintiffs
rely. Id. at 217 n.17 (supplementing record with
additional information from the creator of a scientific
model because the proposed supplement explained how
the agency misapplied the model). And Plaintiffs’
second case is inapplicable because, contrary to
Plaintiffs’ representations to the court, the scientist’s
declaration in that case was stricken from the record.
See Sw. Ctr. For Biological Diversity v. Norton, No.
98-CV-934 (RMU/JMF), 2002 WL 1733618, at *8
(D.D.C. July 29, 2002) (“In the end, the addition of
Lande’s declaration is a nonstarter, for it cannot be said
to taint FWS’ final decision.”).
Moreover, to the extent Plaintiffs suggest that had
the FEC requested the data set, it would have changed
its finding that there is “no evidentiary basis” to credit
the figures extracted from the data set, Plaintiffs are
mistaken. The proposed data set—a one-page chart,
entitled “National 18 Week Political Strategy
Outline”—does not address any of the three issues
identified in the FEC’s rulemaking decision. It does not
provide information on the underlying data or explain
the circumstances under which a media firm offered
these estimates. And lastly, it does not address or
acknowledge the biases arising from a media firm’s
financial interest in estimating or promoting high
media buy costs.

34a

Accordingly, Defendant’s motion to strike the Schoen
Affidavit is GRANTED, and Plaintiffs’ motion to
supplement the record with it is DENIED.
2. Eric Olney Declaration
In support of their motion for summary judgment,
Plaintiffs submitted a declaration from Eric Olney, an
attorney in this matter. (ECF No. 83-2.) Attached to the
declaration are several exhibits. The FEC does not
object to the exhibits, but, in a footnote, it moves to
strike the portions of the Olney declaration that contain
“arguments by counsel” because arguments should be
confined to the briefs. (See Def.’s Mot. to Strike at 5,
n.2.)
In response, Plaintiffs maintain that the
declaration is “limited to a description of conversations
and other acts performed by [the] law firm that could
only be attested to in an attorney declaration.” (See
Pls.’ Mot. to Supplement at 7.)
In moving to strike the portions of the Olney
declaration, the FEC erred in three respects. It made its
motion in a perfunctory manner in a footnote, and
instead of identifying all instances of argument or
providing an example of the objectionable argument,
the FEC referred to the objected to material as
“Portions of Declaration of Eric S. Olney.” Then, in its
reply brief, the FEC again confined its argument about
the declaration to a footnote. While it is understandable
that the five-page limit on the FEC’s reply brief may
justify relegating the argument to a footnote, the FEC’s
opening motion had no such page limitation and should
have, at the very least, provided the court with an
example of the objectionable argument. Accordingly,

35a

the court declines to guess which portions of the
declaration contain argument. See Hutchins v. District
of Columbia, 188 F.3d 531, 539 n.3 (D.C. Cir. 1999)
(stating that the court “need not consider cursory
arguments made only in a footnote”); Huntington v.
U.S. Dep’t of Commerce, 234 F. Supp. 3d 94, 101
(D.D.C. 2017) (deeming arguments made in footnote as
forfeited and addressing only arguments made in
briefs). Defendant’s motion to strike unidentified
portions of the Olney Declaration is DENIED.
3. Commissioner Ellen Weintraub’s Remarks
In July 2015, the FEC held an open meeting during
which it discussed Plaintiffs’ rulemaking petition.
Plaintiffs’ motion for summary judgment includes
remarks made by Commissioner Ellen Weintraub
during the discussion. (See Pls.’ Mot. Summ. J. at 8,
n.8.) The FEC moves to strike Plaintiffs’ use of the
remarks because they constitute pre-decisional
deliberations and are thus not properly considered part
of the administrative record. (See Def.’s Mot. to Strike
at 8–10.) Plaintiffs contend that the remarks are
properly before the court to show institutional bias.
(See Pls.’ Mot. to Supplement at 7.) The court agrees
with the FEC.
When reviewing an agency action, the agency’s
opinion and its pre-decisional deliberations are and
should be handled differently. “Agency opinions, like
judicial opinions, speak for themselves.” Checkosky v.
SEC, 23 F.3d 452, 489 (D.C.Cir.1994). “Rendered at the
conclusion of all the agency’s processes and
deliberations, they represent the agency’s final

36a

considered judgment upon matters of policy the
Congress has entrusted to it.” PLMRS Narrowband
Corp. v. F.C.C., 182 F.3d 995, 1001 (D.C. Cir. 1999).
Accordingly, courts should review the agency’s opinion
with a view to determining whether the agency acted
within the scope of its legal authority, explained its
decision, relied on facts with some basis in the record,
and considered the relevant factors. Fulbright, 67 F.
Supp. 3d at 89. In contrast, predecisional deliberations
are not final. Until the agency issues its opinion,
commissioners are free to change their positions and
the bases of their positions. See Checkosky, 23 F.3d at
489 (“Up to the point of announcement, agency
decisions are freely changeable, as are the bases of those
decisions.”). Pre-decisional deliberations will not be
effective if commissioners are concerned that “any slip
of the tongue during an agency’s decisionmaking
process could be fatal.” PLMRS Narrowband Corp., 182
F.3d at 1001. Indeed, if commissioners’ remarks were
regularly deemed fair game for the administrative
record, there could be a chilling effect on “candid and
creative exchanges regarding proposed decisions and
alternatives,” “lead[ing] to an overall decrease in the
quality of decisions.” Ad Hoc Metals Coal. v. Whitman,
227 F. Supp. 2d 134, 143 (D.D.C. 2002). Thus, “[w]here
an agency has issued a formal opinion or a written
statement of its reasons for acting, transcripts of agency
deliberations at Sunshine Act meetings should not
routinely be used to impeach that written opinion.”
Kan. State Network v. FCC, 720 F.2d 185, 191 (D.C. Cir.
1983).

37a

In this case, Commissioner Weintraub’s remarks
were made during pre-decisional deliberations; thus,
the presumption is against inclusion in the
administrative record. In an attempt to rebut the
presumption, Plaintiffs rely on a Third Circuit decision
involving the termination of an employee’s Employee
Retirement Income Security Act benefits. See Kosiba v.
Merck & Co., 384 F.3d 58, 67 (3d Cir. 2004). Contrary
to Plaintiffs’ representations, Kosiba is not in any
material way comparable to this case. In Kosiba, the
district court found that the denial of benefits was not
arbitrary and capricious. Id. at 61. The Third Circuit,
when remanding the case, noted that the district court
could supplement the record with “evidence of potential
biases and conflicts of interest that is not found in the
administrator’s record” in order to determine whether
a standard above the arbitrary and capricious standard
should be applied. Id. at 67 n.5. The procedural posture
and questions presented by the FEC’s motion to strike
are patently different from those presented in Kosiba,
and therefore that case provides no basis for the court
to supplement the record with Commissioner
Weintraub’s pre-decisional remarks. Defendant’s
motion to strike Commissioner Weintraub’s remarks is
GRANTED, and Plaintiffs’ motion to supplement the
record with it is DENIED.
B.

Plaintiffs’ and Defendant’s Cross-Motions
for Summary Judgment

Following this court’s remand, the FEC reconsidered
the allegations in both of Plaintiffs’ complaints as well
as those in Plaintiffs’ petition for rulemaking. The FEC

38a

subsequently issued two decisions again finding
Plaintiffs’ allegations unpersuasive. Plaintiffs now
challenge the underpinnings of each decision.
1. FEC’s Dismissals of Plaintiffs’ Administrative
Complaints
The FEC’s Factual and Legal Analysis opened by
explaining that the FEC uses the “plain meaning” of
“endorse, support, and oppose” when determining
whether the CPD qualifies as a staging organization
that does not endorse, support, or oppose political
candidates or political parties. (A.R. 7213.)
The FEC then analyzed evidence that it had
previously reviewed in prior actions. In so doing, the
FEC first relied on sworn declarations, from the
individuals or organizations quoted in Plaintiffs’
complaint, in which the individuals affirmed that the
“statements attributed to them do not fairly or fully
reflect their respective views on the participation of
independent candidates in CPD debates.” (A.R. 7216.)
The FEC further found that even if the quotes in
Plaintiffs’ complaint were not cherry picked and indeed
once represented the organization’s perspective, “it
would be inappropriate to rely on documents and
statements that are more than 30 years old to ascertain
CPD’s present support or opposition to candidates and
parties,” because organizations change over time. (A.R.
7217.) And the CPD, in particular, conducts an internal
review after every presidential election and has
adjusted the process to be inclusive of independent
candidates. (Id.) The FEC also found that the earlier
documents and statements were of limited persuasive

39a

value because each current CPD director swore that he
or she had never observed a CPD board member
conduct CPD business in a partisan fashion. (A.R.
7218.) Finally, the FEC reasoned that even if the earlier
declarations reflected more current sentiments, they
did not demonstrate that CPD endorsed, supported, or
opposed any party or candidate. (Id.)
The FEC then addressed the evidence that had not
been presented in prior complaints. It found that
statements made in an interview by CPD Co-Chair
Frank Fahrenkopf in his official capacity did not
indicate any categorical support for or opposition to any
candidates; they merely asserted the historical fact that,
aside from Ross Perot, the debates have consisted of
only Democratic and Republican candidates. (A.R.
7219.) The FEC also reviewed all other statements,
financial contributions, and employment-related
evidence to determine whether any were attributable to
any CPD co-chair or director in his or her official
capacity. (A.R. 7221.) The FEC then noted the CPD’s
recently adopted “Political Activities Policy” and an
informal policy limited the risk that financial conflicts
of interest could arise as a result of outside
employment. (A.R. 7221–22.) Accordingly, the FEC
found that the additional evidence failed to demonstrate
that the CPD endorsed, supported, or opposed any
political party or political candidate.
The FEC’s Factual and Legal Analysis then
addressed Plaintiffs’ claim that the fifteen percent
polling threshold is not objective and results in
prohibited corporate contributions from CPD to debate
participants. First, the FEC noted that, in another case,

40a

the court concluded that “third party candidates have
proven that they can achieve the level of support
required by the CPD.” (A.R. 7223–24.) Second, the FEC
acknowledged that this case is different because
Plaintiffs have presented new information in the form
of expert reports.
The FEC took issue with Dr. Clifford Young’s report,
which found that to meet the 15 percent threshold, a
candidate must achieve 60 and perhaps as much as 80
percent name recognition. (A.R. 7224.) The FEC
claimed that by focusing solely on name recognition,
Young oversimplified the study to the detriment of its
usefulness. (AR. 7224–25.) Moreover, the Young report
did not and cannot establish that it is impossible for
independent candidates to reach the requisite name
recognition because 63 percent of registered voters had
heard of Libertarian Gary Johnson and 59 percent had
heard of Green Party candidate Jill Stein.
(AR.7225–26.)
The FEC then turned to political analyst Douglas
Schoen’s report, which stated that the cost to an
independent candidate of achieving 60 percent name
recognition would be over $266 million, including $120
million for paid media content production and
dissemination. (A.R. 7224.) The FEC found that the
report was flawed in large part because it was built on
the Young report’s premise that 60 to 80 percent name
recognition is necessary to meet the 15 percent
threshold. (A.R. 7226.) The FEC criticized the Schoen
report for failing to consider that independent
candidates can attract earned media (free coverage),
that social media provides more economical avenues for

41a

messaging, and that independent expenditure-only
political committees pay for messaging in support of
independent candidates. (A.R. 7226–28.)
Having identified significant limitations
undermining the reports’ persuasiveness, found that
recent elections undermined the reports’ findings,
noted that independent candidates do not begin at zero
percent name recognition, and acknowledged the
judicial finding that independent candidates in the past
have reached 15 percent in the polls, the FEC concluded
that the expert reports did not provide reason to believe
that the 15 percent threshold violated the requirement
to use objective candidate-selection criteria for staging
debates. (A.R. 7228–29.)
The FEC then addressed Plaintiffs’ allegations that
the CPD manipulates the selection of polls to favor
Democratic and Republican candidates, and relies on
inaccurate polls. The FEC found no evidence in the
record that the CPD has manipulated the dates of the
polls to favor any party. (A.R. 7230.) It relied on a
sworn declaration from its independent polling expert
stating, in part, that he has recommended which polls
to use since 2000 based solely upon his professional
judgment and without any partisan purpose or
pre-determined result in mind. (Id.) With regard to
Plaintiffs’ allegations that polling in three-way races is
subject to increased inaccuracy, the FEC gave greater
weight to its own expert, finding that Young’s
conclusions about gubernatorial races were not equally
applicable to presidential races and therefore could not
support a reasonable inference that the CPD’s criteria

42a

for selecting debate participants was not objective.
(A.R. 7231–32.)
Finally, the FEC dismissed Plaintiffs’ remaining
allegations as being grounded solely in policy and
untethered from evidence. (A.R. 7233.)
In their motion for summary judgment, Plaintiffs
assert that the FEC’s conclusions were arbitrary,
capricious, and contrary to law because the FEC: (1)
applied the incorrect legal standard, (2) failed to
properly consider the submitted evidence, and (3)
ultimately reached the wrong conclusion regarding the
objectivity of the CPD’s debate requirement.
i.

Legal Standard Adopted by the FEC

Plaintiffs argue that the FEC failed to articulate the
standard it used in determining whether the CPD
complied with the regulation prohibiting it from
endorsing, supporting, or opposing political candidates
or parties. (See Pls.’ Mot. Summ. J. at 20.) They
contend that the FEC’s conclusory statement that it
applied the plain meaning of each term is insufficient
and offers no insight into its decision-making. (Id.)
Further, Plaintiffs argue that the FEC applied the
“control test” that this court instructed it not to use in
Level the Playing Field v. Fed. Election Comm’n, 232 F.
Supp. 3d 130 (D.D.C. 2017) (“LPF I”). (Id. at 20–21.)
In response, the FEC argues that not only does its
articulation of the standard applied satisfy the court’s
instruction in LPF I, but it is also plainly reasonable
and not contrary to law. (See ECF No. 90 (“Def.’s Resp.
and Mot. Summ. J.”) at 25.) The FEC notes, as it did in

43a

its decision, that the Supreme Court determined in
another context that two out of three of the
terms—“support” and “oppose”—“provide explicit
standards for those who apply them and give the person
of ordinary intelligence a reasonable opportunity to
know what is prohibited.” (Id. (quoting McConnell v.
Fed. Election Comm’n, 540 U.S. 93, 170 n.64 (2003),
overruled on other grounds by Citizens United v. Fed.
Election Comm’n, 558 U.S. 310 (2010)).) In addition,
the FEC contends that Plaintiffs’ assertion that it
applied an improper “control test” is belied by the
record. (Id. at 26.)
The FEC has the better of this argument. Plaintiffs
might prevail if the FEC had merely stated that it
applied the plain meaning of “endorse,” “support,” and
“oppose” without incorporating the application into its
written analysis. But the FEC’s discussion regarding its
application demonstrates that it reviewed the evidence
to determine whether it fell into one of three categories:
(1) evidence that the CPD directly engaged in
prohibited conduct, (2) evidence that CPD personnel
engaged in prohibited conduct in an official capacity,
and (3) evidence that CPD personnel engaged in
prohibited conduct in a personal capacity. (A.R.
7213–22.) The FEC examined the evidence in the first
two categories to determine whether it was persuasive
enough to warrant a finding that the CPD violated the
Federal Election Campaign Act (“FECA” or the “Act”).
(A.R. 7214–20.) In so doing, the FEC used the plain
meaning of the terms “endorse,” “support,” and
“oppose.” (A.R. 7213–22.) With respect to evidence in
the third category, the FEC determined that it did not

44a

violate the Act because an individual is permitted to
wear “multiple hats” and “an individual’s leadership
role in a given organization does not restrict his or her
ability to speak freely on political issues or make
contributions to political committees when he or she
does so in his or her personal capacity.” (A.R. 7220–21.)
Moreover, to the extent that the FEC’s decision
contains a “control test,” it is patently different from
that in Buchanan v. Fed. Election Comm’n, 112 F.
Supp. 2d 58, 63 (D.D.C. 2000). In Buchanan, the FEC
looked for evidence demonstrating that the two major
parties controlled the CPD, was involved in the CPD’s
operations, or had input in the CPD’s debate decision.
Id. at 70–71. The FEC’s use of the control standard
was deemed permissible to address the “specific
contention . . . that the CPD was created to give the two
major parties ‘control over’ the presidential debates.”
Id. at 70–71 n.8. Heeding Buchanan’s narrow holding,
in LPF I this court advised the FEC that the Buchanan
control standard was inapplicable to Plaintiffs’
allegations because Plaintiffs “do not allege that the
Democratic or Republican parties exercised control over
the CPD, but instead that the CPD and its directors
acted on a partisan basis to support those parties.” LPF
I, 232 F. Supp. 3d at 139. And on remand, the FEC
made plain that it was not applying the Buchanan
control standard, but a standard designed address
whether the CPD was liable for its directors’ actions.
That is, in order for the FEC to address Plaintiffs’
allegations that CPD directors were engaging in
partisan activity that permeated the CPD and rendered
it a partisan organization, the FEC needed to look to

45a

the law of agency to assess the merits of Plaintiffs’
claims.
The court therefore DENIES Plaintiffs’ motion and
GRANTS Defendant’s cross- motion with respect to the
appropriateness of the legal standard applied.
ii. FEC’s Treatment of the Evidence
Plaintiffs argue that, for the second time, the FEC
failed to adequately consider the evidence it presented
in its two administrative complaints. (See Pls.’ Mot.
Summ. J. at 21–32.) In response, the FEC contends that
Plaintiffs cannot meet their burden to show that the
Commission acted contrary to law or in an arbitrary
manner. (See Def.’s Resp. and Mot. Summ.J. at 28–41.)
The FEC also notes that on remand, it heeded this
court’s directives and addressed each deficiency
identified in LPF I. (See id. at 24–28.)
In reviewing the FEC’s Factual and Legal Analysis,
this court must assess whether the FEC considered the
“relevant factors” and must “engage in a ‘substantial
inquiry’ into the facts, one that is ‘searching and
careful.’” Ethyl Corp. v. EPA, 541 F.2d 1, 34–35 (D.C.
Cir. 1976) (quoting Volpe, 401 U.S. at 415–16).
However, in educating itself about “the intricacies of
the problem before the agency,” this court must be
mindful that it is not a “superagency that can supplant
the agency’s expert decision-maker.” Id. at 36. As such,
this court must examine the administrative record only
for a “rational connection between the facts found and
the choice made.” Motor Vehicle Mfrs. Ass’n of U.S.,
Inc. v. State Farm Mut. Auto. Ins. Co., 463 U.S. 29, 43
(1983).

46a

Although Plaintiffs mount several challenges to the
FEC’s treatment of the evidence, for the reasons set
forth below, none are availing.
a. Plaintiffs’ disagreement with the
FEC’s findings regarding partisan
evidence
In support of their allegations that the CPD is a
partisan organization that has supported, endorsed, or
opposed political parties or candidates, Plaintiffs
submitted several categories of evidence for the FEC’s
review, none of which the FEC found persuasive.
1. Statements analyzed by FEC in
prior matters
As discussed in LPF I, there is some overlap between
the evidence submitted with Plaintiffs’ complaints and
evidence submitted with prior CPD-related complaints,
including MURs 4987, 5004, and 5021, which were
reviewed by the court in Buchanan. The court there
noted that this evidence of the CPD’s alleged
partisanship was “not insubstantial” and “[a]n ordinary
citizen might easily view the circumstances surrounding
the creation of the CPD along with the evidence of
major-party influence over the past three debates as
giving some ‘reason to believe’ that the CPD always has
supported, and still does support, the two major parties
to the detriment of all others.” Buchanan, 112 F. Supp.
2d at 72. However, it found that plaintiffs lacked
“contemporaneous evidence” specifically relating to the
CPD’s decisions regarding the 2000 election debates at
issue in that case. Id.

47a

Here, after acknowledging its earlier conclusions that
the age of the documents and statements undermined
their persuasiveness as evidence of current bias, the
FEC reevaluated the evidence. (A.R. 7215–18.) In so
doing, it first compared Plaintiffs’ characterization of
several statements with declarations submitted by the
quoted individuals. (A.R. 7215.) For example, Plaintiffs
submitted statements made by the then-chairmen of
the Republican and Democratic parties, who entered
into a 1985 Memorandum of Agreement that the
debates “should be principally and jointly sponsored
and conducted by the Republican and Democratic
National Committees,” and issued a 1987 press release
stating that “while the two party committees will be
sponsors for all future presidential general election
debates between our party nominees, we would expect
and encourage” the League of Women’s participation as
a sponsor. (A.R. 2244, 2249.) Plaintiffs view these
statements as “incontestably partisan.” (See Pls.’ Mot.
Summ. J. at 22.) However, the FEC credited a
declaration from CPD Co-Chair Fahrenkopf that
Plaintiffs’ “cherry-picked quotes” must be understood
from the perspective of two individuals working to
procure “buy in” from the two major parties because
“securing commitment of both major party nominees”
was a “major impediment” to institutionalized debates.
(A.R. 7058, 7216.) In another instance, Plaintiffs
submitted a statement made by a then-former CPD
board member, who in a 2001 interview stated that the
then-CPD Executive Director was “extremely careful to
be bi-partisan.” (A.R. 7216.) Plaintiffs assert that
“bi-partisan” refers to an agreement between two major
political parties. (See Pls.’ Mot. Summ. J. at 22.) The

48a

FEC, however, credited a declaration from the quoted
individual that the word “bi-partisan” was used “to
mean not favoring any one party over another.” (A.R.
7095, 7216.) These two instances are not anomalous.
The FEC deferred to each declarant’s attestation that
the meaning Plaintiffs ascribed to their statements was
inaccurate. (A.R. 7035–7161, 7216.)
The FEC next determined that even if the past
statements did “suggest support for debates exclusively
between Republicans and Democrats or opposition to
the inclusion of independent candidates,” they did not
“necessarily reflect the organization’s perspective at the
time it sponsored the 2012 presidential debates at
issue.” (A.R. 7217.) The FEC noted that the CPD
conducts an internal review after every presidential
election, indicating that the CPD may change over time.
(Id.) And it cited the fact that, following allegations that
the 1996 debates arbitrarily excluded Ross Perot, the
CPD studied the 1996 debates, adopted new candidate
selection criteria, and retained a polling expert to
ensure the new criteria were carefully and thoughtfully
applied. (Id.) The FEC also relied on sworn declarations
from every director, attesting that he or she has “never
observed any [CPD] Board member ever approach any
issue concerning the CPD or its mission from a partisan
perspective and the CPD has conducted its business in
a strictly nonpartisan fashion.” (A.R. 7218.) (alteration
in original)
Finally, the FEC reasoned that even if the past
statements “did reflect more current sentiments, they
are not indicative of CPD’s organizational endorsement
of or support for the Democratic and Republican Parties

49a

and their candidates, or CPD’s opposition to third party
candidates” for two reasons. (Id. (emphasis in
original).) It noted that two of the documents were not
released by the CPD, but the Democratic and
Republican National Conventions “as expressions of
[their] commitment to a new custom for presidential
debates.” (Id.) There was also no evidence that the
statements from the CPD officers and directors were
made in their capacity as CPD representatives. (Id.)
The court finds the FEC’s three-layer assessment
sufficient. It “examine[s] the relevant data and
articulate[s] a satisfactory explanation for its action
including a rational connection between the facts found
and the choice made.” Tex. Neighborhood Servs. v. U.S.
Dep’t of Health & Human Servs., 875 F.3d 1, 6 (D.C.
Cir. 2017). The FEC rationally decided, based on
evidence presented to it, that the statements were
non-partisan, not representative of the current CPD, or
not indicative of CPD’s organizational endorsement,
support, or opposition. That Plaintiffs or other
like-minded individuals may disagree with the FEC’s
interpretation of these statements is not enough for the
court to find that the FEC’s decision is arbitrary,
capricious, or contrary to law. See, e.g., New Life
Evangelistic Ctr., Inc. v. Sebelius, 753 F. Supp. 2d 103,
133 (D.D.C.2010) (“[W]hile New Life may
understandably disagree with HHS’ determination,
mere disagreement cannot discharge its burden of
establishing that the determination was arbitrary,
capricious, an abuse of discretion, or otherwise not in
accordance with law.”). Therefore, in light of the FEC’s
reasoned explanations, this court finds that the FEC’s

50a

treatment of previously considered evidence was
neither arbitrary nor contrary to law.
2. Statements analyzed by FEC for the
first time
Plaintiffs next challenge the FEC’s treatment of a
2015 interview that CPD Co-Chair Fahrenkopf gave to
SkyNews. In the interview, Fahrenkopf was asked the
following question:
And, this time around, of course, together, the
television companies wanting to do the two lead
candidates, the three lead candidates, and then a
four candidate debate, the conservative leader said
he wouldn’t do that, and we’ve ended up with a
seven person, a seven party, debate. What do you
think the prospects for that are?
(A.R. 3099.) Fahrenkopf responded:
Well, you know the primary debates here in the
United States, we often—and of course the
Republicans three years ago, had seven or eight
people on the stage and people jokingly say it’s
less of a debate than a cattle show, because there’s
such little time for each candidate to get across in
the short period what their views are on issues.
That’s why in the general election debate, we have
a system, and we, you know, as you know,
primarily go with the two leading candidates, it’s
been the two political party candidates, save in
except for 1992 when Ross Perot participated in
the debates. So, seven people on the stage at one
time is very difficult, it’s going to take a very

51a

clever moderator to make sure that each candidate
gets an opportunity to put forth their views.
(Id.)
Plaintiffs read this exchange to indicate that
Fahrenkopf “admit[ted] that the CPD uses its ‘system’
to ensure that only the ‘two leading candidates’ can
participate in the debates.” (A.R.3094.) Plaintiffs
therefore argued that the FEC should view the
admission as confirmation of the CPD’s bias and
respondents’ violation of federal law. (A.R. 3093.)
Plaintiffs also asked the FEC to not afford significant
weight to a portion of CPD Director Janet Brown’s
declaration that CPD’s selection system is designed to
be inclusive enough to draw the leading candidates
without being so inclusive that leading candidates
would refuse to participate, because Plaintiffs viewed it
as contradicting Fahrenkopf’s admission. (A.R. 3094.)
Upon review, the FEC found “no categorical support
for Democrats or Republicans or opposition to
independent candidates” because it viewed Fahrenkopf
as referring to a trend. (A.R. 7219.) Then, as it had done
with the statements discussed above, the FEC looked to
Fahrenkopf’s declaration, in which he averred that his
remarks were not fairly construed by Plaintiffs. (A.R.
3120.) Specifically, the FEC agreed with Fahrenkopf’s
explanation that in responding to a question about a
seven-candidate debate, he simply stated “the historical
fact that in the United States, the general election
debates usually have been between two candidates, who
have been the major party nominees.” (A.R. 3119–20.)
Lastly, the FEC noted that Fahrenkopf’s remarks about

52a

the effect a seven-candidate debate would have on the
“educational value of debates” is consistent with the
CPD’s statement that it “operates for the purpose of
providing meaningful debates for the public benefit.”
(A.R. 7219–20.)
In moving for summary judgment on the FEC’s
treatment of the SkyNews interview, Plaintiffs contend
that the FEC improperly accepted Fahrenkopf’s “bogus
explanation” that he was merely stating a historical
fact, because the interviewer’s “question on its face was
prospective.” (See Pls.’ Mot. Summ. J. at 22.) Plaintiffs
note that the statement “we . . .primarily go with” is
present tense. (See ECF No. 97 (“Pls. Reply and Opp.
Mot. Summ. J.”) at 10 (emphasis and ellipsis in
original).) Plaintiffs also accuse the FEC of sharing the
CPD’s partisan bias because the FEC espouses the
“paternalistic view” that multiple candidates have a
negative effect on the debates’ educational value. (Pls.’
Mot. Summ. J. at 23.)
Plaintiffs contend that because the interviewer posed
a prospective question, the FEC should have read
Fahrenkopf’s entire answer as relating to the future.
This argument goes too far. In answering a question
about the future, it is not unusual to use the past as a
frame of reference. Given Fahrenkopf’s answer and
declaration, it was reasonable for the FEC to find that
a portion of his statement asserted a historical
fact—“we . . . primarily go with the two leading
candidates, it’s been the two political party
candidates”—and the other portion of his answer
addressed the question about a seven candidate debate
in the future—“[s]o, seven people on the stage at one

53a

time is very difficult, it’s going to take a very clever
moderator to make sure that each candidate gets an
opportunity to put forth their views.” (A.R. 3099.)
Accordingly, the court finds that the FEC’s treatment
of Fahrenkopf’s 2015 interview was neither arbitrary
nor contrary to law.
3. Policies implemented
leadership

by CPD

As an exhibit to their complaints, Plaintiffs included
a document entitled “Commission on Presidential
Debates: Conflict of Interest Policy,” created to protect
the CPD’s interests “when it is contemplating entering
into a transaction or arrangement that might benefit
the private interests of an officer, director or senior
manager of the Organization or might result in a
possible excess benefit transaction.” (A.R. 2768–71,
4017.)
On remand, the CPD submitted a declaration from
its Executive Director explaining that there are two
additional policies. The first is an “informal policy,”
which provides that “Board members are to refrain
from serving in any official capacity with a political
campaign or party while serving on the Board.” (A.R.
7103.) The second is a “formal Political Activities
Policy” that expands upon the informal policy and “is
intended to deter CPD-affiliated persons from
participating, even in a personal capacity, in the
political process at the presidential level (including the
making of campaign contributions) while serving on the
Board, despite the fact no such policy is required by
FEC regulations.” (A.R. 7103–04.)

54a

The parties’ arguments with respect to this evidence
are akin to two ships passing in the night. Plaintiffs
argue that the FEC erred in relying only on the CPD’s
description of the two previously undisclosed policies
instead of actually reviewing the policies. (See Pls.’
Mot. Summ. J. at 24–26.) According to Plaintiffs, the
CPD’s cursory description of the policies demonstrate
that they are ineffective at prohibiting partisan activity.
(Id.) In response, the FEC highlights that Plaintiffs
submitted the “Conflict of Interest Policy” for the
FEC’s review, and the FEC subsequently reasonably
determined that the policy “appear[s] to limit financial
conflicts of interest that could arise as a result of
outside employment.” (Def.’s Resp. and Mot. Summ. J.
at 34.) This response, focusing solely on the previously
disclosed policy, indicates that the FEC may have
misunderstood Plaintiffs’ contention regarding the two
undisclosed policies.
Putting this apparent misunderstanding aside, the
FEC’s treatment of both undisclosed policies was
appropriate given its earlier findings that political
statements, contributions, and positions held by CPD
leadership solely in their personal capacity were
acceptable. Plaintiffs’ argument that the FEC erred in
considering the two undisclosed policies might have had
more traction had the FEC solely or primarily relied on
policies it had neither viewed nor questioned. However,
the FEC’s Factual & Legal Analysis makes clear that its
determination did not rise or fall with the policies.
Before mentioning the policies, the FEC stated that (1)
the statements of consequence were those that “express
the position of the CPD,” (2) the contributions of

55a

consequence were those that “originated from CPD
resources,” and (3) the only positions of consequence
were those where the CPD officer and directors “acted
as agents of CPD” in the course of the outside
employment. (A.R. 7221.) The FEC then found that
Plaintiffs failed to adduce any evidence suggesting that
specific statements, contributions, or positions fell into
any one of those three categories. (Id.) Next, the FEC
found that most of the challenged work preceded the
individual’s CPD service and thus was not fairly
attributable to the CPD. (Id.) The FEC then addressed
its reliance on all three policies, and added appropriate
caveats to show that it had accounted for the CPD’s
failure to provide the Political Activities Policy and the
informal policy. (See id. (“Although not part of
Respondents’ submissions, the policy reportedly . . .”).)
Accordingly, the court finds that the FEC’s treatment
of the policies was neither arbitrary nor contrary to law.
b. Plaintiffs’ contention that the FEC
failed to consider key partisan
evidence
Plaintiffs argue that the FEC’s Factual and Legal
Analysis failed to “specifically address” the following
“evidence demonstrating the CPD’s partisan bias.”
(See Pls.’ Mot. Summ. J. at 23.)
!

Fahrenkopf’s 1987 statement that the CPD
was “not likely to look with favor on including
third-party candidates in the debates” (A.R.
2252);

56a

!

Former Senator Alan Simpson’s 2002
comment that “Democrats and Republicans
on the commission [] are interested in the
American people finding out more about the
two major candidates—not about independent
candidates who mess things up” (A.R. 3136);

!

Representative John Lewis’ comment that
“the two major parties [have] absolute control
of the presidential debate process” (A.R.
3095);

!

Congressional testimony that the Democratic
and Republican parties determine who
participates in the debates, Buchanan, 112 F.
Supp. 2d at 71;

!

Fahrenkopf’s reference to the Republican
Party as “our great party” (A.R. 2382–83);

!

Cash contributions from CPD directors to
Democratic and Republican campaigns (see,
e.g., A.R. 2370, 2373–80, 2403–05, 2407–08);
and

!

CPD directors’ lobbying efforts on behalf of
industries that gave money to Democratic and
Republican candidates (see, e.g., A.R. 2370,
2385).

(Id. at 23–24.)
The first four pieces of evidence are encompassed in
the FEC’s discussion of evidence that it has previously
reviewed in connection with other administrative
complaints. (A.R. 7214– 18.) As detailed above, the FEC

57a

found that all the previously considered evidence was
non- partisan, not representative of the current CPD, or
not representative of the organization. In LPF I, this
court stated that it “does not expect the FEC to discuss
every single page of evidence in order to demonstrate
that it had carefully considered the facts.” 232 F. Supp.
3d at 142.
The last three pieces of evidence are encompassed in
the FEC’s discussion of more recent partisan evidence
that it had not previously considered. (A.R. 7219–22.)
As noted above, the FEC reviewed that evidence to
determine whether it amounted to evidence that (1) the
CPD directly engaged in prohibited conduct, (2) CPD
personnel engaged in prohibited conduct in an official
capacity, and (3) CPD personnel engaged in prohibited
conduct in a personal capacity. (A.R. 7213–22.)
Categorizing the evidence in this manner was a critical
step in the FEC’s analysis because prohibited conduct
done solely in a personal capacity was deemed benign.
The FEC found that each of the last three pieces of
evidence fell within the benign category. Beginning
with Fahrenkopf’s article in which he referred to the
Republican Party as “our great party,” the FEC found
that “there is no indication that Fahrenkopf wrote his
op-ed in his official capacity as CPD co-chair, nor does
the opinion piece express positions on behalf of CPD.”
(A.R. 7221.) With respect to the cash contributions
made by CPD personnel to Democratic and Republican
campaigns, the FEC found “no suggestion that any of
the contributions . . . originated from CPD resources or
any source other than their respective personal assets.”
(Id.) Lastly, with respect to the lobbying efforts, the

58a

FEC found no information that the CPD directors acted
“as agents of CPD in the course of outside
employment,” “on behalf of the CPD” in the course of
lobbying efforts, or “on behalf of their employer while
volunteering for CPD.” (Id.)
Because the FEC did in fact address each piece of
evidence identified by Plaintiffs, Plaintiffs’ contention
is reduced to a simple disagreement with the FEC’s
decision (as opposed to their representation that the
FEC ignored a mountain of evidence), and such a
disagreement does not discharge Plaintiffs of their
burden to establish that the decision was arbitrary,
capricious, an abuse of discretion, or otherwise not in
accordance with law. Therefore, this court finds in favor
of the FEC.
c. Plaintiffs’ contention that the FEC
and CPD Directors failed to give
sufficient consideration to evidence
that CPD Directors were
participants in a “partisan scheme”
In LPF I, this court ordered that on remand, the FEC
must notify the named directors that Plaintiffs’
complaint alleged that the directors had committed a
violation of the FECA, give the directors the
opportunity to address the allegations, and consider the
evidence against the directors. 232 F. Supp. 3d at 143.
In accordance with this court’s order, the FEC notified
the directors and provided them with an opportunity to
respond. Nine of the directors submitted sworn
declarations containing nearly identical paragraphs.
(A.R. 7143–61.)

59a

Plaintiffs contend that the directors’ responses
demonstrate that neither they nor the FEC gave “any
sufficient thought to the substantial evidence.”
Specifically, they contend that the declarations are
meaningless because they are virtually identical and
summarily deny the allegations. (See Pls.’ Mot. Summ.
J. at 32.) Plaintiffs also assert, using Alan Simpson’s
declaration as an example, that the declarations are
flawed because they do not confirm that the directors
reviewed the complaint or supporting evidence. (Id. at
32–33.) Plaintiffs therefore conclude that the FEC
should have questioned their validity. (Id. at 33.)
The FEC responds that it was reasonable for it to
give greater weight to the declarations because
Plaintiffs’ “cherry-picked quotes from CPD’s directors
were not made under oath and the quoted statements
do not necessarily contradict respondents’
declarations.” (Def.’s Resp. and Mot. Summ. J. at 35.)
The FEC uses Simpson’s declaration to demonstrate
that he did in fact directly address the statement that
Plaintiffs accused him of ignoring. (Id.) As to Plaintiffs’
argument that the FEC should have questioned the
validity of the declarations, the FEC states that the
Factual and Legal Analysis’ robust discussion regarding
the evidence’s age, history, context, and legal
significance demonstrates that it did not blindly accept
the declarations. (ECF No. 104 (“Def.’s Reply”) at
12–13.) In addition, the FEC argues that in the absence
of the declarations, it would have reached the same
conclusion because all the evidence—except for the
remarks made in Fahrenkopf’s 2015 interview—was
“too old and/or only pertained to CPD directors’

60a

non-official capacity and thus likely would not establish
CPD liability.” (Id. at 13.) Lastly, the FEC cites Circuit
case law stating that it is not a valid objection that
conflicts in the evidence might have been resolved
differently or other inferences may have been drawn
from the same record. (Id.)
The FEC determined that out of all of Plaintiffs’
evidence, only one statement— Fahrenkopf’s 2015
interview—was both recent and given in an official
capacity. The FEC engaged in an in-depth analysis of
that statement before finding that it did not evince
partisan bias. For the remaining statements, the FEC
deemed them benign because they were outdated or
made in the individual’s personal capacity, and
therefore it was not unreasonable for the FEC to award
greater weight to the more recent declarations. In
addition, to the extent the FEC may have erred in
relying on the declarations, such error was not
prejudicial given that the FEC also separately identified
critical imperfections in the statements. Jicarilla
Apache Nation v. U.S. Dep’t of Interior, 613 F.3d 1112,
1121 (D.C. Cir. 2010) (“The harmless error rule applies
to agency action because ‘[i]f the agency’s mistake did
not affect the outcome, if it did not prejudice the
petitioner, it would be senseless to vacate and remand
for reconsideration.’”). The court therefore finds that
Plaintiffs have not met their burden in establishing that
the FEC’s treatment of the nine declarations was
arbitrary, capricious, or otherwise contrary to law.

61a

d. Plaintiffs’ disagreement with the
weight afforded to their experts
Plaintiffs submitted two supporting expert reports,
one of which was prepared by Clifford Young, and in
which report he opined that “on average, an
independent candidate must achieve a minimum of 60%
name recognition, and likely 80%, in order to obtain
15% vote share.” (A.R.2493.) Young arrived at this
conclusion after noting, among other things, that there
is a positive correlation between name recognition and
vote share. (Id.) He also stated that three-way races are
more error prone than two-way races, which could lead
to an independent candidate’s improper exclusion from
the debate. (A.R. 2519.) The other expert report was
authored by Douglas Schoen. Building on Young’s
finding that 60 percent name recognition is required to
meet the 15 percent polling threshold, Schoen opined
that an independent candidate should expect to spend
$266,059,803 to run a campaign capable of meeting the
15 percent polling threshold, and that this level of
financing is impossible for all but the major-party
candidates. (A.R. 2555–56.) Schoen also declared that
with respect to polling error, elections with more than
two candidates are prone to distinct volatility that
limits the predictive power of pre-election polling data.
(A.R. 2556.) According to Plaintiffs, the two expert
reports work in tandem to support their argument that
the 15 percent threshold is not an objective criterion.
Because the FEC addressed the two expert reports at
length in its Factual & Legal Analysis, Plaintiffs do not
and cannot contend that the FEC did not take the
expert reports into account. Instead, they argue that

62a

the FEC erred in determining how much evidentiary
weight to give the expert reports. But the fact that
Plaintiffs disagree with how the FEC treated the
evidence is not actionable because the FEC provided a
sound and reasoned basis for discounting both expert
opinions.
With respect to Young’s expert report, the FEC
found that (1) the analysis was limited in its scope
because it considers one factor—name recognition—to
the exclusion of other key factors, such as fundraising,
candidate positioning, election results, idiosyncratic
events, policy preferences, and political missteps; (2)
the report did not establish that independent
candidates do not and cannot acquire 60 percent name
recognition; (3) Young’s metric for polling error—the
difference between the poll and the actual result on
election—was not useful because the CPD is concerned
only with a candidate’s support at a given moment; and
(4) Young’s reliance on three- way gubernatorial
election polling was not useful in the presidential
election polling context because presidential election
polling is inherently more reliable than polling in low
turn-out elections, such as gubernatorial races. (A.R.
7224–25, 7231–32.)
The FEC found that Schoen’s report (1) was flawed
because it built upon the Young report’s flawed
findings; (2) presumed that all independent candidates
must pay for all of their media; a presumption which
was unfounded because candidates are able to attract
earned media; (3) failed to address the fact that digital
and social media has enabled the sharing of campaign
messaging at a much lower cost than more traditional

63a

news outlets; (4) did not account for the fact that
independent expenditure-only political committees are
on the rise and are able pay for messaging, which
reduces the amount the candidate must spend in order
to reach 60 percent name recognition; and (5)
incorrectly presumed that independent candidates
begin with 0 percent name recognition and funding.
(A.R. 7226–29.)
Each of the FEC’s evidentiary findings was informed
and reasonable given the facts presented to it and the
flaws identified by the FEC. That Plaintiffs would have
come to a different conclusion regarding the weight
afforded to the reports does not render the FEC’s
findings arbitrary, capricious, or contrary to law.
Moreover, the FEC was permitted to afford more weight
to its expert, Gallup’s Editor-in-Chief Frank Newport.
See Wis. Valley Improvement v. F.E.R.C., 236 F.3d 738,
746–47 (D.C. Cir. 2001) (“Given the presence of
disputing expert witnesses,” the court “‘must defer to
‘the informed discretion of the responsible federal
agencies.’”).
iii.

FEC’s Determination Regarding CPD’s
Polling Criterion

Finally, Plaintiffs argue that the FEC’s dismissals
were arbitrary and capricious because the agency
“ignored or misconstrued the evidence that the CPD’s
polling criteria is not ‘objective’ and instead favors the
major party nominees.” (See Pls.’ Mot. Summ. J. at 33.)
The FEC regulations require that staging organizations
such as the CPD “use pre-established objective criteria
to determine which candidates may participate in a

64a

debate,” but does not define “objective criteria.” 11
C.F.R. § 100.13(c); see also Perot v. FEC, 97 F.3d 553,
559–60 (D.C. Cir. 1996) (stating that regulation “does
not spell out precisely what the phrase ‘objective
criteria’ means,” giving “the individual organizations
leeway to decide what specific criteria to use”). In
Buchanan, however, the court noted that “the
objectivity requirement precludes debate sponsors from
selecting a level of support so high that only the
Democratic and Republican nominees could reasonably
achieve it.” 112 F. Supp. 2d at 74.
Here, Plaintiffs bring two challenges. First, they take
issue with the FEC’s failure to dispute that if an
independent candidate did reach 15 percent support,
there is nothing to prevent the CPD from manipulating
the selection of polls to exclude the independent
candidate. (See Pls.’ Mot. Summ. J. at 34.) Second,
Plaintiffs contend that the FEC failed to address the
fact that no independent candidate has satisfied the 15
percent criterion since it was instituted by the CPD.
(See id.)
Plaintiffs’ first challenge is based in conjecture,
requiring the occurrence of two separate events: first,
that an independent candidate reaches the 15 percent
threshold, and second, that the CPD manipulates the
selection of polls to exclude the independent candidate.
Faced with such hypothetical scenarios, the FEC relied
on its independent polling expert’s sworn declaration
that he recommends polls based on the quality of the
methodology employed, the reputation of the polling
organizations, and how often the polling is conducted.
(A.R. 3045.) The expert further averred that he makes

65a

recommendations based solely upon his professional
judgment and without any partisan purpose or
pre-determined result in mind, and that the CPD has
always adopted his recommendations. (Id.) In light of
this declaration, the FEC’s decision to discount
Plaintiffs’ hypothetical misconduct cannot be construed
as arbitrary.
With regard to Plaintiffs’ second challenge, once the
FEC determined that the Schoen and Young reports
contained flaws that undermined their persuasive
value, the FEC relied on a judicially-upheld finding that
independent candidates have reached the 15 percent
threshold in the past. Indeed, the Buchanan court
stated:
In view of the substantial deference I must accord
to the FEC’s interpretation of its own regulations,
I cannot conclude that it was plainly erroneous or
inconsistent with the regulation for the FEC to
find that the 15% support level set by the CPD is
“objective” for the purposes of 11 C.F.R. §
110.13(c). As Brown indicated in her declaration,
several third party candidates have in the past
achieved over 15% support in the polls taken at or
around the time that the debates are traditionally
held. For instance, by September of 1968, George
Wallace had achieved a level of support of
approximately 20% in the polls. John Anderson
was invited by the League of Women Voters to
participate in the 1980 presidential debates after
his support level reached approximately 15%.
Finally, in 1992, Ross Perot’s standing in the polls
was near 40% at some points and he ultimately

66a

received 18.7% of the popular vote that year.
(Brown Decl. at ¶ 35.) Thus, third party
candidates have proven that they can achieve the
level of support required by the CPD. While a
lower threshold of support might be preferable to
many, such a reading is neither compelled by the
regulation's text nor by the drafters’ intent at the
time the regulation was promulgated. Accordingly,
deference to the FEC’s interpretation is
warranted.
112 F. Supp. 2d at 74. And because the FEC first
discounted all newly submitted evidence purporting to
show that the criterion was not objective, all that
remained was the evidence that was considered in
Buchannan, and thus the FEC’s reliance on
Buchanan’s findings that it was possible for a third
party candidate to reach the polling threshold was
reasonable.
Accordingly, the court concludes that the FEC’s
determination regarding the polling criterion was
neither arbitrary nor capricious. The court therefore
DENIES Plaintiffs’ motion and GRANTS Defendant’s
cross-motion with respect to the FEC’s determination
regarding the polling criterion.
2. FEC’s Decision to Not Engage in Rulemaking
Plaintiffs also move for summary judgment on its
claim that the FEC’s decision not to initiate rulemaking
was arbitrary and capricious in violation of the APA.
The court’s review of an agency’s decision not to engage
in rulemaking is very limited, and that decision “is at
the high end of the range of levels of deference we give

67a

to agency action under our ‘arbitrary and capricious’
review.” Defs. of Wildlife v. Gutierrez, 532 F.3d 913, 919
(D.C. Cir. 2008) (internal quotation omitted). The
proper inquiry is “whether the agency employed
reasoned decision- making in rejecting the petition.” Id.
In making this assessment, the court “must examine
‘the petition for rulemaking, comments pro and con . . .
and the agency’s explanation of its decision to reject the
petition.” Am. Horse Prot. Ass’n, Inc. v. Lyng, 812 F.2d
1, 5 (D.C. Cir. 1987) (quoting WWHT, Inc. v. FCC, 656
F.2d 807, 817–18 (D.C. Cir. 1981)). An order
overturning the agency’s decision and requiring
promulgation of a rule is reserved for only “the rarest
and most compelling of circumstances.” WWHT, 656
F.2d at 818. However, if the agency fails to provide a
reasonable explanation for its decision, an appropriate
remedy may be a remand to the agency for
reconsideration and publication of a new decision or the
commencement of rulemaking if the agency so decides.
See, e.g., Shays v. FEC, 424 F. Supp. 2d 100, 116–17
(D.D.C. 2006).
In its Petition for rulemaking, Plaintiffs requested
the following:
The FEC should conduct a rulemaking to revise
and amend 11 C.F.R. § 110.13(c), the regulation
governing the criteria for candidate selection that
corporations and broadcasters must use in order
to sponsor candidate debates. The amendment
should (A) preclude sponsors of general election
presidential and vice-presidential debates from
requiring that a candidate meet a polling
threshold in order to be admitted to the debates;

68a

and (B) require that any sponsor of general
election presidential and vice-presidential debates
have a set of objective, unbiased criteria for debate
admission that do not require candidates to satisfy
a polling threshold to participate in debates.
(A.R. 0009–10.) In support of this request, Plaintiffs
presented much of the same evidence, including the
Young and Schoen reports, as they presented in support
of their administrative complaint. Plaintiffs’ basic
argument is that the use of a single polling criterion to
determine admission to candidate debates is
particularly susceptible to excluding candidates and
confining support to the two major party candidates,
creating an appearance of corruption or unlawful
conduct. Plaintiffs therefore argue that in the unique
context of presidential and vice-presidential debates,
which are run solely by the CPD, the FEC should
continue permitting the CPD or future debate staging
organizations to craft their own objective criteria but
disallow the use of polling thresholds. (A.R. 0032.) The
FEC received 1,264 comments, and only one—from the
CPD— opposed the Petition. (A.R. 1903.)
When it remanded this case, this court identified
several problems with the FEC’s reasoning. For
example, the FEC acknowledged that polling thresholds
could be used to advance one candidate over another,
and summarily stated that other mechanisms would
detect the issue without explaining why alternative
processes would be preferable. (A.R. 1905.) And the
FEC assessed a nationwide prohibition on polling
thresholds for every debate as opposed to Plaintiffs’
requested prohibition on polling thresholds for only

69a

presidential and vice president debates. (Id.) The court
therefore directed the FEC to reconsider the
rulemaking petition and issue an opinion addressing the
court’s concerns. LPF I, 232 F. Supp. 3d at 148.
Following the remand, the FEC again denied
Plaintiffs’ petition for rulemaking. Plaintiffs now move
for summary judgment based on the FEC’s treatment
of its two expert reports. (See Pls.’ Mot. Summ. J. at
36–43.) As Plaintiffs aptly note, the reasoning in the
Supplemental Notice of Disposition “largely mirrors the
arguments in the Factual and Legal Analysis” and adds
a “handful of additional arguments.” (Id. at 36.) And
given this court’s finding that the FEC’s treatment of
the Young and Schoen report were neither arbitrary nor
contrary to law, there is no need to assess whether the
FEC’s additional reasons for discounting the expert
reports are sufficient. However, the court notes that the
flaws identified by the FEC included: (1) Young’s
decision to measure name recognition at an early stage
in each model may have amplified polling errors, which
are higher earlier in the election cycle; (2) Young’s
analysis does not account for the fact that the
September candidate field is smaller than the earlier
stage that his analysis uses; (3) Young’s report does not
establish any causative effect between name recognition
and vote share; (4) Young’s report fails to provide any
evidence that polling error is biased in a manner
specific to party affiliation; (5) Schoen’s report builds
its conclusion through an extensive series of
unsupported suppositions and assertions; (6) Schoen’s
report failed to explain the circumstances under which
the leading corporate and political media buying firm

70a

offered its estimate that an independent candidate
would need $100 million for a media buy; and (7)
Schoen’s report does not account for any inherent
biases held by the buying firm. (A.R. 1932–37.) These
flaws vary in magnitude, but as discussed above, the
other flaws were sufficient for the FEC to discount
Plaintiffs’ two proffered experts and rely on its own
independent expert. Thus, Plaintiffs have presented no
basis upon which this court may find that the FEC’s
decision not to engage in rulemaking was arbitrary,
capricious, or otherwise contrary to law. The court
therefore DENIES Plaintiffs’ motion and GRANTS
Defendant’s cross-motion with respect to the FEC’s
decision not to engage in rulemaking.
IV. CONCLUSION
For the foregoing reasons, Defendant’s motion to
strike is GRANTED, in part and DENIED, in part,
Plaintiffs’ motion to supplement is DENIED, Plaintiffs’
motion for summary judgment is DENIED, and
Defendant’s cross-motion is GRANTED.
An appropriate Order accompanies this Memorandum
Opinion.
Date: March 31, 2019
/s/ Tanya S. Chutkan
TANYA S. CHUTKAN
United States District Judge

71a

APPENDIX C
FEDERAL ELECTION COMMISSION
Washington, DC 20463
MAR 31 2017
VIA CERTIFIED AND ELECTRONIC MAIL
Alexandra A.E. Shapiro, Esq.
Shapiro, Arato & Isserles LLP
500 Fifth Avenue, 40th Floor
New York, NY 10110
RE: MURs 6869R & 6942R Commission on
Presidential Debates, et al.
Dear Ms. Shapiro:
The Commission previously notified you of its
findings in MURs 6869 and 6942, which were generated
by complaints you filed on behalf of Level the Playing
Field and Dr. Peter Ackerman, and the Green Party of
the United States and the Libertarian National
Committee, Inc., respectively. In each matter, the
Commission found that there was no reason to believe
the Commission on Presidential Debates (“CPD”) or
Frank Fahrenkopf Jr. and Michael D. McCurry as
co-chairs violated 52 U.S.C. §§ 30116(f) or 30118(a),
and no reason to believe that CPD violated 52 U.S.C.
§§ 30103 or 30104. Accordingly, the Commission closed
each file.

72a

You challenged the Commission's decisions in MURs
6869 and 6942 in Level the Playing Field v. FEC, No.
1:15-cv-01397. On February 1, 2017, the United States
District Court for the District of Columbia ordered the
Commission to issue a decision consistent with the
court's opinion. Pursuant to the court's remand, these
matters were reopened and numbered MUR 6869R and
MUR 6942R.
On March 29, 2017, the Commission reconsidered
the allegations in the complaints and found, on the
basis of the information provided, that there is no
reason to believe the Commission on Presidential
Debates (“CPD”), Frank Fahrenkopf Jr. and Dorothy S.
Ridings as co-chairs, or the ten named staff and board
members violated 52 U.S.C. §§ 30116(f) or 30118(a) by
making prohibited contributions and expenditures and
accepting prohibited contributions, and no reason to
believe that CPD violated 52 U.S.C. §§ 30103 or 30104
by failing to register and report as a political committee.
Accordingly, on March 29, 2017, the Commission closed
the files in MUR 6869R and 6942R.
Documents related to the cases will be placed on the
public record within 30 days. See Disclosure of Certain
Documents in Enforcement and Other Matters, 81 Fed.
Reg. 50,702 (Aug. 2, 2016). The Factual and Legal
Analysis, which explains the Commission's findings, is
enclosed for your information.
The Federal Election Campaign Act of 1971, as
amended, allows a complainant to seek judicial review
of the Commission's dismissal of this action. See 52
U.S.C. § 30109(a)(8). If you have any questions, please

73a

contact Meredith McCoy, the attorney assigned to this
matter, at (202) 694-1650.
Sincerely,
/s/ Mark Allen
Assistant General Counsel
Enclosure
Factual and Legal Analysis

74a

FEDERAL ELECTION COMMISSION
FACTUAL AND LEGAL ANALYSIS
RESPONDENTS :

Commission on Presidential
Debates
Frank Fahrenkopf Jr., Co-Chair
Dorothy S. Ridings, Co-Chair
Michael D. McCurry
Janet H. Brown
Howard G. Buffet
John C. Danforth
John Griffen
Antonia Hernandez
John I. Jenkins
Newton N. Minow
Richard D. Parsons
Alan K. Simpson
MURs: 6869R; 6942R

I. INTRODUCTION
These matters are before the Commission on
remand from the United States District Court for the
District of Columbia following its decision in Level
the Playing Field v. FEC, No.1 :15-cv-01397 (D.D.C.
Feb. 1, 2017). At issue in the case was the
Commission's prior determination that there is no
reason to believe the Commission on Presidential
Debates (“CPD”) and its then-co-chairs, Frank
Fahrenkopf Jr. and Michael D. McCurry, made or
accepted prohibited corporate contributions by failing
to comply with the Commission’s regulations on debate
sponsorship in hosting its 2012 presidential and

75a

vice-presidential general elections debates. The court
also reviewed the Commission's finding that there is no
reason to believe CPD failed to register and report as a
political committee. The district court concluded that
the Commission acted “arbitrarily and capriciously in
its enforcement decisions by failing to address evidence
or articulate its analysis” and ordered the Commission
to issue a new decision consistent with its Opinion.1
In accordance with the court's instructions, the
Commission has reconsidered the full scope of the
available information.2 On the basis of that review,

1

Level the Playing Fieldv. FEC, No. l:15-cv-01397, 2017
WL 437400 at *13 (D.D.C. Feb. 1, 2017).
2

See Compl., MUR 6869 (Sept. 11, 2014) (“6869 Compl.”);
Resp. of CPD, Fahrenkopf, and McCurry, MUR 6869 (Dec. 15,
2014) (“6869 CPD Resp.”); First Supp. Compl., MUR 6869 (Nov.
25, 2014) (“6869 Supp. Compl.# l “); Second Supp. Compl., MUR
6869 (Apr. 15, 2015) (“6869 Supp. Compl. #2"); Supp. Resp. of CPD,
Fahrenkopf, and McCurry, MUR 6869 (May 26, 2015) (“6869 Supp.
CPD Resp.”); see also Compl. MUR 6942 (June 17, 2015) (“6942
Compl.”); Resp. of CPD, Fahrenkopf, and McCurry, MUR 6942
(July 1, 2015) (“6942 CPD Resp.”); Supp. Compl., MUR 6942 (Oct.
21, 2015) (“6942 Supp, Compl.”); Supp, Resp, of CPD, Fahrenkopf,
and McCurry, MUR 6942 (Nov. 18, 2015) (“6942 Supp. CPD
Resp.”).
Consistent with the court's instructions, the Commission also
notified ten CPD board and staff members that had been named as
respondents in these matters but not previously notified and
provided each with an opportunity to respond. Janet H. Brown,
Howard G. Buffet, John C. Danforth, John Griffen, Antonia
Hernandez, John I. Jenkins, N, Minow, Richard D. Parsons,
Dorothy S. Ridings, and Alan K. Simpson responded jointly on
March 6, 2017. Resp. of Janet H. Brown, Howard G. Buffet, John

76a

the Commission has concluded that the available
information does not support a reasonable inference3
that CPD “endorses, supports, or opposes” federal
candidates or political parties or failed to use “objective
criteria” in selecting its 2012 debate participants.
Accordingly, the Commission finds no reason to
believe that CPD, Fahrenkopf and Dorothy S. Ridings
as co-chairs, and the ten named staff and board
members (collectively, “Respondents”) violated 52
U.S.C. §§ 30116(f) or 30118(a) by making prohibited
contributions and expenditures and accepting
prohibited contributions, and no reason to believe that
CPD violated 52 U.S.C. §§ 30103 or 30104 by failing to
register and report as a political committee.
II.

FACTUAL BACKGROUND

CPD is a nonprofit corporation formed under
Section 501(c)(3) of the Internal Revenue Code4 to
“organize, manage, produce, publicize and support
debates for the candidates for President of the United

C. Danforth, John Griffen, Antonia Hernandez, John I. Jenkins, N.
Minow, Richard D. Parsons, Dorothy S. Ridings, and Alan K.
Simpson, MURs 6869R & 6942R (Mar. 6, 2017) (“CPD Dir. Resp.”),
and this analysis reflects the information presented therein.
3

See Statement of Policy Regarding Commission Action in
Matters at the Initial Stage in the Enforcement Process, 72 Fed.
Reg, 12545, 12546 (Mar. 16, 2007)(explaining circumstances
supporting a no-reason-to-believe finding).
4

26 U.S.C. § 50l(c)(3).

77a

States.”5 The organization derives its funding from a
variety of sources, including corporations, foundations,
universities, and private donations.6
According to information presented by both the
Complainants and Respondents, CPD was created in
response to the recommendations of two studies on
presidential debates from the Georgetown University
Center for Strategic and International Studies and the
Harvard University Institute of Politics.7 Both studies
observed the educational value of presidential debates
and proposed mechanisms to guarantee them as a
permanent part of the electoral process.8 Among other

5

6869 Compl. Ex. 100 (IRS Form 1023, Application for
Recognition of Exemption for the Commission on Presidential
Debates (Mar. 5, 1987)); 6942 Compl. Ex. 100 (same). The CPD also
staged three presidential debates and one vice-presidential debate
in the 2016 election cycle. CPD Dir. Resp. Ex. 4 (Supp. Declaration
of Janet H. Brown) (“Supp. Brown decl.”).
6

6869 Compl. Ex. 4 (CPD: Our Mission, COMM'N. ON
PRESIDENTIAL DEBATES, http://www.debates.org//
index.php?page=about-cpd (last visited Mar. 1, 2017)); 6942 Compl.
Ex. 4 (same).
7

6869 Compl. Ex. 20 (Excerpts from NEWTON N. MINOW
CRAIG L. LAMAY, INSIDE THE PRESIDENTIAL DEBATES 62-63
(2008)) (“MINOW & LAMAY”); 6942 Compl. Ex. 20 (same); 6869
CPD Resp. Ex. I (Declaration of Janet H. Brown) (“Brown Decl.”);
6942 CPD Resp. Ex. I (same); CPD Dir. Resp. Ex. 1 (Decl. of Frank
J. Fahrenkopf) (“Supp. Fahrenkopf Decl.”); CPD Dir. Resp. Ex. 2
(Decl. of Dorothy S. Ridings) (“Ridings Decl.”).
AND

8

MINOW & LAMAY, supra note 7, at 63; Brown Decl., supra
note 7, 9; Supp. Fahrenkopf Decl., supra note 7, ¶¶ 7-9.

78a

recommendations, the studies called upon the
Democratic and Republican Parties to play a role in
institutionalizing the debates in order to ensure the
participation of leading candidates9 who, as recent
history had shown, at times had a disincentive to
participate.10 In response, the then-chairmen of the

9

MINOW & LAMAY, supra note 7, at 63; Brown Decl., supra
note 7, ¶¶ 10; Supp. Fahrenkopf Decl., supra note 7, ¶¶ 7-9.
10

MINOW & LAMAY, supra note 7, at 62. Minow has been a
CPD board member since the organization's founding after
previously serving as co-chair of presidential debates for the
League of Women Voters and a member of the Harvard debate
study. Id. This exhibit, provided by Complainants, is an excerpt
from his book on presidential debates, which provides a first-hand
history of the formation of the CPD. In it, he and his co-author
write:
The most persistent and difficult impediment
to debates, any where, is that the candidate
who is ahead in the polls - – and particularly
an incumbent – will almost never want to
debate, and for good reason. . . .The leader's
potential for gain is small, while the potential
for the challenger is great. . . . But I thought
the voters benefit from debates and so it was
essential to find a way to bring pressure on the
candidates to participate. The parties could do
that.
Id. This conclusion followed Minow's experience co-chairing the
League's 1980 presidential debates. That year, President Jimmy
Carter had refused to participate in a debate hosted by the League
after the organization invited both Republican nominee Ronald
Reagan and independent candidate John B. Anderson. MINOW &
LAMAY, supra note 7, at 56; Ridings Decl., supra note 7, ¶¶ 9-12,
Tab A. With the hope of enticing Carter's participation, the League

79a

Democratic and Republican National Committees,
Paul G. Kirk Jr. and Frank J. Fahrenkopf Jr.,
respectively, jointly called for the creation of the
independent Commission on Presidential Debates,
which was incorporated on February 19, 1987.11
Since its founding, CPD has staged almost every
general election presidential debate including three
presidential debates in the 2012 election cycle. 12CPD
purports to stage its debates pursuant to the safe
harbor provision of the Federal Election Campaign
Act of 1971, as amended (the “Act”), that exempts from
the definition of “expenditure” any “nonpartisan
activity designed to encourage individuals to vote or

subsequently offered to host a two-way debate between Carter and
Reagan if all three candidates agreed to participate in a three-way
debate afterward. MLNOW & LAMAY, supra note 7, at 56; Ridings
Decl., supra note 7, Tab A. Reagan refused and the plan was
scrapped. Ultimately, after Anderson dropped below the League's
15 percent polling threshold, Carter and Reagan agreed to a
two-way debate. MLNOW & LAMAY, supra note 7, at 57; Ridings
Decl. ¶ 11, Tab A.
11

MINOW & LAMAY, supra note 7; Brown Decl., supra note
7, 11., supra note 7; Brown Decl., supra note 7, ¶ 11.
12

6869 Compl. Ex. 4 (CPD: Our Mission, COMM'N. ON
PRESIDENTIAL DEBATES, http://www.debates.org
/index.php?page=about-cpd (last visited Mar. I, 2017)); 6942 Compl.
Ex. 4 (same). CPD has also hosted every vice-presidential debate
since 1988, including one in the 2012 election cycle. See CPD: Our
Mission, COMM'N. ON PRESIDENTIAL DEBATES,
http://www.debates.org/ index.php?page=about-cpd.

80a

to register to vote.”13 Although the Act generally
prohibits corporations from making contributions to
federal candidates,14 this exemption permits 501(c)(3)
and 501(c)(4) organizations that do not “endorse,
support, or oppose political candidates or political
parties” to stage candidate debates,15 provided the
events abide by certain standards, including the use of
“pre-established objective criteria” to determine which
candidates may participate.16
On October 20, 2011, CPD adopted three criteria
that candidates would be required to satisfy in order to
participate in the 2012 general election debates. CPD
required participants to: (1) satisfy the eligibility
requirements for president under the U.S. Constitution;
(2) qualify for enough state ballots to have a
mathematical chance of securing an Electoral College
majority; and (3) obtain the support of at least 15
percent of the national electorate “as determined by
five selected national public opinion polling
organizations, using the average of those organizations'
most recent publicly-reported results at the time of
13

52 U.S.C. § 30101(9)(B)(ii).

14

52 U.S.C. § 30118(a); see also 52 U.S.C. § 30116(f).

15

11 C.F.R. § 110.13(a); Explanation and Justification,
Funding and Sponsorship of Federal Candidate Debates, 44 Fed.
Reg, 76,734 (Dec. 27, 1979) (“1979 E&J”); see also Corporate and
Labor Organization Activity; Express Advocacy and Coordination
with Candidates, 60 Fed. Reg. 64,260 (Dec, 14, 1995) (“1995
E&J”).
16

11 C.F.R, § 110.13(b), (c).

81a

determination.”17 CPD applied the same participation
criteria in 2000, 2004, 2008, and 2016.18
Applying these criteria to the 2012 candidate field,
CPD determined that Democratic nominee President
Barack Obama and Republican nominee Mitt Romney
were eligible to participate in the three presidential
debates.19 CPD also determined that Vice President Joe
Biden and Representative Paul Ryan qualified for the

17

6869 Compl. Ex. 8 (CPD: 2012 Candidate Selection
Criteria, C OMM ' N . O N P RESIDENTIAL D EBATES , http://
www.debates.org/index.php?page=candidate-selection-process (last
visited March I, 2017)) (“2012 Debate Criteria”); 6942 Comp!. Ex.
8 (same).
18

19

2012 Debate Criteria, supra note 17.

6869 Compl. Exs. 9 (2012 Application of Criteria,
COMM'N. ON PRESIDENTIAL DEBATES (Sept. 21, 2012),
h t t p : / / w w w . d e b a t e s . o rg/index . php? mact=News , c n t n t 0 l
,detail,0&cntnt01articleid=42&cntnt01origid=27&cntnt01det
ailtemplate=newspage&cntnt01 returnid=80), 11 (20l 2 Application
of Criteria - Second Presidential Debate, COMM'N, ON PRESIDENTIAL
DEBATES (Oct.12,2012),http://www.debates.
org/index.php?mact=News,cntnt0l,detail,0&cntnt0
larticleid=46&cntnt0lorigid=27&cntnt0ldet
ailtemplate=newspage&cntnt0lreturnid=80), and 12 (2012
Application of Criteria - Third Presidential Debate, COMM'N. ON
P RESIDENTIAL D EBA TES (Oct. 19, 2012),http://www.
debates.org/index.php?mact=News,cntnt01,detail,0&cntnt0
larticleid=47&cntnt0lorigid=27&cntnt0ldet
ailtemplate=newspage&cntnt01returnid=80); 6942 Compl. Exs. 9
(same), 11 (same), and 12 (same).

82a

vice presidential debate.20 CPD concluded that no 2
other candidates satisfied the criteria for inclusion in
its 2012 debates.21
III.

PROCEDURAL BACKGROUND

On September 11, 2014, Level the Playing Field,
Inc. (“LPF”) and Dr. Peter Ackerman filed the
complaint in MUR 6869. The Complaint, which includes
over 100 exhibits, makes two principal allegations.
First, Complainants allege that CPD is a partisan
organization that “endorses” and “supports” political
candidates and political parties, to wit, the Democratic
and Republican Parties and their respective presidential
nominees.22 Broadly, Complainants provide three
categories of information in support of this claim: (I)
documents and statements from CPD officers and
directors suggesting that CPD was formed as a
partisan organization;23 (2) information suggesting that

20

6869 Compl. Ex. 9 (2012 Application of Criteria, COMM'N,
P RESIDENTIAL D EBATES (Sept. 21, 2012), http://
www.debates.org/index.php?mact=News,cntnt01 ,detail,0&cntnt01
article id=42&cntnt01origid=27&cntnt01de tailte mplate
=newspage&cntnt01returnid=80); 6942 Compl. Ex. 9 (same).

ON

21

6869 Compl. Exs. 9, 11, and 12, supra note 19; 6942
Compl. Exs. 9, 11, and 12, supra note 19.
22

23

6869 Compl. at 14-32.

Id. EXS. 20 (MINOW & LAMAY, supra note 7), 22
(Memorandum of Agreement on Presidential Candidate Joint
Appearances (Nov. 26, 1985)) (“1985 MOU”), 23 (G.O.P. Seeks a
City for '88, N.Y. TIMES (Jan. 26, 1986)), 24 (Press Release, News
from the Democratic and Republican National Committees (Feb.

83a

CPD continues to promote the interests of the two
major parties in the present day;24 and (3) records of
officers' and directors' connections and financial
contributions to major party committees and
candidates.25 These exhibits, they argue, demonstrate

18, 1987)) (“1987 DNC/RNC Press Release”), 25 (Phil Gailey,
Democrats and Republicans Form Panel to Hold Presidential
Debates, N.Y. TIMES (Feb. 19, 1987)), and 32 (Excerpts from H.
Comm. on H. Admin., Presidential Debates: Hearing Before the
Subcomm. On Elections of the H. Comm. on H. Admin. at 50-51, I
03d Cong., pt Sess., June 17, 1993); see also LPF at *7.
24

6869 Supp. Compl. #2 Ex. A (Transcript, Frank
Fahrenkopflnterview, SKY NEWS (Apr. I, 2015)) (“Fahrenkopf
Interview Transcript”).
25

6869 Compl. Exs. 43 (Michael D. Mccurry, PUBLIC
S TRATEGIES W ASHINGTON I NC ., http://www.psw-inc.com
/team/member/michael-d.-mccurry), 44 (Press Briefing by Mike
McCurry, WHITE HOUSE (Sept. 23, 1996), available at
http://www.presidency.acsb.edu/ws/?pid=48827), 45 (Harrison
Wills, Debate Commission's Own Hot Topic, OPEN SECRETS (Oct.
2 , 2 0 1 2 ) , h t t p s : / / ww w . o p e n s e c r e t s . o r g / n e w s / 2 0 1 2 / l
0/debate-commission), 46 (List of Frank Fahrenkopflndividual
Contributions, FEC (retrieved Sept. 4, 2014)) (“List
ofFahrenkopfContributions”), 47 (Frank Fahrenkopf and Jim
Nicholson, Don't Repeat Error of Picking Steele, POLITICO (Jan. 12,
2011, 4:37 a.m.), http: //www.po l itico.com/new s/stories/O 111
/47440.html) (“Fahrenkopf Editorial”), 48 (2012 Two-Year
Summary of American Gaming Association Political Action
Committee, FEC (retrieved Sept. 4, 2014)), 49 (What We Do,
PUBLIC STRATEGIES WASHINGTON INC., http://
www.psw-inc.com/what), 53 (Andrea Saenz, Former MALDEF
Chief Antonia Hernandez Speaks at HLS, HARV. L. RECORD (Nov.
16, 2007)), 54 (List of Howard Buffett Individual Contributions,
FEC (retrieved Sept. 4, 2014) (“List of Buffett Contributions”), 55

84a

that CPD was formed by the Democratic and
Republican Parties for partisan gain,26 has consistently
supported Democrats and Republicans to the exclusion
of third party or independent candidates,27 and
continues to be led by individuals with partisan
interests.28
Respondents deny the allegation. CPD and its leaders
maintain that there is no evidence the organization
“endorses” or “supports” major party candidates or
“opposes” independent candidates, within any plain
meaning of those terms.29 The organization asserts that
the Complaint's information on CPD's formation and
practices is not relevant, has been rejected by the
Commission and the courts, and has been taken out

(List of Dorothy Ridings Individual Contributions, FEC (retrieved
Sept. 4, 2014) (“List of Ridings Contributions”), 56 (CPD Elects Six
New Directors, COMM'N, PRESIDENTIAL DEBATES (Apr, 16,
2014),http: //www.debates.or g/index.php?mact=N ews,cntnt01
,detail01&cntnt01articleid=52&cntnt01origid=15&cntnt01det
ailtemplate=newspage&cntnt01returnid=80), 60 (Jonathan D.
Salant, Former Democratic Party Leader Paul Kirk Backs Obama,
BLOOMBERG (May 2, 2008 2:22 p.m.), http://www.bloomberg
.com/apps/news?pid=newsarchive&sid=aBtdfy
DJEwZM&refer=home), and 61 (Abby Goodnough & Carl Hulse,
Former Kennedy Aide Is Appointed to Fill His Senate Seat, N.Y.
TIMES (Sept. 24, 2009)).
26

6869 Compl. at 16-20.

27

Id. at 20-25; 6869 Supp. Compl. #2 at 1-4.

28

6869 Compl. at 25-32.

29

6869 CPD Resp. At 4; CPD Dir. Resp. At 2.

85a

of context to create a “false narrative” about CPD.30
Further, the CPD's leadership asserts that the personal
allegiances or actions of officers and directors in their
individual capacities are not evidence of CPD's
organizational endorsement of or support for the major
parties.31 Respondents argue that to insist otherwise is
unconstitutional and practically unworkable.32
Second, the Complaint contends that the CPD's 15
percent threshold is not an “objective criterion,” but
rather designed to ensure the participation of
Republican and Democratic nominees to the exclus'ion
of virtually all independent candidates.33 In support,
Complainants primarily offer two expert reports from
Dr. Clifford Young and Douglas Schoen, respectively.
Young concludes that, in order to meet CPD's 15
percent polling threshold, candidates must obtain name
recognition among 60-80 percent of the electorate.34
Young also opines that the type of polling relied upon
by CPD systematically disfavors independent
candidates due to increased inaccuracy in three-way
races. Following on Young's conclusions, Schoen
submits that, in order to obtain 60-80 percent name

30

CPD Dir. Resp. at 2-8.

31

6869 CPD Resp. at 4-5; CPD Dir. Resp. at 6.

32

CPD Dir. Resp. at 6-7.

33

6869 Compl. at 32-47.

34

Id. Ex. 62 (Expert Report of Dr. Clifford Young) (“Young

Report”).

86a

recognition, an independent candidate must raise over
$266 million, including almost $120 million for paid
media content production and dissemination.35
Complainants argue that these requirements are
prohibitively high for independent candidates who do
not enjoy the same exposure and resources of major
party candidates. On this basis, the Complaint
concludes that CPD's 15 percent threshold is so high
that only major party candidates could reach it and
therefore not an objective means of selecting debate
participants.36
Respondents also deny this allegation. CPD argues
that Commission regulations afford debate sponsors
broad discretion to determine participant selection
criteria and point out that the Commission and the
courts have affirmed the 15 percent threshold as an
objective condition.37 Noting that the 15 percent
threshold was originally a requirement of CPD's
predecessor in debate sponsorship, the League of
Women Voters.38 Respondents contend that the polling
threshold provides an objective means of achieving its
educational mission. Specifically, the organization
argues that the 15 percent threshold:

35

Id. Ex. 70 (Expert Report of Douglas Schoen) (“Schoen

Report”).
36

Id. at 37-38.

37

6869 CPD Resp. at 7-11; CPD Dir. Resp. at 9.

38

6869 CPD Resp. at 9; see also Ridings Deel., supra note
7, ¶ 9, Tab A.

87a

best balanced the goal of being sufficiently
inclusive to invite those candidates considered to
be among the leading candidates, without being
so inclusive that invitations would be extended
to candidates with only modest levels of public
support, thereby creating an unacceptable risk
that leading candidates with the highest levels of
public support would refuse to participate.39
Likewise, the limiting criterion also ensures that
debate itself is not “hindered by the sheer number of
speakers.”40 Respondents also argue that the allegations
about potential manipulation of polling data are
speculative and unfounded.41
The Complaint concludes that the Respondents'
alleged noncompliance with the debate sponsorship
regulations resulted in corporate contributions to and
expenditures on behalf ofdebate participants in
violation of 52 U.S.C. § 30118(a). In addition, the
Complaint alleges that because CPD had a “major
purpose” of promoting the election of the Democratic
and Republican Party nominees in 2012 and made
expenditures in excess of $1,000 during the calendar
year, CPD qualified as a “political committee” under
the Act. Accordingly, the Complaint asserts that CPD
violated 52 U.S.C. §§ 30103 and 30104 by failing to
register and report with the FEC as a political

39

Brown Deel., supra note 7,¶ 32; CPD Dir. Resp. at 9-13.

40

CPD Resp. at 11.

41

CPD Resp.at 7-11; CPD Dir. Resp. at 13-17.

88a

committee and that CPD, its co-chairs, and ten officers
and directors violated 52 U.S.C.§ 30 l l 6(f) by accepting
contributions from corporate sponsors.
Submissions filed by the Green Party of the United
States (“Green Party”) and the Libertarian National
Committee (“LNC”) on June 15 and 18, 2015,
incorporated the allegations of MUR 6869 into a new
matter designated by the Commission as MUR 6942.42
On July 13, 2015 and December 10, 2015, the
Commission voted on MURs 6869
and 6942,
respectively. Relying on the Commission's dismissal of
nine previous similar matters alleging that CPD is
partisan and uses subjective participation criteria,
the Commission found no reason to believe
Respondents had violated the Act's prohibition on
corporate contributions or political committee
registration and reporting requirements in both
matters.43 The Commission decided each case by a vote
of 5-0 (with one commissioner recused), approved

42

The original Complaint in MUR 6942 was a copy of the
Complaint in MUR 6869 and asserted no additional allegations;
however, on October 13, 2015, the 6942 Complainants submitted
supplemental material on the reliability of polling data, 6942 Supp.
Compl., and Respondents were afforded an opportunity to respond,
see 6942 Supp. CPD Resp.
43

First General Counsel's Report, MUR 6869 (June
17,2015); First General Counsel's Report, MUR 6942 (Dec. 1,
2015).

89a

nearly identical Factual & Legal Analyses, and closed
each file.44
LPF and the other Complainants challenged the
Commission's decisions in federal district court under
52 U.S.C. § 30109(a)(8). The district court concluded
that the Commission had acted arbitrarily and
capriciously and contrary to law by: (1) failing to
articulate the standard it used to determine whether
CPD had endorsed, supported, or opposed political
candidates or parties under 11 C.F.R. § 110.13(a); (2)
not demonstrating its consideration of the evidence
before it, particularly that relating to alleged
partisanship and political donations by CPD's officers
and directors and two expert analyses on polling and
fundraising; (3) failing to notify and solicit responses
from ten respondents; and (4) concluding that CPD's
15 percent polling criteria is objective under 11 C.F.R.
§ l10.13(c) without adequately discussing the plaintiffs'
evidence and arguments or providing a legal analysis
applying the regulation to the evidence and arguments45
On these bases, the court granted the plaintiff's motion
for summary judgment and ordered the Commission to
reconsider the evidence and allegations and issue a new

44

Certification, MUR 6869 (July 13, 2015); Certification,
MUR 6942 (Dec. I 0, 2015).
45

LPF at *6, *8, *9, and *11. The court also found that the
Commission had acted arbitrarily and capriciously by deciding not
to initiate a rulemaking on whether to revise and amend 11 C.F.R.
§ 110.13(c), which the plaintiffs had challenged at the same time.
Id. at * 13.

90a

reason-to-believe decision in these matters within 30
days.46
IV.

LEGAL ANALYSIS
A. CPD
Qualifies
as
a
Staging
Organization that Does Not Endorse,
Support, or Oppose Poli t i c al
Candidates or Political Parties

The Act prohibits any corporation from making
contributions or expenditures in connection with an
election.47 Likewise, the Act bars political committees
from knowingly accepting corporate contributions.48
“Contribution” includes “any gift, subscription, loan,
advance, or deposit of money or anything of value”49
and “expenditure” includes “any purchase, payment,
distribution, loan, advance, deposit, or gift of money or
anything of value,”50 but exempts “nonpartisan activity
designed to encourage individuals to vote or to register
to vote.”51

46

LPF at *11. On February 10, 2017, the court granted the
Commission an additional 30 days to make a reason to believe
determination in these matters. Level the Playing Field v. FEC,
No. 1: l 5-cv-01397, slip op. at 3 (Feb. I 0, 2017).
47

52 U.S.C. § 30118(a).

48

Id. § 30116(f); 30118(a).

49

Id.§ 30101(8)(A).

50

Id. § 30 IO I (9)(A)(i).

51

Id.§ 30101(9)(B)(ii).

91a

Pursuant to this exemption, the Commission has
promulgated rules permitting “[n]onprofit
organizations described in 26 U.S.C. § 50l(c)(3) or
501(c)(4) and which do not endorse, support or oppose
political candidates or political parties” to stage
candidate debates in accordance with 11 C.F.R. §§
110.13 and 11 4.4(f)52 The purpose of this rule was to
“provide a specific exception so that certain nonprofit
organizations and the news media may stage debates,
without being deemed to have made prohibited
corporate contributions to the candidates taking part in
the debate.”53
As noted by the LPF court, neither the Act nor
Commission regulations define what it means for a
debate sponsor to “endorse, support, or oppose”
candidates or parties.54 However, the meaning of this

52

11 C.F.R. § 110.13(a)(l); 1979 E&J, supra note 15.

53

1995 E&J, supra note 15, at 64,261.

54

In response to specific allegations that CPD was
“controlled by” the two major parties and that the parties “had
input in” or were “involved in” CPD's operations and debate
decisions, the court in Buchanan v. FEC, 112 F. Supp. 2d 58
(D.D.C. 2000), concluded that CPD did not “endorse, support, or
oppose” candidates or parties, 112 F. Supp. 2d at 71 n.8.; however,
such a standard is inapplicable here where no such allegations have
been offered. LPF at *6 (“[U]nlike in Buchanan, there are no
control-specific factual allegations here to warrant applying a
control standard.”).

92a

standard is plain on its face.55 And indeed, in
reviewing the Act’s use of “support” and “oppose” in
another context, the United States Supreme Court
found that “[t]hese words provide explicit standards for
those who apply them and give the person of ordinary
intelligence a reasonable opportunity to know what is
prohibited.”56
Therefore, applying the plain meaning of these
words, the Commission must evaluate whether
Complainants’ evidence on the formation and
evolution of CPD and on the alleged partisanship of
CPD officers and directors either demonstrates directly
or supports a reasonable inference that the CPD has
endorsed or supported the Democratic and Republican
Parties and their respective presidential nominees (or
opposed third parties or independent candidates).
1. Documents and Statements from CPD
Officer and Directors Allegedly

55

See LPF at* 12, n. 6 (“According to the Oxford
Dictionary,’endorse’ means to ‘declare one’s approval of; ‘support’
means ‘contributing to the success of or maintaining the value of;
and ‘oppose’ means to ‘set oneself against’ or ‘stand in the way
of.”’).
56

McConnell v. FEC, 540 U.S. 93, n. 64 (2003) (rejecting a
challenge to the meaning of the words “promote, attack, support,
or oppose” as used in the definition of”federal election activity” in
52 U.S.C. § 30101(20)(A)(iii) (then 2 U.S.C. § 431(20)(A)(iii)); see
also, e.g., Factual & Legal Analysis, MUR 6072 at 5 (Northland
Regional Chamber of Commerce) (Apr. 27, 2009) (applying
“endorse, support, or oppose”).

93a

Suggesting that CPD Was Formed as a
Partisan Organization
Complainants first allege that information from the
time of CPD's founding in 1987 indicates that CPD had
bipartisan (rather than nonpartisan) origins and
therefore was formed with the intent to endorse or
support the Democratic and Republican Parties and
their respective nominees. Among the documents
presented in support of this allegation are a 1985
Memorandum of Understanding57 (“ 1985 MOU”) and
a 1987 joint press release from the then-chairmen of the
Democratic National Committee (“DNC”) and
Republican National Committee (“RNC”), Frank
Fahrenkopf Jr. and Paul Kirk, respectively, who
subsequently became the first co-chairs of CPD.58 The
1985 MOU addresses the necessity of institutionalized
debates and describes their “bipartisan view” on the
need for “joint appearances” of the presidential and
vice-presidential nominees of the “two major political
parties.”59 Similarly, the press release, which announces
the formation of the CPD, describes the organization as
a “bipartisan” entity “formed to implement joint
sponsorship of general election presidential and vice
presidential debates. . . by the national Republican and

57

1985 MOU, supra note 23.

58

1987 DNC/RNC Press Release, supra note 23.

59

1985 MOU, supra note 23.

94a

Democratic committees between their respective
nominees.”60
The Complaints also submit various past statements
from CPD officers and directors reportedly indicating
CPD's support for the major parties and opposition to
independent candidates,61 including a news article
describing Fahrenkopf s reported sentiment that CPD
“was not likely to look with favor on including
third-party candidates in the debates” and another
from Kirk that “he personally believed the panel should
exclude third-party candidates,[but] could not speak
for the commission.”62
As noted by the LPF court in its recent decision, this
information is “identical to evidence submitted with
prior CPD-related complaints, including MURs 4987,
5004, and 502 l. Those matters, which pertained to
CPD's sponsorship of the 2000 general election
presidential debates, were reviewed by the court in
Buchanan [v. FEC, 112 F. Supp. 2d 58 (D.D.C.
2000)].”63 In Buchanan, the court upheld the
Commission's conclusion that such information does not
provide a reason to believe the CPD endorses or

60

1987 DNC/RNC Press Release, supra note 23.

61

6869 Compl. at 18-19; see also LPF at *7.

62

6869 Compl. Ex. 25 (G.O.P. Seeks a City/or '88, N.Y.
TIMES (Jan. 26, 1986)); 6942 Compl., Ex. 25(same).
63

LPF at *7.

95a

supports political candidates or parties.64 The Buchanan
court deferred to the Commission, writing “it is
apparent from the report that in the absence of any
contemporaneous evidence of influence by the major
parties over the 2000 debate criteria,” “evidence of
possible past influence [was] simply insufficient to
justify disbelieving the CPD's sworn statement . . . that
the CPD's 2000 debate criteria were neither influenced
by the two major parties nor designed to keep minor
parties out of the debates.”65 Four years later, in 2004,
the Commission further emphasized that the increasing
age of these documents and statements undermines
their persuasiveness as evidence of current bias.66
Evaluating the statements in the present matters, we
reach a similar conclusion.
At the outset, it is not clear that, in context, these
documents and past statements constitute an
endorsement of, or support for, the Democratic and

64

Buchanan, I 12 F. Supp. 2d at 72.

65

Id at 72-73.

66

First General Counsel's Report, MUR 5414 (Dec. 7, 2004)
(“Not only did challenges based on Fahrenkopfs and Kirk's
leadership of the CPD not carry the day when they were fresh [in
MURs 4987, 5004, and 5021], but as neither man has been a party
official since 1989, the passage of time has rendered such
assertions less persuasive.”); see also Certification, MUR 5414
(Dec. 13, 2004) (finding no reason to believe CPD violated 52
U.S.C. § 30118(a) – then 2 U.S.C. § 441b(a) – without approving a
separate Factual & Legal Analysis, consistent with Commission
policy at the time in cases finding no reason to believe a violation
occurred).

96a

Republican Parties and their candidates or opposition
to independent candidates. In a recently submitted
declaration, Fahrenkopf insists that these
“cherry-picked quotes” must be understood as
reflections on the greater goal of ensuring debates as
a permanent part of the political process:
When the CPD was formed, the goal was to
institutionalize general election televised debates
for the good of the public, and the major
impediment to achieving that goal was securing
the commitment of both major party nominees to
debate. References to the CPD as bipartisan at the
time of its formation must be understood with
reference to this challenge and the huge stride
forward that forming the CPD represented.67
Declarations from
others similarly
insist that
statements attributed to them do not fairly or fully
reflect their respective views on the participation of
independent candidates in CPD debates.68 For example,
Barbara Vucanovich, a CPD board member between
1987 and 1997 who was quoted as praising CPD's
executive director for being “extremely careful to be
bi-partisan” clarifies that she “used the word
'bi-partisan,' as many do, to mean not favoring any one

67

68

Supp. Fahrenkopf Decl., supra note 7, 10.

CPD Dir. Resp. Ex. 3 (re-submitting sworn declarations
from current and former CPD board members Alan K. Simpson,
Newton Minow, Barbara Vucanovich, John Lewis, and David
Norcross previously submitted in MUR 5414) (“MUR 5414
Declarations”).

97a

party over another.”69 Vucanovich and others have
previously affirmed their view that “CPD's debates
should include the leading candidates for president
and vice-president, regardless of party affiliation” but
“should not include candidates who have only marginal
national electoral support.”70
Assuming arguendo that such statements do suggest
support for debates exclusively between Republicans
and Democrats or opposition to the inclusion of
independent candidates, they do not necessarily reflect
the organization's perspective at the time it sponsored
the 2012 presidential debates at issue. Organizations
may change over time.71 And given this, it would be
inappropriate to rely on documents and statements
that are more than 30 years old to ascertain CPD's
present support or opposition to candidates and parties.
Indeed, there are significant indications that CPD has
made concerted efforts to be independent in recent
years and reaffirm its commitment to an educational
mission. For example, according to Janet Brown,
Executive Director of CPD, the organization conducts
a review after every presidential election of issues
relating to the debates.72 After its study of the 1996

69

CPD Dir. Resp. Ex. 3 (Declaration of Barbara
Vucanovich).
70

MUR 5414 Declarations, supra note 68.

71

See Citizens for Responsibility and Ethics in Washington
v. FEC, No. 1:14-cv-01419, slip op. at *11 (D.D.C. Sept. 19, 2016).
72

Brown Decl., supra note 7, 29.

98a

debates – which some alleged had arbitrarily excluded
independent candidate Ross Perot – CPD adopted
new candidate selection criteria and retained a polling
consultant to ensure its “careful and thoughtful
application.”73 CPD believed the new criteria would
be “faithful to the long-stated goal of the CPD's
debates – to bring before the American people, in a
debate, the leading candidates for the Presidency and
Vice Presidency.”74 Brown affirms that these criteria
“were not adopted with any partisan (or bipartisan)
purpose” or “with the intent to keep any party or
candidate from participating. . .”75 Declarations from
current and recent CPD directors similarly affirm the
organization's recent commitment to including “any
independent or non-major party candidate if that
candidate is properly considered a leading candidate.”76
In the same sworn affidavits, each director swears that
he or she has “never observed any [CPD] Board
member ever approach any issue concerning the CPD or
its mission from a partisan perspective and the CPD
has conducted its business in a strictly nonpartisan

73

Id. ¶ 30, 34-35.

74

Id. ¶ 30.

75

Id. ¶ 31..

76

CPD Dir. Resp. Ex. 6 (submitting sworn declarations
from Michael D. McCurry, Howard G. Buffet, John C. Danforth,
John Griffen, Antonia Hernandez, John I. Jenkins, Newton
Minow, Richard Parsons, and Alan K. Simpson) (“CPD Dir.
Declarations”).

99a

fashion.”77 Thus, the early documents and statements
are of limited persuasive value in evaluating CPD's
recent support for or opposition to political parties or
candidates.
Finally, even if these written and oral statements
did reflect more current sentiments, they are not
indicative of CPD's organizational endorsement of or
support for the Democratic and Republican Parties and
their candidates, or CPD's opposition to third party
candidates. The 1985 MOU and 1987 press release were
each executed by the DNC and RNC – not the CPD
itself – as expressions of those organizations'
commitment to a new custom for presidential debates.
Indeed, according to both the Georgetown and Harvard
studies on presidential debates, such support was
critical to the success of institutionalized debates among
the leading candidates for president.78 Likewise, there
is no indication that the statements from officers and
directors were made in their official capacity as
representatives of CPD.79 Thus, the historical

77

Id.

78

See MINOW & LAMAY, supra note 7.

79

In fact, in his reported statement to the New York Times
expressing opposition to independent candidates in the debates,
Kirk explicitly distinguished between his own feelings and the
organization's position, noting that “he personally believed the
panel should exclude third-party candidates, [but] could not speak
for the commission.” 6869 Campl. Ex. 25 (G.O.P. Seeks a City for
'88, N.Y. TIMES (Jan. 26, 1986) (emphasis added)); 6942 Campl. Ex.
25 (same). The Commission has repeatedly concluded that
individuals may wear “multiple hats” to represent the interests

100a

documents and statements do not indicate the CPD's
organizational support for any candidate or party or
opposition to others.
2. Recent Statements by Fahrenkopf in His
Official Capacity as Co-Chair of CPD
In an attempt to buttress its claim that CPD
endorses, supports, or opposes candidates or parties,
the MUR 6869 Complainants supplemented their
submission with excerpts from a 2015 interview
Fahrenkopf gave to Sky News80 In the interview,
Fahrenkopf stated that CPD has “a system,” “we. . .
primarily go with the two leading candidates, it's been
the two political party candidates. . . except for 1992
when Ross Perot participated in the debates.”81 The
Complainants argue that this is an “admission” from
Fahrenkopf in his official capacity representing CPD,
that CPD systematically supports major party
candidates over independent candidates.82
Complainants’ interpretation is not dispositive,
however. Fahrenkopf’s statement indicates no
categorical support for Democrats or Republicans or
opposition to independent candidates, stating clearly
that CPD “primarily go[es] with the two leading

of multiple people or entities at different times. See, e.g., Advisory
Op. 2005-02 (Corzine); Advisory Op. 2003-10 (Reid).
80

Fahrenkopf Interview Transcript, supra note 24.

81

Id.

82

6869 Supp. Compl. #2 at 1-2.

101a

candidates,” while immediately indicating the
exceptions to that trend. Moreover, as Fahrenkopf
averred in a declaration responding to this allegation,83
the statement appears to be more an assertion of
historical fact than an admission that CPD favors
candidates from the two major political parties over
others.84 Furthermore, Fahrenkopf makes his statement
in the context of a broader point about the impact of
multiple candidates (the questioner posited seven) on
the educational value of debates.85 Thus, Fahrenkopf s
interview is consistent with Respondents' repeated
attestations that CPD operates for the purpose of
providing meaningful debates for the public benefit.
Accordingly, these statements are not persuasive
indicators that CPD endorses, supports, or opposes
political candidates or parties.

83

6869 Supp. Resp. Ex. A (Fahrenkopf Decl.) (“Fahrenkopf

Decl.”).
84

85

Fahrenkopf Decl., supra note 84, ¶ 4.

The Sky News interviewer states”. . . we've ended up with
a seven person, a seven party debate. What do you think the
prospects for that are?” to which Fahrenkopf responds with a
description of the crowded 2012 Republican primary debates
stating “people jokingly say it's less of debate than a cattle show,
because there's such little time for each candidate to get across in
the short period what their views are on issues.” Fahrenkopf
lnterview Transcript, supra note 24. Fahrenkopf continued, “seven
people on the stage at one time is very difficult, it's going to take
a very clever moderator to make sure that each candidate gets an
opportunity to put forth their view. Id.

102a

3. Exhibits Regarding Alleged Partisanship
and Political Activity of CPD Co-Chairs
and Board Members
The Complaints have supplemented the information
presented in past matters with new information
alleging more recent partisanship and political activity
by CPD's co-chairs and directors. Notably, the
Complaints identify the recent personal contributions
of Fahrenkopf, McCurry, and several other directors to
various candidates and political committees.86 The
Complaints also submit a 2011 op-ed by Fahrenkopf
indicating a personal allegiance to the Republican Party
and information on board members’ “ties” to
officeholders and political parties, including former
employment. Finally the Complaints attach
information on Fahrenkopf and McCurry's work as
lobbyists on behalf of various corporations and trade
associations that are allegedly “heavily invested in
currying favor with the two major political parties.”87
The Complainants urge the Commission to infer that
individuals' statements, recent contributions, and
outside employment render the CPD itself a partisan
organization. As noted above, however, the Commission
has previously opined that individuals may wear
“multiple hats” to represent multiple interests.88 It

86

See supra note 25.

87

6869 Compl. at 27-28.

88

See, e.g., Advisory Op. 2007-05 (Iverson) (opining that an
individual may serve as chairman ofa state party committee and

103a

follows then, that an individual's leadership role in a
given organization does not restrict his or her ability
to speak freely on political issues or make contributions
to political committees when he or she does so in his or
her personal capacity.89
Here, there is no indication that Fahrenkopf wrote
his op-ed in his official capacity as CPD co-chair, nor
does the opinion piece express positions on behalf of
CPD. Likewise, the Complaints make no suggestion
that any of the contributions by Fahrenkopf, Mccurry,
or CPD board members originated from CPD
resources or any source other than their respective
personal assets. Finally, the available information does
not show that Fahrenkopf, McCurry, or other CPD
officers and directors have acted as agents of CPD in the
course of outside employment. At the outset, most of
the information presented involves work that preceded
-at times significantly -the individual's service for

solicit, direct, and spend non-federal funds on its behalf while
continuing to serve as chief of staff to a member of Congress);
Advisory Op. 2005-02 (Corzine) (describing circumstances under
which a U.S. Senator may raise non-federal funds for his state
gubernatorial campaign and other state candidates and
committees); Advisory Op. 2003-10 (Reid) (concluding, inter alia,
that an individual may, at different times, act in his capacity as an
agent on behalf of a state party and in his capacity as an agent on
behalf of a U.S. Senator).
89

See Advisory Op. 1984-12 (American College of Allergists)
(recognizing the ability of organization leaders, acting in their
individual capacities, to establish and govern a separate entity).

104a

CPD.90 And, to the extent officers or directors are
currently employed by entities with ties to or interests
in the success of the Democratic or Republican parties,
there is no indication that they act on behalf of CPD
in the course of such employment, or alternatively, on
behalf of their employer while volunteering for CPD.
Moreover, the organization has recently adopted a
formal “Political Activities Policy” that is “intended to
deter CPD-affiliated persons from participating, even in
a personal capacity, in the political process at the
presidential level (including the making of campaign
contributions) while serving on the Board.”91 Although
not part of Respondents’ submissions, the policy
reportedly builds on a previous “informal policy
against Board members serving in any official
capacity with a campaign while also serving on the
CPD Board” and “reflects CPD's view that a debate
staging organization better serves the public when it
not only conducts its operations in a strictly
nonpartisan manner, but when it also adopts and
adheres to balanced policies designed to prevent even
the potential for an erroneous appearance of

90

For example, the Complaint notes that Brown “is a
creature of partisan politics, having served as an aide to top
Republicans before taking over her present office [as Executive
Director of CPD] in 1987.” 6869 Compl. at 28 (emphasis added).
The Complainants likewise note that board member Newton
Minow was a “close aide to Adlai Stevenson and a Kennedy
appointee to the Federal Communications Commission” and that
board member Antonia Hernandez served as counsel to the Senate
Judiciary Committee when it was led by the late Ted Kennedy. Id.
91

Supp. Brown Deel., supra note 5, ¶ 7.

105a

partisanship.”92 The Political Activities Policy
supplements CPD's Conflict of Interest Policy, which
would appear to limit financial conflicts of interest that
could arise as a result of outside employment.93
Complainants’ information alleging partisan political
activity on the part of CPD's officers and directors in
their non-CPD capacities therefore does not support a
reasonable inference that CPD endorses supports or
opposes political candidates or parties. For the reasons
stated above, the inference that LPF asks the
Commission to draw is legally baseless and factually
unworkable.
The Complaints offer no additional information to
demonstrate that CPD itself has endorsed, supported,
or opposed any political party or political candidate.
Accordingly, CPD would appear to be a permissible
debate sponsor under 11 C.F.R. § 110.13(a).
B. CPD's 15 Percent Threshold Constitutes
an Objective Criterion
Commission regulations require staging
organizations like CPD to use “pre-established objective
criteria to determine which candidates may participate
in a debate.”94 In adopting this requirement, the

92

Id.

93

6869 Compl. Ex. 101 (Conflict of Interest Policy, COMM'N.
PRESIDENTIAL DEBATES); 6942 Campi. Ex. 101 (same).
94

11 C.F.R. § 110.13(c). The Complainants do not question
whether the debate criteria is “pre-established,” therefore we will
not address this requirement further.

106a

Commission reasoned, “[g]iven that the rules permit
corporate funding of candidate debates it is appropriate
that staging organizations use pre-established objective
criteria to avoid the real or apparent potential for a
quid pro quo, and to ensure the integrity and fairness
of the process.”95
The regulation does not define “objective criteria;”
however, the courts have said it does not “mandate[ ]
a single set of objective criteria all staging organization
must follow, but rather [gives] the individual
organizations leeway to decide what specific criteria to
use.”96 The Buchanan court concluded that “[t]he
authority to determine what the term objective criteria
means rests with the agency. . . and to a lesser extent
with the courts that review agency action.”97 To that
end, the Commission has previously made clear that a
requirement of “reasonableness is implied” and stated
that “[s]taging organizations must be able to show that
their objective criteriamwere used to pick the
participants, and that the criteria were not designed to
result in the selection of certain pre-chosen
participants.”98

95

1995 E&J, supra note 15, at 64,262.

96

Buchanan, 112 F. Supp. 2d at 73 (citations and internal
quotations omitted); see also 1995 E&J, supra note 15 at 64,262
(“The choice of which objective criteria to use is largely left to the
discretion of the staging organization.”).
97

Buchanan, 112 F. Supp. 2d at 73.

98

1995 E&J, supra note 15, at 64,262.

107a

In specifically considering – and upholding – CPD's
15 percent threshold as applied to the 2000 debates, the
Buchanan court opined that “the objectivity
requirement precludes debate sponsors from selecting
a level of support so high that only the Democratic and
Republican nominees could reasonably achieve it.”
But the court also noted that several third party
candidates have achieved over 15 percent support in
polls at or around the time that the debates are
traditionally held:
For instance, by September 1968, George
Wallace had achieved a level of support of
approximately 20% in the polls. John Anderson
was invited by the League of Women Voters to
participate in the 1980 presidential debates after
his support level reached approximately 15%.
Finally, in 1992, Ross Perot's standing in the polls
was near 40% at some points and he ultimately
received 18.7% of the popular vote that year.99
Accordingly, the court concluded that “third party
candidates have proven that they can achieve the level
of support required by the CPD.”100 The Complainants
now present new information in support of their
contention that the 15 percent threshold is not
objective and results in prohibited corporate
contributions from CPD to debate participants.

99

Buchanan, 112 F. Supp. 2d at 73.

100

Id.

108a

1. Expert Reports on the Purported
Impracticability of Independent Candidates
Reaching CPD’s 15% Polling Threshold
Complainants present two expert reports in support
of their argument that the 15 percent threshold is
designed to result in the exclusion of all candidates but
those nominated by the Democratic and Republican
Parties. The first, by Dr. Clifford Young, opines that
in order to obtain 15 percent of the vote share, a
candidate must achieve name recognition among at
least 60 percent of the population and perhaps as
much as 80 percent.101 The second, from political analyst
Douglas Schoen, estimates that the cost to an
independent candidate of achieving 60 percent name
recognition would be over $266 million, including
almost $120 million for paid media content production
and dissemination.102 The Complainants argue that such
a sum is prohibitive for independent and third-party
candidates, who do not have the benefit of participating
in a much-watched primary season or of garnering a
minimum vote share in a general election by virtue of
being associated with a major party.103 Thus,
Complainants conclude, the 15 percent threshold is
systematically out of reach for independent candidates
and therefore not “objective” within the meaning of the
regulations.

101

See generally Young Report, supra note 34.

102

Id.

103

Id. at 12-13 (discussing the “party halo effect”).

109a

The expert reports relied upon by Complainants
contain significant limitations that undermine their
persuasiveness. Young's analysis is limited in its scope:
It correlates polling results to name recognition alone
and draws conclusions regarding hypothetical
third-party- candidate performance based on that one
factor. But polling results are not merely a function of
name recognition – they are a much more complex
confluence of factors. Indeed, as Young acknowledges,
his report does not take into account a number of other
factors that may affect polling results, including
“fundraising, candidate positioning, election results,
and idiosyncratic events.”104 In so doing, the report
minimizes the very salient fact that, no matter how
recognizable a candidate is, the candidate may,
nonetheless, be unpopular. For example, the report does
not take into consideration forces that might decrease
the poll numbers of an independent candidate who has
become well-recognized – such as policy preferences or
political missteps. Conversely, it also does not account
for forces that might increase the poll numbers of an
otherwise unfamiliar independent candidate – such as
high unfavorable ratings among major party candidates.
This is a significant limitation that undermines the
practical application of the data to our analysis of CPD's
debate participation criterion.

104

Id..at 12-13; see also, e.g., Nate Silver, A Polling Based
Forecast of the Republican Primary Field, FIVETHIRTYEIGHT
POLITICS (May 11, 2011) (noting that, more than name recognition,
“laying the groundwork for a run quite early on,” including efforts
to “hire staff, cultivate early support, brush up[] media skills”
predicts later electoral success).

110a

In addition, the Complaint appears to draw
misguided conclusions from the Young Report's data.
Notably, neither the Young Report nor the Complaints
and their voluminous exhibits ever establish that
independent candidates do not or cannot meet 60-80
percent name recognition. To the contrary, during the
2016 presidential election, a YouGov poll taken at the
end of August found that 63 percent of registered
voters had heard of Libertarian Gary Johnson and 59
percent had heard of Green Party candidate Jill
Stein.105 Thus, there is no information in the record to
show that 60-80 percent name recognition is a
prohibitively high bar for independent candidates to
meet or, put another way, that a criteria which
purportedly requires achievement of 60-80 percent
name recognition is designed to exclude independent
candidates.
Instead, the Complainants appear to use Young's
name recognition threshold as a springboard to another
argument: that the cost of achieving 15 percent vote
share is prohibitively high for independent candidates.
Indeed, the Schoen Report starts from the premise that
60-80 percent name recognition is necessary to gain a
15 percent vote share and estimates the amount of
money that an independent candidate would need to
spend to reach 60-80 percent name recognition. This

105

Poll Results.·Third Party Candidates, YOUGOV (Aug.
25-26, 2016), available at https://d25d2506sfb94s.cloudfront
.net/cumulus_uploads/document/wc35k48hrs/tabs_HP_Third_pa
rty_Candidates_ 20160831.pdf.

111a

approach is similarly based on significant assumptions
that reduce its value.
Notably, the Schoen Report bases its estimation of
campaign and media costs on the assumption that
independent candidates are unable to attract earned
media (i.e., free coverage). Schoen presumes that “the
media will not cover an independent candidate until
they are certainly in the debates. Thus, they must pay
for all their media. . .”106 This premise is unfounded.
Notably, media coverage from the
most recent
presidential election demonstrates that the two leading
independent candidates – Libertarian Gary Johnson
and Green Party candidate Jill Stein received extensive
media coverage.107
Furthermore, Schoen's supposition is based in part
on research published in 1999,108 which seems entirely
inappropriate, given the rise of digital and social media
and independent expenditure-only political committees
(“IEOPCs”) in the years that have followed.

106

Schoen Report, supra note 35, at 3, 5.

107

See, e.g., Supp. Brown Decl., supra note 5, ¶ 16
(identifying over 60 appearances by Johnson and Stein in media
outlets including ABC, CBS, CNN, Fox, MSNBC, CNBC, PBS,
C-SPAN, USA Today, Time, People, the New York Times, and
others).
108

Schoen Report, supra note 35, at 4 (citing Paul Herrnson
& Rob Faucheux, Outside Looking In: Views of Third Party and
Independent Candidates, CAMPAIGNS & ELECTIONS (Aug. 1999)).

112a

Digital and social media have provided more
economical avenues for candidates' messages, while
social media has also enabled the ubiquitous sharing
of those messages among vast global networks.109 The
most recent election especially highlighted the impact
of changing media. In the final months of the 2016
election, Hillary Clinton spent more than $200 million
on television ads; Donald Trump spent less than half
of that, by focusing his spending on digital platforms
like Facebook and Twitter.110 Digital and social media
not only served as a cheaper avenue for paid media, but
also generated earned media when more traditional
news outlets covered noteworthy tweets and posts.111
In addition, digital media reportedly replaced field
offices for the Trump campaign, thereby reducing
another traditional campaign cost.112 This change in
traditional campaign strategies – a phenomena that

109

6869 Resp. n.4 (citing Clair Cain Miller, How Obama's
Internet Campaign Changed Politics, N.Y. TIMES (Nov. 7, 2008);
Derek Prall, The Social Soapbox: How Social Media and Data
Analytics are Helping Grassroots Candidates Gain Legitimacy, AM.
CITY & COUNTY (Oct. 22, 2014)); 6942 Resp. n.4 (same).
110

See Issie Lapowsky, Here's How Facebook Actually Won
T r ump the Presidency, W IRE D ( Nov. 15, 2016) ,
https://www.wired.com/2016/11/facebook-won-trump-election-not
-just-fake-news/.
111

112

Id.

Matthew Tyson, How Digital Marketing Helped Donald
Trump Win, HUFFINGTON POST (Dec. 19, 2016), http://www.
huffingtonpost.com/matthew-tyson/how-digital
-marketing-hel_b_13721224.html.

113a

intensified in 2016, but began in earnest in the 2008
election cycle113 – dramatically undermines Schoen's
assumptions about the avenues of media exposure
available to independent candidates and their associated
costs.
Furthermore, with the rise of IEOPCs – several of
which supported Libertarian candidate Gary Johnson
in 2016114 – paid media in support of a particular
candidate may be created and distributed by entities
other than the candidate and his or her principal
campaign committee. Such independent support likely
increases a candidate's name recognition at no cost to
the candidate, thereby reducing the total sum that the
candidate must spend to achieve 60-80 percent name
recognition. In addition, IEOPCs may raise unlimited
funds from individuals and from sources, like
corporations, otherwise prohibited under the Act. Thus,
the existence of IEOPCs also undermines the dated
Schoen Report's conclusions about the number of

113

Claire Cain Miller, How Obama's Internet Campaign
Changed Politics, N.Y. TIMES (Nov. 7, 2008), https://bits.blogs.nyti
mes.com/2008/11/07/how-obamas-internet-campaign
-changed-politics/?_r=0; Sarah Lai Stirland, Propelled by Internet,
Barack Obama Wins Presidency, WIRED (Nov. 4, 2008),
https://www.wired.com/2008/11/propel led-by-in/.
114

See Independent Expenditures in Support or Opposition
to Gary Johnson, 2016 Cycle, OPEN SECRETS, https://www
.opensecrets.org/pres16/outside-spending?id=N00033226 (last
visited March 8, 2017) (listing six IEOPCs that reported
independent expenditures supporting Johnson in 2016, including
two that spent over $1 million).

114a

individual donations needed to reach Young's 60-80
percent name recognition threshold.115
The most recent elections demonstrate how
Complainants' failure to consider recent developments
undermines their conclusions. As noted above,
Libertarian candidate Gary Johnson achieved 63
percent name recognition shortly before Labor Day
2016. This was a significant increase from just 34
percent three months earlier.116 Yet to reach 63 percent
name recognition, Johnson raised only $7.9 million and
spent only $5.4 million,117 a mere 2-3 percent of the $266
million that Schoen estimates an independent candidate
would need to achieve 60-80 percent name recognition.
Finally, it is worth noting that independent
candidates frequently do not start from zero in terms of
either name recognition or fundraising. Notably, Gary
Johnson and George Wallace, who ran as an

115

Schoen Report, supra note 35, at 24-25 (estimating
independent candidate's “hypothetical average donation”).
116

Poll Results: Gary Johnson, YouGov (May 25-26, 2016),
available at https://today .yougov.com/news/2016/08/31/poll-resu
Its-third-party-candidates/.
117

February Monthly Rpt. of Gary Johnson 2016, FEC (Feb.
20, 2016); Amended Mar. Monthly Rpt. of Gary Johnson 2016, FEC
(June 20, 2016); Amended Apr. Monthly Rpt. of Gary Johnson
2016, FEC (June 20, 2016); Amended May Monthly Rpt. of Gary
Johnson 2016, FEC (June 20, 2016); June Monthly Rpt. of Gary
Johnson 2016, FEC (June 20, 20 I 6); Amended July Monthly Rpt.
of Gary Johnson 2016, FEC ( Aug . 20, 2016); Aug. Monthly Rpt.
of Gary Johnson 2016, FEC (Aug. 20, 2016); Sept. Monthly Rpt. of
Gary Johnson 2016, FEC (Sept. 20, 2016),

115a

independent candidate in 1968, were both governors
before running for president and presumably enjoyed at
least regional recognition. Similarly, several
independent candidates – including Ross Perot – have
been independently wealthy and able to fund significant
preexisting name recognition118 and significant personal
wealth were among the qualities that drew him
significant attention as a potential independent
candidate in 2016.119 That candidates may start with
some name recognition or financial resources further
belies the Complaints’ critique about the onerous
fundraising required to reach 60-80 percent name
recognition and the 15 percent polling threshold.
In sum, the reports by Young and Schoen do not
provide a sufficient basis to conclude that CPD's 15
percent participation threshold is a level of support so
high that only the Democratic and Republican
nominees could reasonably achieve it. Taken together
with the Commission's judicially upheld determinations
that independent candidates of the past have reached 15

118

See Michelle Hackman, Bloomberg Wants to Save
Everyone from Trump. But a Lot of People Don't Know Who He
Is, VOX (Jan. 23, 2016), http://www.vox.com/2016/l/21/10810624
/michael-bloomberg-third-party-bid (reporting on a poll finding
that, contrary to the title's characterization, roughly 57 percent of
voters had an opinion on Bloomberg).
119

See
Alexander
Burns and
Maggie Haberman,
Bloomberg, Sensing an Opening, Revisits a Potential White House
https://www.nytimes
Run, N.Y. TIMES (Jan. 23, 2016),
. c o m / 20 1 6/01/2 4/ n y r e g i o n / b l o o m b e r g - s e n s i n g - a n - o p e n
ing-revisits-a-potential-white-ho use-run. html.

116a

percent in the polls,120 the Complainants' reports do not
provide reason to believe that CPD’s 15 percent criteria
violated the requirement to use objective
candidate-selection criteria for staging debates.
2. Evidence on Purported Unreliability of
Polling Data
Finally, Complainants allege that CPD’s 15 percent
threshold is not objective because the fact that CPD
selects both the cutoff date for the application of its
debate criteria and the polls to consider allows CPD to
manipulate the criteria favor of Democratic and
Republican interests.121 Citing the Young Report,
Complainants also contend that polling in races with
more than two candidates is subject to increased
inaccuracy.122 As to the first allegation, there is no
information in the Complaint suggesting that CPD has
manipulated the dates on which it applies its criteria
to reach a particular result. Likewise, there is no
information in the record to indicate that any
candidates have been excluded by virtue of the polling
deadline or that past independent candidates would
have been admitted to a debate had CPD relied on
different polling sources.
With regard to the selection of polls, CPD’s
independent polling expert, Frank M. Newport,

120

Buchanan, 112 F. Supp. 2d at 73.

121

6869 Compl. at 41-45.

122

ld. at 41-42

117a

Editor-in-Chief of Gallup Organization, affirms in a
sworn declaration that he has recommended which
polls CPD should use in every election since 2000,
based on, “the quality of the methodology employed,
the reputation of the polling organizations and the
frequency of the polling conducted.”123 Newport states
that he made the recommendations based solely “upon
my professional judgement and without any partisan
purpose or pre-determined result in mind” and that
CPD has always adopted his recommendations.124 The
Newport declaration further lists the polls selected in
each cycle between 2000 and 2012, and indicates that,
with few exceptions, CPD relied on the same five polling
organizations, thus lending a relative degree of
predictability to the polling used. Newport also affirms
that “it is neither feasible nor appropriate to include
every candidate’s name in a public opinion poll,” but
that based on his experience, “it is extraordinarily
unlikely that a poll would fail to identify and include
among the candidates listed in polling questions a
candidate whose level of support is anywhere near 15

123

6869 Resp. Ex. 2 (Declaration of Frank M. Newport)
(“Newport Deel.”). Among the polls used between 2000 and 2012
were those conducted by ABC News and the Washington Post, NBC
News and the Wall Street Journal, CBS News and the New York
Times, Fox News and Opinion Dynamic, and CNN, USA Today and
Gallup. Id. According to Newport, “these organizations’ polls
would be conducted in a responsible and professional manner that
meets the industry standards and reflects the then-current
advances in polling methodology.” Id.
124

Id.

118a

percent of the national electorate.”125 The Complaint’s
speculation about the possibility of an independent
candidate being excluded by CPD’s selection of polls is
unpersuasive in the face of Newport’s sworn
attestations.
Lastly, relying on the Young Report, the Complaints
suggest that polling in three-way races is subject to
increased inaccuracy, as compared to polling in
two-way races.126 In particular, the Young Report
concludes that sampling (i.e., sample size) and
non-sampling (e.g., coverage bias, election salience,
and strategic voting) errors are greater in three-way
gubernatorial races studied127 and that the error rates
are especially high for candidates on the cusp of CPD’s
15 percent thresh old.128
Reliance on this conclusion is problematic for several
reasons. First, Young’s metric for polling error appears
to be based on the difference between the poll and the
actual results on Election Day.129 However, CPD does
not purport to use the polls as predictors of what will

125

Id.

126

6869 Compl. at 42.

127

Young Report, supra note 34, at 18-28.

128

Id. at 18.

129

Id. at 25-26. Young uses as his metric the “average
absolute difference” (“AAD”) – a measure of the average difference
between each candidate’s actual result on Election Day and his or
her polled vote share in a given poll.

119a

occur on Election Day, but as a reliable measure of
candidates’ support at a given moment in September.
Indeed, as the Newport Declaration notes, “[p]olls are
estimates and imperfect predictors of future events”
but, according to Newport, “there is no doubt that
properly conducted polls remain the best measure of
public support for a candidate. . . at the time the polls
are conducted.”130
Newport further disagrees with the Young Report’s
reliance on three-way gubernatorial election polling
to draw conclusions about the effect of sampling error
on independent presidential candidates on the cusp of
CPD’s 15 percent threshold. Specifically, Newport
states that presidential election polling is “inherently
more reliable than is polling in low turn-out elections,”
as polls in mid-term state elections are “generally more
subject to sampling and non-sampling errors than
national polls which are used by CPD in presidential
elections.”131 Newport further asserts that “nothing
about support for a significant third party-candidate
[sic] [ ] makes it more difficult to measure.”132
Having carefully weighed and considered the
analyses of the parties’ respective experts, we do not
believe the available information is sufficient to
conclude that the polling data employed by CPD are
not an objective means of measuring public support

130

Newport Deel., supra note 123, ¶ 21.

131

Id. ¶ 19.

132

Id. ¶ 21.

120a

for presidential candidates at a moment in time. In
particular, we note that all candidates must abide by
the same polls, and thus equally endure whatever errors
may be present. Moreover, as the court noted in
Buchanan, such error may just as likely result in over
inclusion of candidates shy of the 15 percent
threshold.133 And although the Complainants present
information suggesting that independent gubernatorial
candidates may be disproportionately impacted by
polling errors, it is not clear that independent
presidential candidates are similarly impacted.
In conclusion, the new information presented to
the Commission asserting the impracticability of the 15
percent threshold for independent candidates and on
the unreliability of polling are not sufficient to support
a reasonable inference that the CPD’s criteria for
selecting its debate participants are not objective within
the meaning of 11 C.F.R. § 110.13(c).
3. Complainants Policy Arguments
Much of the remaining information included with
the Complaints pertains to policy arguments about the
particular challenges that independent candidates face
in the two-party dominant system, the reasons why
independent candidates should be included in debates,
or the benefits of alternative selection criteria.
However, these points, no matter how compelling, do
not bear on the Commission’s consideration of whether
or not the 15 percent threshold is an objective criterion
and, most fundamentally, whether CPD’s use of such a
133

Buchanan, 112 F. Supp. 2d at 75.

121a

criteria results in prohibited in-kind corporate
contributions from CPD to debate participants.
As the Commission has previously explained in
related rulemaking proceedings, “the rule at section
l10.13(c). . . is not intended to maximize the number of
debate participants; it is intended to ensure that staging
organizations do not select participants in such a way
that the costs of a debate constitute corporate
contributions to the candidates taking part.”134 Thus,
the relevant inquiry is not whether CPD’s 15 percent
threshold “den[ies] voters a viable alternative to the
Republican and Democratic parties that Americans
increasingly feel have failed the nation,”135 as
Complainants urge, but whether that threshold is
objective and thereby “avoids the real or apparent
potential for a quid pro quo”136 between a corporate
debate sponsor and a party or candidate. As described
above, there is insufficient information to support a
reasonable inference that CPD’s criteria are not
objective, which ends the Commission’s inquiry in this
allegation.
V.

CONCLUSION

For the reasons stated above, the Commission finds
no reason to believe CPD, Fahrenkopf, and Ridings as
co-chairs, and the ten named officers and board
134

Candidate Debates, 80 Fed. Reg. 72,616, 72,617 (Nov.
20, 2015).
135

6869 Compl. at 2.

136

1995 E&J, supra note 15, at 64,262.

122a

members violated 52 U.S.C. §§ 30116(f) or 3011 S(a) by
making prohibited contributions and expenditures and
accepting prohibited contributions, and no reason to
believe that CPD violated 52 U.S.C. §§ 30103 or 30104
by failing to register and report as a political
committee.

123a

APPENDIX D
FEDERAL ELECTION COMMISSION
WASHINGTON, DC 20463
March 29, 2017
Alexandra A.E. Shapiro, Esq.
Jeremy Licht
Shapiro, Arato & Isserles LLP
500 Fifth Avenue, 40th Floor
New York, NY 10110
Dear Ms. Shapiro and Mr. Licht:
On March 23, 2017, the Commission voted not to
initiate a rulemaking to revise its regulations at 11 CFR
110.13(c) as proposed in the Petition for Rulemaking
filed by Level the Playing Field on September 11, 2014.
Please see the enclosed Supplemental Notice of
Disposition, which the Commission approved at its open
meeting of March 23, 2017, and was published in the
Federal Register on March 29, 2017 (82 Fed. Reg.
15468).
Sincerely,
/s/ Adav Noti
Adav Noti
Associate General Counsel

124a

Proposed Rules
Federal Register
Vol. 82 No.59
Wednesday, March 29, 2017
This section of the FEDERAL REGISTER contains
notices to the public of the proposed issuance of rules
and regulations. The purpose of these notices is to give
interested persons an opportunity to participate In the
rule making prior to the adoptio11 of the final rules.
FEDERAL ELECTION COMMISSION
11 CFR Part 110
[Notice 2017-09]
Candidates Debates
AGENCY:

Federal Elecxtion Commission

ACTION:

Supplemental Notice of Disposition of
Petition for Rulemaking

SUMMARY: On February 1, 2017, the U.S. District
Court for the District of Columbia ordered the
Commission to reconsider its disposition of the Petition
for Rulemaking filed by Level the Playing Field and to
issue a new decision consistent with the Court’s
opinion. The Petition for Rulemaking asks the
Commission to amend its regulation on candidate
debates to revise the criteria governing the inclusion of
candidates in presidential and vice presidential general
election debates. In this supplement to the Notice of
Disposition, as directed by the Court, the Commission
provides further explanation of its decision to not
initiate a rulemaking at this time.

125a

DATES: March 29, 2017.
ADDRESSES: The petition and other documents
relating to this matter are available on the
Commission’s Web site, www.fec.gov/fosers (reference
REG 2014–06), and in the Commission’s Public Records
Office, 999 E Street NW., Washington, DC 20463.
FOR FURTHER INFORMATION CONTACT: Mr.
Robert M. Knop, Assistant General Counsel, or Ms.
Jessica Selinkoff, Attorney, 999 E Street NW.,
Washington, DC 20463, (202) 694–1650 or (800)
424–9530.
SUPPLEMENTARY INFORMATION: On
participating candidates, requires staging organizations
to ‘‘use pre- established objective criteria to determine
which candidates may participate in a debate’’ and
further specifies that, for general election debates,
staging organizations ‘‘shall not use nomination by a
particular political party as the sole objective criterion
to determine whether to include a candidate in a
debate.’’ 11 CFR 110.13(c). The petition asks the
Commission to amend 11 CFR 110.13(c) in two
respects: (1) To preclude sponsors of general election
presidential and vice presidential debates from
requiring that a candidate meet a polling threshold in
order to be included in the debate; and (2) to require
sponsors of general election presidential and vice
presidential debates to have a set of objective, unbiased
criteria for debate participation that do not require
candidates to satisfy a polling threshold. The petition
included, in addition to legal arguments, reports and
other evidence in support of its position.

126a

Procedural History
The Commission published a Notice of Availability
seeking comment on the petition on November 14,
2014. Candidate Debates, 79 FR 68137. The
Commission received 1264 comments in response to
that notice, including one from the Petitioner that
included updated and additional factual submissions.
On November 20, 2015, the Commission published in
the Federal Register a Notice of Disposition in which
it explained why it would not initiate a rulemaking.
Candidate Debates, 80 FR 72616.
The Petitioner and others sued on the basis that the
Commission’s failure to initiate a rulemaking was
arbitrary and capricious in violation of the
Administrative Procedure Act. See Level the Playing
Field v. FEC, No. 15–cv–1397, 2017 WL 437400 at *1
(D.D.C. Feb. 1, 2017) (citing 5 U.S.C. 706). On February
1, 2017, the U.S. District Court for the District of
Columbia concluded that the Commission acted
arbitrarily and capriciously by failing to thoroughly
consider the presented evidence and explain its
decision; the Court ordered the Commission to
reconsider its disposition of the petition and issue a new
decision consistent with the Court’s opinion. See id. at
*13. In particular, the Court concluded that the
Commission had not adequately addressed evidence
concerning the 15% vote share polling threshold used
by the Commission on Presidential Debates (‘‘CPD’’) as
a criterion for inclusion in presidential general election
debates. See id. at *12 (noting that ‘‘for thirty years
[CPD] has been the only debate staging organization for

127a

presidential debates’’ and concluding that Commission
had arbitrarily ignored evidence particular to CPD’s
polling criterion). The Court declined to ‘‘take the
extraordinary step of ordering promulgation of a new
rule,’’ but instead remanded for the Commission to
‘‘give the Petition the consideration it requires’’ and
publish a new reasoned disposition or the
commencement of rulemaking ‘‘if the Commission so
decides.’’ Id. at *11, *13 (citing Shays v. FEC, 424 F.
Supp. 2d 100, 116–17 (D.D.C. 2006)).
In accordance with the Court’s instructions, the
Commission has reconsidered the full rulemaking
record. On the basis of this review, the Commission
again declines to initiate a rulemaking to amend 11
CFR 110.13(c) at this time. The analysis below is
intended to supplement, rather than replace, the
analysis that the Commission provided in its original
Notice of Disposition. 80 FR 72616.
Purpose and Requirements
Candidate Debate Regulation

of

Existing

As the Commission stated in adopting the current
candidate debate regulation in 1995, ‘‘the purpose of
section 110.13. . . is to provide a specific exception so
that certain nonprofit organizations. . . and the news
media may stage debates, without being deemed to have
made prohibited corporate contributions to the
candidates taking part in debates.’’ Corporate and
Labor Organization Activity; Express Advocacy and
Coordination with Candidates, 60 FR 64260, 64261

128a

(Dec. 14, 1995).1 Accordingly, the Commission has
required that debate ‘‘staging organizations use
pre-established objective criteria to avoid the real or
apparent potential for a quid pro quo, and to ensure the
integrity and fairness of the process.’’ Id. at 64262. In
discussing objective selection criteria, the Commission
has noted that debate staging organizations may use
them to ‘‘control the number of candidates
participating in . . . a meaningful debate’’ but must not
use criteria ‘‘designed to result in the selection of
certain pre-chosen participants.’’ Id. The Commission
has further explained that while ‘‘[t]he choice of which
objective criteria to use is largely left to the discretion
of the staging organization,’’ the rule contains an
implied reasonableness requirement. Id. Within the
realm of reasonable criteria, the Commission has stated
that it ‘‘gives great latitude in establishing the criteria
for participant selection’’ to debate staging
organizations under 11 CFR 110.13.2 First General
Counsel’s Report at n.5, MUR 5530 (Commission on
Presidential Debates) (May 4, 2005),
http://eqs.fec.gov/eqsdocsMUR/ 000043F0.pdf.

1

See also Funding and Sponsorship of Federal Candidate
Debates, 44 FR 76734 (Dec. 27, 1979) (explaining that, through
candidate debate rule, costs of staging multi-candidate nonpartisan
debates are not contributions or expenditures); 11 CFR 100.92
(excluding funds provided for costs of candidate debates staged
under 11 CFR 110.13 from definition of ‘‘contribution’’); 11 CFR
100.154 (excluding funds used for costs of candidate debates staged
under 11 CFR 110.13 from definition of ‘‘expenditure’’).
2

See Candidate Debates and News Stories, 61 FR 18049
(Apr. 24, 1996) (quoting H.R. Rep. No. 93–1239 at 4 (1974)).

129a

In the first major enforcement action under this
regulation almost two decades ago, the Commission
found that CPD’s use of polling data (among other
criteria) did not result in an unlawful corporate
contribution, with five Commissioners observing that it
would make ‘‘little sense’’ if ‘‘a debate sponsor could
not look at the latest poll results even though the rest
of the nation could look at this as an indicator of a
candidate’s popularity.’’ MUR 4451/ 4473 Commission
Statement of Reasons at 8 n.7 (Commission on
Presidential Debates) (Apr. 6, 1998), http://
www.fec.gov/disclosure data/mur/ 4451.pdf#page=459.
Citing this statement, one court noted with respect to
the use of polling thresholds as debate selection criteria
that ‘‘[i]t is difficult to understand why it would be
unreasonable or subjective to consider the extent of a
candidate’s electoral support prior to the debate to
determine whether the candidate is viable enough to be
included.’’ Buchanan v. FEC, 112 F. Supp. 2d 58, 75
(D.D.C. 2000). Nonetheless, the Commission has noted
that while it cannot reasonably ‘‘question[ ] each and
every . . .candidate assessment criterion,’’ it can
evaluate ‘‘evidence that [such a] criterion was ‘fixed’ or
arranged in some manner so as to guarantee a
preordained result.’’ MUR 4451/4473 Commission
Statement of Reasons at 8–9 (Commission on
Presidential Debates).
The Arguments for Changing the Regulation
The petition and many of the comments supporting
it essentially argue that CPD’s 15% threshold is a
non-objective criterion because it is unreliable and/or
intended to unfairly benefit major party candidates at

130a

the expense of independent and third-party candidates.
The Court summarized the petition’s arguments as
attempting to establish, first, that ‘‘CPD’s polling
threshold is being used subjectively to exclude
independent and third-party candidates’’ and, second,
that ‘‘polling thresholds are particularly unreliable and
susceptible to . . . subjective use at the presidential
level, undermining the FEC’s stated goal of using
‘objective criteria to avoid the real or apparent potential
for a quid pro quo, and to ensure the integrity and
fairness of the process.’’’ Level the Playing Field, 2017
WL 437400 at *12.
In essence, the petition argues that there are biases
against third-party and independent candidates in
accurate polling, and therefore that a polling threshold
requirement like CPD’s presents these candidates with
a Catch-22 scenario:
[A polling threshold] effectively institutionalizes
the Democratic and Republican candidates as the
only options with which the voters are presented.
A third- party or independent candidate who is
excluded from the debates loses the opportunity to
take the stage against the major party nominees
and demonstrate that he or she is a better
alternative; the media does not cover the
candidate; and the candidate does not get the
public exposure necessary to compete. The
‘‘determination’’ that a [third-party or
independent] candidate is not viable because he or
she lacks a certain amount of support becomes a
self-fulfilling prophecy.

131a

Petition at 3. The petition argues that inclusion of
independent and third- party candidates in presidential
general election debates furthers voter education and
voter turnout, which, the petition asserts, are policy
purposes underlying the regulation.
Summary of Petition Evidence in Support of
Changing the Regulation
In support of the argument that polling thresholds
have the purpose or effect of favoring major party
candidates over third-party or independent candidates,
the petition presents facts and analysis regarding the
name recognition required to poll at CPD’s 15%
threshold and the amount of money required to gain
that level of name recognition. The petition provides
further factual submissions that, according to the
petition, show that the unreliability of polling—both
generally and with respect to independent and
third-party candidates—renders the 15% threshold
unattainable and unreasonable for independent and
third- party candidates.
The crux of the petition’s factual submissions
consists of two reports that purport to show that CPD’s
15% threshold is designed to result in the exclusion of
independent or third-party candidates. The first report,
by Dr. Clifford Young, concludes that in order to
reach a 15% threshold, a candidate must achieve name
recognition among 60–80% of the population.3 The
second, by Douglas Schoen, estimates that the cost to a
third-party or independent candidate of achieving 60%
3

Petition Ex. 3 (‘‘Young Report’’).

132a

name recognition would be over $266 million, including
almost $120 million for paid media content production
and dissemination, which the report concludes is not a
reasonably reachable figure for a non-major-party
candidate.4 Additionally, both the Young and Schoen
reports conclude that polling in three-way races is
inherently unreliable and not, therefore, an objective
measure of the viability of third-party and independent
candidates. In reaching their conclusions, both the
Young and Schoen reports assert that third-party and
independent candidates are disadvantaged by the fact
that they do not benefit from a ‘‘party halo effect’’ by
which Democratic and Republican candidates —
regardless of name recognition — may garner a
minimum vote share in polling merely for being
associated with a major party, in addition to benefitting
from increased name recognition from media coverage
of the major party primary season.5
The Commission’s Assessment of the Petition’s
Factual Submissions
1. Submissions Regarding Whether a 15% Threshold
Cannot Be Attained by (and Therefore Excludes)
Independent and Third-Party Candidates
The Young Report’s conclusion that third-party and
independent candidates require a 60–80% name
recognition to meet CPD’s 15% threshold does not
provide a persuasive basis for changing the candidate

4

Petition Ex. 11 (‘‘Schoen Report’’).

5

See Young Report at ¶¶ 21–22.

133a

debate regulation. Dr. Young acknowledges that his
report’s analysis is one-dimensional; it correlates
polling results to name recognition alone, and then it
draws conclusions regarding hypothetical third-party
candidate performance based on that one factor. More
specifically, Dr. Young acknowledges that polling
results are not merely a function of name
recognition—they are a much more complex confluence
of factors. See Young Report at ¶¶ 10, 20(d) (listing
other factors, beyond name recognition, affecting
candidate vote share, including ‘‘fundraising, candidate
positioning, election results, and idiosyncratic events’’);
see also Nate Silver, A Polling Based Forecast of the
Republican Primary Field, FiveThirtyEight Politics
(May 11, 2011) (attached to Petition as Exhibit 20)
(noting that, more than name recognition, ‘‘laying the
groundwork for a run quite early on,’’ including efforts
to ‘‘hire staff, cultivate early support, brush up [ ]
media skills,’’ predicts later vote share success). Due to
the Young Report’s focus on this one correlative factor,
the report does not purport to establish any causative
effect between name recognition and vote share, and it
does not account for how external forces apart from
name recognition—such as fundraising, candidate
positioning, election results, and idiosyncratic
events—may influence vote share. For example, the
report does not take into consideration forces that
might increase the vote share of an otherwise
unfamiliar independent candidate—such as high
unfavorable ratings among major party candidates—or
forces that might decrease the vote share of an
independent candidate who has become well-recognized
— such as policy preferences or political missteps.

134a

Because it largely omits analysis of all other factors
beyond name recognition, the Commission is not
persuaded that the Young Report’s conclusions are a
sufficient basis on which to determine that a 15%
polling threshold is so inherently unreachable by
non-major- party candidates that the Commission
should provide that sponsors of general election
presidential debates must be prohibited as a matter of
law from using it in order to fulfill the statutory
prohibition on corporate contributions.
Moreover, even within the confines of name
recognition, the Young Report is only weakly applicable
to the debates at issue, which are presidential general
election debates. The Young Report reaches its 60–80%
name recognition result through three models, all of
which extrapolate from data about name recognition of
major party candidates at the early stages of the party
primary process (i.e., before the Iowa caucuses) because,
the report explains, ‘‘party halo effects’’ may be lower
during early primary polling. Young Report at ¶ 22. The
decision to measure name recognition at this
extraordinarily early stage in all three models, even if
only in part, may amplify polling errors, which the
report notes are higher earlier in the election cycle than
during the later ‘‘election salience’’ period—from one
day to several months before election day—during
which people start paying more attention to the
election. Id. at ¶¶ 43(g), (i). Additionally, the use of the
early party primary stage as the point of comparison for
third-party or independent candidates’ name
recognition in September does not address or account
for differences in the size of the candidate fields at

135a

those points in time. Thus, the Young Report’s
observations regarding early primary candidates
provide little or no persuasive evidence as to the effect
of a polling threshold on presidential general election
candidates.
In addition, the petition appears to draw inapposite
conclusions from the Young Report’s data. Critically,
neither the Young Report nor other evidence submitted
with the petition or comments establishes that
third-party or independent candidates do not or cannot
meet 60–80% name recognition. In fact, at least one
third-party candidate was reported to achieve over 60%
name recognition in the most recent presidential
campaign prior to the general election debates. See Poll
Results: Third Party Candidates, YouGov (Aug. 25–26,
2016), available at https://d25d2506sfb94s.
cloudfront.net/ cumulus uploads/document/
wc35k48hrs/tabs HP Third Party
Candidates
20160831.pdf (showing Gary Johnson and Jill Stein
having 63% and 59% name recognition among
registered voters, respectively). Thus, there is no
information in the rulemaking record showing that 60–
80% name recognition is a prohibitively high bar for
independent candidates. In other words, even if the
Commission were to assume arguendo that 60–80%
name recognition correlates with 15% vote share, there
is no information in the record demonstrating that
these thresholds inherently function to
exclude
third-party or independent candidates because of their
party status.
Instead, the petition uses Dr. Young’s name
recognition threshold as a springboard to the primary

136a

argument of the Schoen Report: That the cost of
achieving 15% vote share is prohibitively high for
independent candidates. The Schoen Report starts from
the premise that 60–80% name recognition is necessary
to gain a 15% vote share and proceeds to estimate the
amount of money that an independent candidate would
need to spend to reach 60–80% name recognition. For
the reasons stated above, the Commission does not find
that this premise is adequately established by the
Young Report, and therefore the Commission questions
whether the Schoen Report possesses any meaningful
evidentiary value. But even assuming that a candidate
must reach 60–80% name recognition to achieve a 15%
threshold in vote share, the Commission finds the
Schoen Report not to provide a reasoned evidentiary
basis for amending the rule at issue.
The Commission is unpersuaded by the Schoen
Report primarily because the report builds its
conclusion through an extensive series of unsupported
suppositions and assertions. For example, to explain a
significant portion of its calculations, the report states
that ‘‘the media will not cover an independent
candidate until they are certainly in the debates.’’
Schoen Report at 3. But the report provides no basis for
this assertion other than an unexplained reference to
the number of publications ‘‘follow[ing]’’ one particular
candidate (id. at 5), and the Commission is aware of at
least three non-major-party candidates who did not

137a

participate in the general election debates but received
significant media attention in 2016.6
In another premise that the report uses to build its
later conclusions, the Schoen Report asserts that
independent candidates are disadvantaged because they
‘‘must resort to launching a massive national media
campaign’’ while major party candidates ‘‘by competing

6

Searches of the Thompson Reuters Westlaw
‘‘Newspaper’’ database for mentions in 2016 of independent and
third-party 2016 presidential candidate names (‘‘Gary Johnson,’’
‘‘Jill Stein,’’ and ‘‘Evan McMullin’’) show thousands of results.
Moreover, the number of results for references to these
independent candidates was comparable to the number of results
for references to several major party candidates during comparable
time periods.Using as a baseline the 277 days from the lead up
to the first Republican party primary debate until Donald Trump
was determined to be the presumptive nominee (August 1, 2015, to
May 4, 2016), and the similar 277-day period of September 4, 2015
(before the first Democratic primary debate) to June 7, 2016 (when
Hillary Clinton became the presumptive Democratic nominee), the
Commission looked at mentions for independent candidates during
the 277 days before the general election (February 5–November, 7,
2016). Those results show that Gary Johnson (with 3,001 results)
was comparable to Bobby Jindal and Mike Huckabee (with 2,894
and 3,274 results, respectively); Jill Stein (with 1,744 results) was
comparable to Rick Perry and Martin O’Malley (with 2,278 and
2,566 results, respectively); and Evan McMullin (with 353 results)
was comparable to Lincoln Chafee, Jim Webb, and George Pataki
(with 424, 521, and 937 results, respectively). And, while searches
for Donald Trump’s and Hillary Clinton’s names returned
significantly more results (7,451 and 7,404, respectively), those
results were in line with other candidates who did not achieve high
vote share in the party primaries, such as Jeb Bush with 7,102
results.

138a

in small state primaries, can build their name
recognition without the costs of running a national
campaign.’’ Id. In support of this statement, the report
states that ‘‘Obama’s 2008 victory in the Iowa caucuses
catapulted him to national prominence.’’ Id. In fact,
polling expert Nate Silver has noted that ‘‘contrary to
the conventional wisdom, which holds that Barack
Obama suddenly burst onto the political scene, the
polling shows that he was already reasonably wellknown to voters in advance of the 2008 primaries,
largely as a result of his speech at the 2004 Democratic
National Convention. His name was recognized by
around 60 percent of primary voters by late 2006, and
that figure quickly ramped up to 80 or 90 percent after
he declared for the presidency in February, 2007.’’ Nate
Silver, A Brief History of Primary Polling, Part II,
FiveThirtyEight (Apr. 4, 2011),https://fivethirtyeight.
com/features/a-brief-history-of-primary- polling-part-ii/.
The only other basis that the report provides for this
portion of its conclusion is the statement that Senator
Rick Santorum ‘‘spent only $21,980 in [Iowa], or 73
cents per vote’’ in 2012. Schoen Report at 5. It is not
clear how the newspaper article cited by the report
derived this figure, and Schoen (despite having access
to all relevant financial data through the FEC’s Web
site) does not appear to have assessed its accuracy. In
fact, reports filed with the Commission for the
period ending three days before the Iowa caucus show
that Senator Santorum made disbursements of
$1,906,018. Rick Santorum for President, FEC Form 3P
at 4 (Jan. 31, 2012), http://docquery.fec.gov/pdf/317/
12950383317/12950383317.pdf. While not all of these
disbursements were targeted to Iowa, the candidate’s

139a

total spending in relation to the caucuses in that state
was far higher than $21,980. Even looking at only
reported disbursements to Iowa payees (and, therefore,
not including payments to media buyers and others
outside of Iowa for activities targeted towards Iowa),
the filings shows that Santorum spent over $112,000 in
Iowa between October 1 and December 31, 2011, for
purposes including rent, payroll, lodging, direct mail,
advertising, communication consulting, and coalition
building. Id. Thus, the Schoen Report’s use of
unexplained second-hand analysis undercuts its
credibility, and the facts demonstrated by the public
record give the Commission reason to doubt the Schoen
Report’s calculations regarding any extra benefit major
party primary candidates receive from their media
expenditures.
In addition, the Schoen Report states that media
costs to accomplish 60% name recognition are higher in
three- way races due to increased competition, and the
report increases its cost estimate accordingly.7 But the
60% figure is apparently drawn from the Young Report,
which, as discussed above, addresses the very earliest
stages of major party primaries. Like the Young Report,
the Schoen Report does not explain why or how this
60% figure can be extrapolated from early major party
primaries to three-way general elections.

7

Schoen Report at 3; see also id. at 10 (asserting, without
supporting data or sources, that costs will likely be ‘‘significantly’’
higher ‘‘in an election year featuring three viable candidates’’ and,
therefore, adding 5% premium to report’s earlier cost estimates).

140a

The Schoen Report ultimately adopts an estimated
cost of at least $100 million for a media buy that an
independent candidate would require to gain the name
recognition to meet the 15% threshold. Schoen Report
at 6. Not only does this figure rely upon the faulty
assumptions that the Commission has already noted, it
is also unreliable for at least four additional reasons.
First, the $100 million figure is taken from an
estimate from ‘‘a leading corporate and political media
buying firm,’’ without any underlying data and without
any explanation of the circumstances under which the
firm purportedly offered that estimate. Nor does the
report address (or even acknowledge) any biases in that
estimate that may stem from a media buying firm’s
financial interest in estimating or promoting high
media buy costs. The Schoen Report simply provides no
evidentiary basis for the Commission to credit this
third-person estimate.
Second, the $100 million estimate presumes that a
candidate must go from zero percent name recognition
to 60% name recognition, without noting the likelihood
of a candidate starting from zero or otherwise
explaining this assumption. The Schoen Report
suggests, by consistently comparing the hypothetical
independent candidate’s position with the positions of
his ‘‘two’’ (and only two) major party candidate
competitors, that this zero percent baseline occurs at
some point after the major parties have established
presumptive nominees. See, e.g., Schoen Report at
10–11 (discussing ‘‘the two major party campaigns’’
with whom hypothetical independent candidate needing
60% name recognition will be competing for ad buy

141a

time); id. at 15 (same). A hypothetical situation in
which a person with zero percent name recognition
decides to run for president in approximately June of
the election year and must raise name recognition from
nothing to 60% within the three months before CPD
looks at polls in September is unrelated to the realities
of presidential elections. Presidential candidates —
major party and third-party alike — generally begin
campaigning a full year or more before the election,
see, e.g., Jill Stein, FEC Form 2 (July 6, 2015) (declaring
candidacy for president in 2016 election cycle), and they
rarely start with zero name recognition, see, e.g.,
Petition Ex. 13 (Gallup report showing 11 candidates
(including Libertarian Gary Johnson) with over 10%
name recognition in January 2011). The Schoen
Report’s scenario — and the conclusions that the report
draws from it — therefore provides no persuasive
support for the petition’s assertion that the candidate
debate regulation must be revised.
Third, the Schoen Report bases its estimate of
campaign and paid media costs on the assertion that
independent candidates are unable to attract news
media coverage. See Schoen Report at 4. But the
report’s assertion, based primarily on research
published in 1999,8 seems particularly antiquated in the
8

Schoen Report at 4 (citing Paul Herrnson & Rob
Faucheux, Outside Looking In: Views of Third Party and
Independent Candidates, Campaigns & Elections (Aug. 1999)). The
assertion also appears to be in tension with the statutory exclusion
of the news media coverage from legal treatment as campaign
spending. See 52 U.S.C. 30101(9)(B)(i) (excluding ‘‘any news story
. . .distributed through the facilities of any broadcasting station,

142a

age of digital and social media. See Farhad Manjoo, I
Ignored Trump News for a Week. Here’s What I
Learned, NY Times, Feb. 22, 2017, https://
www.nytimes.com/2017/02/22/ technology
/trump-news-media-ignore.html (discussing news media
coverage during and since 2016 presidential election
campaign in light of social media pressures). The
Commission declines to promulgate rules that will
govern the 2020 presidential election and beyond on the
basis of opinions that are premised on such obsolete
data.
Fourth, the Schoen Report’s media cost estimates do
not appear to take account of media purchases in
support of a candidate by outside groups, including
independent expenditure- only political committees
(‘‘IEOPCs’’). IEOPCs may create, produce, and
distribute communications in support of, but
independently of, a particular candidate, and in 2016
several IEOPCs Johnson in just that way.9 In addition,
IEOPCs may raise unlimited funds from individuals and
from sources, like corporations, otherwise prohibited
under the Federal Election Campaign Act, 52 U.S.C.
30101–46. Thus, the existence and rise of IEOPCs
undermine the Schoen Report’s assumptions about the

newspaper, magazine, or other periodical’’ from definition of
‘‘expenditure’’).
9

See Open Secrets, Independent Expenditures, Gary
Johnson, 2016 cycle, https://www.opensecrets.
org/pres16/outside-spending?id=N00033226 (listing six ‘‘Super
PACs’’ or IEOPCs supporting Johnson, two of which spent over $1
million in support) (last visited Feb. 24, 2017).

143a

amount of the average contribution to a candidate, as
well as the report’s extrapolations about the number of
individual contributions needed and
total sum
necessary to reach Dr. Young’s 60–80% name
recognition threshold. See Schoen Report at 24–25
(estimating third-party candidate’s ‘‘hypothetical
average donation’’ on basis of ‘‘assumption for average
donation’’ of ‘‘plurality’’ of Obama and Romney
contributors under $2600 maximum).
Ultimately, the unreliability of the Schoen Report’s
conclusions is most clearly demonstrated by the fact
that third-party candidate Gary Johnson reached 60%
name recognition by August 31, 2016.10 In the 2016
election cycle through August 31, Johnson had spent
almost $5.5 million; this amount represents total
disbursements for all purposes, including, but not
limited to, media buys.11 According to the Schoen
Report, such a result should have been impossible:
Johnson should not have been able to achieve 60%

10

See Ariel Edwards-Levy, Third-Party Candidates are
Getting a Boost in Name Recognition, Huffington Post (Aug. 31,
2016) (noting Johnson’s name recognition); Poll Results: Third
Party Candidates, YouGov (Aug. 25–26, 2016), available at
https://d25d2506sfb94s.cloud front.net/cumulus
uploads/document/wc35k48hrs/ tabs HP Third Party Candidates
20160831.pdf (showing Gary Johnson and Jill Stein having 63%
and 59% name recognition among registered voters, respectively).
11

See Gary Johnson 2016, FEC Form 3P at 3–4 (Sept. 20,
2016), http://docquery.fec.gov/pdf/391/201609209032026391
/201609209032026391.pdf (showing receipts of $7,937,608 and
disbursements of $5,444,704).

144a

name recognition until he spent at least $266
million—fifty times more than he actually did.12
For all of the foregoing reasons, the Commission
finds the Schoen Report unpersuasive.
Finally, the petition acknowledges that a number of
third-party presidential candidates have performed
sufficiently well that they were included or would have
been included in debates with 15% thresholds. See
Petition at 15–16. Indeed, the petition notes that as
many as six candidates would apparently have satisfied
this requirement at some point during their campaigns:
Roosevelt in 1912, LaFolette in 1924, Thurmond in
1948, Wallace in 1968, Anderson in 1980, and Perot in
1992. Id. The petition asks the Commission to
categorically disregard these examples because they
predate the Internet, and in some cases, the television.
Petition at 16.13 As discussed above, the Commission
12

The Young and Schoen Reports do not address a
circumstance in which a candidate, like Gary Johnson, reaches at
least 60% name recognition but does not reach a 15% threshold.
The Commission notes, though, that this circumstance (in which
name recognition does not translate to high vote share) might be
explained by the other factors beyond name recognition that affect
vote share, including ‘‘fundraising, candidate positioning, election
results, and idiosyncratic events,’’ mentioned in the Young Report.
See Young Report at ¶¶ 10, 20(d). Moreover, the circumstance in
which name recognition does not translate to high vote share is not
unique to third party candidates. See note 6, above (discussing Jeb
Bush).
13

The petition also asks the Commission to disregard the
strong polling results of third-party or independent candidates, like
George Wallace and John Anderson, who have a prior affiliation

145a

agrees that pre-Internet candidacies provide only a
relatively weak basis assessing how easy or difficult it
would be for candidates to achieve 15% vote share in a
modern election. But to the extent that the availability
of Internet communication has changed this calculus,
the Commission notes that advertising on the Internet
can cost significantly less money than advertising in
more traditional media that was available to those
pre-Internet independent candidates. See, e.g. Internet
Communications, 71 FR 18589, 18589 (Apr. 12, 2006)
(describing Internet as ‘‘low-cost means of civic
engagement and political advocacy’’ and noting that
Internet presents minimal barriers to entry compared
to ‘‘television or radio broadcasts or most other forms
of mass communication’’); Associated Press, Here’s
How Much Less than Hillary Clinton Donald Trump
Spent on the Election, Fortune (Dec. 9, 2016),
http://fortune.com/2016/1 2 / 0 9 /h i llary-clintondonald-trump-campaign- spending/ (comparing Hillary
Clinton’s ‘‘more traditional’’ television-heavy
advertising strategy in campaign’s last weeks—$72
million on TV ads and about $16 million on Internet
ads—with Donald Trump’s ‘‘nearly $39 million on
last-minute TV ads and another $29 million on

with a major political party. Petition at 15. The Commission is not
persuaded that disregarding those polling results would be
reasonable in the context of assessing, as required by the court,
whether the CPD’s 15% threshold under the current candidate
debate regulation acts ‘‘subjectively to exclude independent and
third-party candidates,’’ since the threshold would apply to all
third-party and independent candidates, regardless of prior
affiliation. Level the Playing Field, 2017 WL 437400 at *12.

146a

digital’’); see also Bill Allison et al., Tracking the 2016
Presidential Money Race, Bloomberg Politics (Dec. 9,
2016), https://www.bloomberg.com/politics/
graphics/2016-presidential-campaign-fundraising/
(noting that Trump’s spending to ‘‘target[ ] specific
groups of Clinton backers with negative ads on social
media to lower Democratic turnout . . . may have been
a factor in Trump’s performance in battleground
states’’).
In sum, the Commission concludes that the petition
does not present credible evidence that a 15% threshold
is so unobtainable by independent or third-party
candidates that it is per se subjective or intended to
exclude them.
2. Submissions Regarding Whether Polls are Unreliable
and Systematically Disfavor Independent and
Third-Party Candidate
The Young Report’s examination of polling error in
three-way races with independents seeks to determine,
essentially, if the threshold is drawn in the right place
to identify candidates that actually have a 15% vote
share. Young Report at ¶ 60. The Young Report
concludes that polls in three-way races have greater
errors than polls in two- way races. Specifically, the
Young Report extrapolates from gubernatorial election
polls taken two months before the general election (the
point at which CPD uses polls as a debate inclusion
criterion) where there is an 8% error rate in three-way
races compared to a 5.5% error rate in two-way races.
Id. at ¶¶ 52–56. Adjusting for the fact that
gubernatorial race polling is ‘‘more error prone’’ than

147a

presidential race polling, the Young Report concludes
that the applicable error rate is 6.04%. Id. at ¶¶ 57–58.
The Young Report continues to extrapolate the effect of
this error on candidates, such as independent or
third-party candidates, that poll close to the 15%
threshold; for these candidates, the Young Report
concludes that there is an approximately 40% chance
that a third-party or independent candidate who holds
the support of 15% of the population would be excluded.
Id. at ¶¶ 59–66.
The Commission is unpersuaded by this analysis for
two fundamental reasons. First, as the Commission
noted in its original notice of disposition, the fact that
polling data can be erroneous does not mean that a
debate staging organization acts subjectively in using
it. 80 FR at 72618 n.6. By way of analogy, consider a
school district with a policy of canceling school if a
majority of local television news stations predict at least
six inches of snow for the next day. That policy would
be facially objective, even though such weather
forecasts are known to be significantly inaccurate. The
policy would be subjective only if the inaccuracy in the
forecast were systematically biased for or against the
condition being triggered (e.g., if the local weather
forecasters regularly used high-end estimates of snow
to drive viewer interest). But this demonstrates the
second reason the Commission is unpersuaded by the
petition’s submissions regarding polling unreliability:
The petition provides no evidence that the polling error
is biased in a manner specific to party affiliation, that
is, that polling is biased against third-party or
independent candidates. Indeed, the petition explicitly

148a

acknowledges that ‘‘it [is] wholly unclear whether the
polling over- or underestimate[s] the potential of the
third party candidate.’’ Petition at 19 (quoting Schoen
Report at 28). Thus, the Commission concludes that the
petition does not demonstrate that statistical errors in
polling data render the use of such data subjective or
show that it is intended to exclude third-party
candidates.14

14

Because this data, even as cited by the petition, does not
show that the regulation should be amended, the Commission need
not further assess the data’s validity. Nonetheless, the Commission
notes that there are significant structural differences between the
state polls cited by Dr. Young and national presidential polls. See,
e.g., Young Report at ¶¶ 41 (explaining differences between
reputable national and state or local polls, with respect to both
number of interviews and margins of error), 57 (showing
significant differences between state and federal polling at different
points in time). Although Dr. Young adjusts the state-poll results
before applying them to his national analysis, (see id. ¶ 58), the
manner in which the adjustment is described leaves unexplained
whether the adjustment accounts for all of the relevant differences
between state and national polls.
The Petitioner also submitted in response to the Notice
of Availability a comment with additional
data concerning
‘‘grossly inaccurate’’ polling in 2014 midterm Senate and
gubernatorial elections. Level the Playing Field, Comment at 1
(Nov.
26,
2014),
http://sers.fec.gov/fosers/
showpdf.htm?docid=310980. However, attachments to the
comment note that ‘‘midterm polling biases in Senate elections are
far worse than in presidential elections.’’ Id. at Exhibit A. And a
chart created by the Petitioner for the comment shows that, of ten
races with purportedly high polling errors in races without a
‘‘viable third-party or independent candidate,’’ the two races
included in the chart with the lowest polling error are, in fact, the
only two races that include a third-party or independent candidate.

149a

The petition does imply that third-party and
independent candidates are at a disadvantage because
‘‘there is no requirement that pollsters test third-party
and independent candidates,’’ and therefore the CPD
might ‘‘cherry pick from among the myriad polls that
exist in order to engineer a specific outcome.’’
Petition at 17–18. But the petition presents no evidence
that such manipulation has ever occurred, and the
Commission is unwilling to predicate a rule change on
unsupported speculation of wrongdoing. A debate
sponsor who took actions to manipulate the ‘‘preestablished’’ and ‘‘objective’’ selection criteria so as to
‘‘select[ ] certain pre- chosen participants’’ by
cherry-picking polls that excluded other candidates
would violate the existing rule.
The petition further argues that lowering the polling
threshold is insufficient to solve polling error problems.
As an initial matter, the Commission notes that the
Young Report does not conclude that any and all polling
thresholds are unreliable. On this point, in addition to
the Young and Schoen Reports discussed above,
Petitioner cites an article from Nate Silver on
Republican primaries for the conclusion that ‘‘a simple

Compare Level the Playing Field, Comment at 3 (showing Georgia
and North Carolina Senate races with the lowest final polling
errors of those entries in chart) to Level the Playing Field,
Comment at Exhibit C (showing Georgia and North Carolina
Senate as only races included in chart that involved three-way
race polling). For all of these reasons, the Commission is not
persuaded that the Petitioner’s submissions regarding state and
Senate polls indicate any systematic, anti-third-party flaw in the
polls at issue here, which are presidential general election polls.

150a

poll does not capture a candidate’s potential.’’ Petition
at 17 (citing Nate Silver, A Polling Based Forecast of
the Republican Primary Field, FiveThirtyEight Politics
(May 11, 2011) (attached to Petition as Exhibit 20)).
The cited article, though, concludes what appears to be
the opposite of the point for which it is cited; it starts by
explaining that it will prove the author’s contention
that ‘‘polls have enough predictive power to be a
worthwhile starting point.’’ Petition, Ex. 20. In fact,
that article was part four of a four part series. The
second sentence of part one of that series explained that
the series was intended to show that ‘‘national polls of
primary voters—even [nine months] out from the Iowa
caucuses and New Hampshire primary—do have a
reasonable amount of predictive power in informing us
as to the identity of the eventual nominee.’’ Nate Silver,
A Brief History of Primary Polling, Part I,
FiveThirtyEight
(Mar.
31,
2011),
https://fivethirtyeight.com/features/a-briefhistory-of-primary-polling-part-i/. Moreover, polls like
those used in September by CPD are not ‘‘inaccurate’’
or ‘‘unreliable’’ simply because their assessments of
vote share do not match the final vote share on Election
Day; such polls are ‘‘designed to measure the true level
of public support at the time the poll is administered,’’
not ‘‘to measure the true level of public support on
Election Day.’’ Commission on Presidential Debates,
Comment at Ex. 2 ¶ 20 (Declaration of Frank M.
Newport, Editor-in-Chief, Gallup Organization)
(Dec.15,2014),
http://sers.fec.gov/
fosers/showpdf.htm?docid=310982. As the Newport
Declaration notes, ‘‘there is no doubt that properly
conducted polls remain the best measure of public

151a

support for a candidate . . . at the time the polls are
conducted.’’ Id. at Ex. 2 ¶ 21.
3. Submissions Regarding the
Expanding Debate Participation

Desirability

of

The petition and most of the commenters who
support it rely primarily on policy arguments that
polling thresholds are inconsistent with the purposes of
the existing regulations and that those purposes would
be better served by, in essence, including more voices on
the debate stage.15 The Commission explained in its
15

A substantial majority of the comments that the
Commission received on the petition were cursory and consisted of
a single sentence expressing support for the petition. See, e.g.,
Comment by Amanda Powell, REG 2014–06 Amendment of 11
CFR 110.13(c) (Dec. 15, 2014) (‘‘I support the petition.’’),
http://sers.fec.gov/fosers/ showpdf.htm?docid=310989. Additionally,
the League of Women Voters ‘‘does not support amending the FEC
regulation to preclude sponsors of general election presidential
and vice presidential debates from requiring that a candidate meet
a polling threshold in order to be included in the debate,’’ but did
generally support opening a rulemaking, though without
supporting or proposing any specific proposal. Comment by
League of Women Voters, REG 2014–06 Amendment of 11 CFR
110.13(c) (Dec. 15, 2014), http://sers.fec.gov/fosers/showpdf
.htm?docid=310985. The comment did not, however, present any
substantial justification for doing so. Moreover, such an
open-ended inquiry was not the focus of the petition for
rulemaking.
Another commenter, FairVote, indicated that it ‘‘do[es]
not oppose the use of polling as a debate selection criterion so long
as candidates have an alternative means of qualifying for
inclusion.’’ See Comment by FairVote, REG 2014–06 Amendment
of 11 CFR 110.13(c) (Dec. 15, 2014), http://sers.fec.gov/fosers/
showpdf.htm?docid=310974. That commenter emphasized the

152a

original Notice of Disposition why it was not
persuaded by the petition’s ‘‘arguments in favor of
debate selection criteria that would include more
candidates in general election presidential and vice
presidential debates.’’ 80 FR at 72617. As the
Commission explained, ‘‘The rule at section 110.13(c)
. . . is not intended to maximize the number of debate
participants; it is intended to ensure that staging
organizations do not select participants in such a way
that the costs of a debate constitute corporate
contributions to the candidates taking part.’’ Id. That
is the only basis on which the Commission is
authorized to regulate in this area. The Commission
has no independent statutory basis for regulating the
number of candidates who participate in debates, and
the merits or drawbacks of increasing such
participation—except to the limited extent that they

Commission’s recognition of the educational purpose of candidate
debates and advocated that including additional candidates in
debates would ‘‘broaden the substantive discussion within the
debates.’’ Id. As explained supra, however, the main purpose of
the regulation at issue is to clarify when money spent on debate
sponsorship is exempt from the FECA’s definition of
‘‘contribution.’’ The Commission’s recognition of the educational
value of debates does not alter its view that the determination of
which candidates participate in a given debate should generally be
left to the organizations sponsoring such events. See supra. In
addition, while the Commenter supported Petitioner’s proposed
alternative to select a third debate participant based upon the
number of signatures gathered to obtain ballot access, the existing
rule already permits this alternative and thus amending the rule
is not required to allow for that approach. See id.

153a

implicate federal campaign finance law — are policy
questions outside the Commission’s jurisdiction.
Conclusion
The evidence presented to the Commission in the
petition and comments on the impracticability of
independent candidates reaching the 15% threshold
and on the unreliability of polling do not lead the
Commission to conclude that the CPD’s use of such a
threshold for selecting debate participants is per se
subjective, so as to require initiating a rulemaking to
amend 11 CFR 110.13(c). While the reports by Dr.
Young and Mr. Schoen, in addition to the historical
polling and campaign finance data presented with the
petition, demonstrate certain challenges that
independent candidates may face when seeking the
presidency, these submissions do not demonstrate
either that the threshold is so high that only
Democratic and Republican nominees could reasonably
achieve it, or that the threshold is intended to result in
the selection of those nominees to participate in the
debates.
For all of the above reasons, in addition to the
reasons discussed in the Notice of Disposition
published in 2015, see Candidate Debates, 80 FR
72616, and because the Commission has determined
that further pursuit of a rulemaking would not be a
prudent use of available Commission resources, see
11 CFR 200.5(e), the Commission declines to
commence a rulemaking that would amend the criteria
for staging candidate debates in 11 CFR 110.13(c) to
prohibit the use of a polling threshold to determine
participation in presidential general election debates
.

154a

On behalf of the Commission,
Dated: March 23, 2017
Steven T. Walther,
Chairman, Federal Election Commission
[FR Doc. 2017–06150 Filed 3–28–17; 8:45 am]

155a

APPENDIX E
United States District Court
for the District of Columbia
LEVEL THE PLAYING FIELD, et al.,
Plaintiffs,
v.
FEDERAL ELECTION COMMISSION,
Defendant.
Case No. 15-cv-1397 (TSC)
MEMORANDUM OPINION
This case concerns a highly visible element of our
democratic elections: the presidential and
vice-presidential debates held every four years by the
Commission on Presidential Debates (“CPD”).
Plaintiffs allege that the Federal Election Commission
(“FEC”) has violated the Administrative Procedure Act
(“APA”), 5 U.S.C. § 706, in dismissing two
administrative complaints regarding the CPD and in
denying a petition to engage in rulemaking to change
the FEC’s regulations regarding debate staging
organizations.
Before the court are Plaintiffs’ motion for summary
judgment (ECF No. 37) and Defendant’s cross-motion
for summary judgment (ECF No. 42). Upon
consideration of the motions, the Administrative Record
(ECF No. 58), and the arguments at the hearing held on

156a

January 5, 2017, Plaintiffs’ motion is GRANTED, and
Defendant’s cross-motion is DENIED.
I.

BACKGROUND
A. The Parties

The four Plaintiffs in this case are Level the Playing
Field (“LPF”), Green Party of the United States,
Libertarian National Committee, Inc., and Dr. Peter
Ackerman. LPF is a nonpartisan, nonprofit corporation
whose purpose is to promote reforms that allow for
greater competition and choice in federal elections.
(Administrative Record (“AR”) 2019 (ECF No. 58)). The
Green Party is a political party that has nominated
candidates in every presidential election since 2000.
(AR 4003–04). The Libertarian Party is the third
largest political party in the U.S. and has nominated
presidential candidates in every election since 1972.
(AR 4781–82). Dr. Peter Ackerman is a citizen and
voter who is an active participant in efforts to reform
elections and encourage third-party or independent
candidates to seek office. (AR 2020; Tr. of Mot. Hr’g
(Jan. 5, 2017) at 7:18–8:7 (ECF No. 59)).
Defendant FEC is charged with the administration
and civil enforcement of the Federal Election Campaign
Act (“FECA” or “Act”), 52 U.S.C. § 30101 et seq. Of the
FEC’s six commissioners, no more than three “may be
affiliated with the same political party.” 52 U.S.C. §
30106(a)(1). The FEC is authorized to “formulate policy
with respect to” the FECA, including through
promulgating regulations. 52 U.S.C. § 30106(b)(1). The

157a

agency is also authorized to investigate potential
violations of the FECA. 52 U.S.C. § 30109(a)(1)–(2).
B. The Commission
Debates

on Presidential

The CPD, though not a party to this case, is centrally
involved in this litigation and has submitted an amicus
brief. (See ECF No. 45).1 The CPD is a nonprofit
corporation that has staged every general election
presidential debate since 1988, including the four
debates in the 2012 election. (AR 2144, 2882–83 ¶¶
3–4). It accepts corporate donations to help with the
costs associated with staging the debates. (AR 2883 ¶
5).
Since its creation in 1987, the CPD has been led by
two co-chairmen: one Republican (former Republican
National Committee Chair Frank Fahrenkopf, Jr.) and
one Democrat (originally former Democratic National
Committee Chair Paul G. Kirk, Jr., and then in 2009
Michael D. McCurry, former press secretary to
President Bill Clinton). (AR 2360, 2885–86 ¶ 11, 2363).
The CPD is “bipartisan” by its own description: the
press release announcing its formation stated that it
was a “bipartisan . . . organization formed to implement
joint sponsorship of general election presidential and
vice-presidential debates . . . by the national Republican
and Democratic committees between their respective
nominees.” (AR 2249). Moreover, Fahrenkopf has

1

Two additional parties filed amicus briefs in support of
Plaintiffs’ motion: Independent Voter Project (ECF No. 38) and
FairVote (ECF No. 39).

158a

stated that the CPD was not likely to look with favor on
including third-party candidates in the debates, and
Kirk has stated that he personally believed the CPD
should exclude third-party candidates from the debates.
(AR 2252).
Since 1988, the CPD’s debates have included a
third-party candidate—i.e., a candidate not affiliated
with the Democratic or Republican parties—just once,
in 1992, when the campaigns of Bill Clinton and George
H. W. Bush requested that the CPD include Ross Perot
in the presidential debates. (AR 2288–89, 2303–04).
Beginning with the 2000 election, the CPD has relied on
the following criteria to determine whether a candidate
may participate in its debates: (1) he/she must be
constitutionally eligible to hold office; (2) he/she must
appear on enough state ballots to secure an Electoral
College majority; and (3) he/she must have “a level of
support of at least 15% . . . of the national electorate as
determined by five selected national public opinion
polling organizations, using the average of those
organizations’ most recent publicly-reported results at
the time of the determination.” (AR 2917–18).
C. Statutory and Regulatory Framework
The FECA prohibits “any corporation whatever, or
any labor organization, [from] mak[ing] a contribution
or expenditure in connection with any election at which
presidential and vice presidential electors . . . are to be
voted for.” 52 U.S.C. § 30118(a). Contributions include
“any gift, subscription, loan, advance, or deposit of
money or anything of value,” 52 U.S.C. § 30101(8)(A),
and expenditures include “any purchase, payment,

159a

distribution, loan, advance, deposit, or gift of money or
anything of value,” but exempt is “nonpartisan activity
designed to encourage individuals to vote or to register
to vote,” 52 U.S.C. § 30101(9)(A)(i), (B)(ii).
“Contributions” are defined as any “expenditures made
by any person in cooperation, consultation, or concert,
with, or at the request or suggestion of, a candidate, his
authorized political committees, or their agents.” 52
U.S.C. § 30116(7)(B)(i).
Pursuant to the FECA, the FEC has promulgated
various regulations, including those concerning political
candidate debates. Under the law, corporations may not
give contributions to or make expenditures on behalf of
political candidates or campaigns, but they may donate
to organizations that stage debates featuring those
candidates because the FEC’s regulations provide that
any “[f]unds provided to defray costs incurred in
staging candidate debates in accordance with the
provisions of 11 CFR 110.13 and 114.4(f) are not
contributions” and are also “not expenditures.” 11
C.F.R. §§ 100.92, 100.154. Organizations that stage
debates must be nonprofit entities and cannot “endorse,
support, or oppose political candidates or political
parties.” 11 C.F.R. § 110.13(a)(1).2 Staging
organizations “must use pre-established objective
criteria to determine which candidates may participate
in a debate. For general election debates, staging

2

If the debate is staged by a broadcaster, newspaper, or
magazine, the organization may stage debates “provided that they
are not owned or controlled by a political party, political committee
or candidate.” 11 C.F.R. § 110.13(a)(2).

160a

organizations(s) [sic] shall not use nomination by a
particular political party as the sole objective criterion
to determine whether to include a candidate in a
debate.” 11 C.F.R. § 110.13(c). The regulation does not
define “objective,” but the FEC stated when it
promulgated the rule that the use of objective criteria
is intended “to avoid the real or apparent potential for
a quid pro quo, and to ensure the integrity and fairness
of the process,” and therefore criteria cannot be
“designed to result in the selection of certain
pre-chosen participants,” and “the rule contains an
implied reasonableness requirement.” 60 Fed. Reg.
64,260, 64,262 (Dec. 14, 1995).
The debate staging regulation thus acts as an
exemption to the general ban on corporate
contributions to or expenditures on behalf of political
campaigns or candidates. To prevent debate staging
organizations such as the CPD from operating as
conduits for corporate contributions made to benefit
only one or two candidates from the Democratic and
Republican parties—via the much-watched prime-time
debates—the regulations require these organizations to
(1) be nonpartisan, (2) not endorse, support, or oppose
candidates or campaigns, and (3) use pre-established,
objective criteria. If a debate staging organization fails
to comply with the regulations, such as failing to use
objective criteria in determining which candidates
participate in its debates, then the value of the debate
is actually a contribution or expenditure made to the
participating political campaigns in violation of the Act.
The Act provides that any person who believes a
violation of the Act has occurred may file an

161a

administrative complaint with the FEC. 52 U.S.C. §
30109(a)(1). The FEC is required to review the
complaint and any responses filed by respondents and
determine whether there is “reason to believe” the Act
has been violated. 52 U.S.C. § 30109(a)(2). If at least
four of the six FEC commissioners vote that they find
there is reason to believe a violation has occurred, then
the FEC may investigate the allegations; otherwise, the
complaint is ordinarily dismissed. Id. If the
commissioners find there is reason to believe a violation
has occurred, the next step is determining whether
there is probable cause to believe that the Act has been
violated; if so, the FEC is required to attempt to remedy
the violation first through conciliation and then, if
unsuccessful, through litigation.
52 U.S.C. §
30109(a)(4)(A)(i), (a)(6).
The Act further provides that parties “aggrieved by
an order of the Commission dismissing a complaint filed
by such a party . . . may file a petition with the United
States District Court for the District of Columbia,”
which “may declare that the dismissal of the complaint
or failure to act is contrary to law, and may direct the
Commission to conform with such declaration within 30
days, failing which the complainant may bring, in the
name of such complainant, a civil action to remedy the
violation involved in the original complaint.” 52 U.S.C.
§ 30109(a)(8)(A), (C).

162a

D. Procedural History and the Present
Litigation
1. Administrative Complaints
Plaintiffs filed two administrative complaints with
the FEC alleging that the CPD and twelve of its
directors violated the FEC’s debate staging regulations
and the FECA in connection with the 2012 general
election debates.3 (AR 2001–75, 4001–05, 4778–83).
These complaints were labeled Matters Under Review
(“MUR”) 6869 (filed by LPF and Peter Ackerman in
September 2014) and 6942 (filed by the Green Party
and Libertarian Party in June 2015).4 Both complaints
alleged that in the 2012 presidential election the CPD
was not a nonpartisan debate staging organization
under 11 C.F.R. § 110.13(a)(1) because it endorsed,
supported, or opposed certain political parties, and that
therefore the debates held in 2012 were prohibited
corporate contributions and expenditures to the
campaigns of the 2012 candidates in violation of 52
U.S.C.§ 30118(a). Further, the complainants—now
Plaintiffs—alleged that because the CPD made these
contributions and expenditures, it was functioning as a
3

These directors included executive director Janet Brown,
chairmen Frank Fahrenkopf, Jr. and Michael McCurry, and
Howard G. Buffett, John C. Danforth, John Griffen, Antonia
Hernandez, John I. Jenkins, Newton N. Minow, Richard D.
Parsons, Dorothy Ridings, and Alan K. Simpson.
4

The Green Party and Libertarian Party each filed
individual requests to join MUR 6869, but these requests were
denied and instead combined as a new administrative complaint,
MUR 6942.

163a

political committee under the FECA and violated 52
U.S.C. §§ 30103 and 30104 by failing to register and
report its contributors and contributions with the FEC.
(AR 2027–73).
The complainants submitted over one hundred
supporting exhibits, including information, statements,
and press releases relating to the founding of the CPD,
information on the recent political contributions and
political activity of the CPD’s directors, the expert
report of Dr. Clifford Young regarding the ability of
third-party or independent candidates to meet the
CPD’s fifteen percent polling criterion, and the expert
report of Douglas Schoen regarding the financial cost to
achieve the name recognition necessary to meet the
CPD’s polling requirement, and the financial difficulty
in doing so. (AR 2076–771).
In July 2015, the FEC voted 5-0 (with one recusal) to
find no reason to believe that the CPD or its co-chairs
violated these regulations or statutes, thus dismissing
MUR 6869. (AR 3172–73). In December 2015, the FEC
again voted 5-0 to make the same determination
regarding MUR 6942. (AR 5000–01). In the Factual &
Legal Analyses provided by the FEC to the Plaintiffs in
its dismissals of their complaints, the FEC noted that
past administrative complaints—MURs 4987, 5004,
5021, 5207, 5414, and 5530—had “made similar
allegations,” and that in those cases the FEC had found
no reason to believe that the CPD and its co-chairs had
violated regulations or the FECA. The FEC also pointed
out that its past decisions analyzing the objectivity of
the CPD’s fifteen percent requirement had been
reviewed and upheld in Buchanan v. FEC, 112 F. Supp.

164a

2d 58 (D.D.C. 2000) (reviewing MURs 4987, 5004,
5021). (AR 3175–81; AR 5003–10).
2. Petition for Rulemaking
In September 2014, on the same day it filed its
administrative complaint, LPF also filed a Petition for
Rulemaking with the FEC under 5 U.S.C. § 553(e) of
the APA. (AR 0002–32). The Petition asked the FEC to
revise 11 C.F.R. § 110.13(c) to specifically bar debate
staging organizations from using a polling threshold as
the sole criterion for accessing general election
presidential and vice-presidential debates. LPF
submitted many of the same exhibits, including the
Young and Schoen expert reports, in support of its
arguments.
In November 2015, the FEC published in the Federal
Register its Notice of Disposition that it was not
initiating rulemaking in response to the Petition. (AR
1903–05; 80 Fed. Reg.72,616 (Nov. 20, 2015)). The
agency noted that “[b]ecause the regulation at issue is
designed to provide debate sponsors with discretion
within a framework of objective and neutral debate
criteria, and because the Commission can evaluate the
objectivity and neutrality of a debate sponsor’s selection
criteria through the enforcement process, the
Commission finds that the rulemaking proposed by the
petition is not necessary at this time.” (AR 1904; 80
Fed. Reg.72,617). The FEC also wrote: “In these
enforcement matters, the Commission has carefully
examined the use of polling thresholds and found that
they can be objective and otherwise lawful selection
criteria for candidate debates.” (Id.).

165a

3. Present Litigation
Plaintiffs filed this lawsuit in August 2015,
challenging the dismissal of their administrative
complaint, MUR 6869, and the agency’s decision not to
engage in rulemaking. (See Compl. (ECF No. 1)). In
October 2015, Plaintiffs filed an Amended Complaint
adding a claim that the FEC’s failure to act on MUR
6942 within 120 days was arbitrary and capricious. (See
Am. Compl. (ECF. 17)). In January 2016, after the FEC
dismissed MUR 6942, Plaintiffs filed their Second
Amended Complaint adding a challenge to the
dismissal. (See Second Am. Compl. (ECF No. 25)). The
parties filed cross-motions for summary judgment (ECF
Nos. 37, 42), on which a hearing was held on January 5,
2017.
II.

SUMMARY JUDGMENT STANDARD

On a motion for summary judgment in a suit seeking
APA review, the court must set aside any agency action
that is “arbitrary, capricious, an abuse of discretion, or
otherwise not in accordance with law.” 5 U.S.C. §
706(2). The court’s review is “highly deferential” and
begins with a presumption that the agency’s actions are
valid. Envtl. Def. Fund, Inc. v. Costle, 657 F.2d 275, 283
(D.C. Cir. 1981). The court is “not empowered to
substitute its judgment for that of the agency,” Citizens
to Preserve Overton Park, Inc. v. Volpe, 401 U.S. 402,
416 (1971), but instead must consider only “whether
the agency acted within the scope of its legal authority,
whether the agency has explained its decision, whether
the facts on which the agency purports to have relied
have some basis in the record, and whether the agency

166a

considered the relevant factors.” Fulbright v. McHugh,
67 F. Supp. 3d 81, 89 (D.D.C. 2014) (quoting Fund for
Animals v. Babbitt, 903 F. Supp. 96, 105 (D.D.C. 1995)).
The plaintiff bears the burden of establishing the
invalidity of the agency’s action. Id.
III.

DISCUSSION
A. FEC’s Dismissals
of
Plaintiffs’
Administrative Complaints

Plaintiffs argue that Defendant’s dismissals of their
two administrative complaints— MURs 6869 and
6942—violated the APA because they were contrary to
law and were arbitrary and capricious. They assert that
the FEC: (1) applied a legal standard contrary to the
text of the regulations; (2) failed to properly consider
the submitted evidence; (3) failed to consider the
allegations raised against most of the respondents; and
(4) ultimately reached the wrong conclusion regarding
the objectivity of the CPD’s debate requirement.
1. Legal Standard Adopted by the FEC
Plaintiffs first argue that the FEC adopted and
applied a legal standard that is contrary to the text of
the regulation. In their administrative complaints,
Plaintiffs alleged that the CPD “endorse[d],
support[ed], or oppose[d] political candidates or
political parties” in violation of 11 C.F.R. § 110.13(a)
because it acted with partisan bias, its chairmen and
directors were active partisans and political donors to
the Democratic and Republican parties and their
candidates, and its fifteen percent polling threshold for
participation in the presidential debates was designed

167a

to bar any third party or independent candidate from
participation. (See AR 2002–75). In its Factual & Legal
Analyses, the FEC did not articulate what standard it
used to determine whether the CPD had endorsed,
supported, or opposed political parties—indeed, it did
not mention these terms at all except in quoting the
regulation and the respondents’ denials that they had
endorsed, supported, or opposed political parties. When
asked at oral argument how the FEC actually engaged
in an analysis to determine whether the CPD endorsed,
supported, or opposed political campaigns or parties,
FEC’s counsel responded simply, though unhelpfully,
that “[t]he FEC applied the endorsed support opposed
standard that’s in the regulation.” (Tr. at 28:2–3).
In support of its decisions, the FEC cited its past
dismissals of administrative complaints involving the
CPD—including MURs 4987, 5004, and 5021—as well
as the single prior district court decision that
considered the denials, Buchanan v. FEC5 In those
dismissals, the FEC described the legal standard it
applied:

5

The FEC also repeatedly claims that its decisions
regarding the CPD were reviewed and upheld in Natural Law
Party v. FEC, Case No. 00-cv-2138. That case was a companion to
Buchanan, and the final order, issued fifteen days after the
complaint was filed, includes no separate analysis. See Order (Sept.
21, 2000) (granting summary judgment “[f]or the reasons set forth
in Part II of the September 14, 2000 Memorandum Opinion in”
Buchanan). The FEC also repeatedly cites to another opinion in
Natural Law Party, 111 F. Supp. 2d 33 (D.D.C. 2000). That
decision was explicitly limited to whether plaintiffs had standing
to challenge the FEC’s actions, an issue not before the court here.

168a

[Complainants] have not provided evidence that
the CPD is controlled by the DNC or the RNC.
There is no evidence that any officer or member of
the DNC or the RNC is involved in the operation of
the CPD. Moreover, there does not appear to be
any evidence that the DNC and the RNC had
input into the development of the CPD’s candidate
selection criteria for the 2000 presidential election
cycle. Thus, it appears that the CPD satisfied the
requirement of a staging organization that it not
endorse, support or oppose political candidates or
political parties. 11 C.F.R. § 110.13(a).
(FEC Mem. at 21 (quoting First General Counsel’s
Report in MURs 4897, 5004, and 5021 (July 13, 2000))
(emphasis added)). The FEC asserted in Buchanan that
this “control” standard was in response to a “specific
contention” involved in those administrative
complaints, and the court agreed that the control
standard was “geared toward refuting [that] specific
contention.” 112 F. Supp. 2d at 71 n.8. However,
Plaintiffs argue that by citing to these past MURs and
the Buchanan case in its most recent dismissals, the
FEC is effectively adopting this “control” standard sub
silentio, as it has not articulated any other standard.
The FEC responds that there is “no instance in which
the agency actually said it was adopting a ‘control over’
test.” (FEC Mem. at 28 (emphasis in original)), and
adds that the control test “in any event . . . indisputably
is also a helpful aid in determining whether a group’s
activities are nonpartisan.” (Id. at 28–29).
The court agrees with Plaintiffs that, in the absence
of any articulated standard or analysis, the FEC’s

169a

reliance on its past dismissals and the Buchanan case
strongly implies that it has effectively adopted or relied
on the control test it articulated in those past
dismissals. However, such a test appears to be contrary
to the text of the agency’s own regulations. The FEC’s
regulations do not define “support, endorse, or oppose”
as used in 11 C.F.R. § 110.13(a)(1), and the FEC did not
define them in its Factual & Legal Analyses.6 However,
the regulations suggest that, whatever these terms do
mean, they do not mean “control,” for that is the
standard given in the regulation’s subsequent
subsection, 11 C.F.R. § 110.13(a)(2), applying to
broadcasters, as opposed to nonprofit organizations.
That subsection permits only broadcasters that “are not
owned or controlled by a political party, political
committee or candidate” from staging debates. 11
C.F.R. § 110.13(a)(2). Therefore, the FEC’s own
regulations create a distinction between the control
test, which applies to broadcasters, and an
endorse-support-oppose test, which applies to nonprofit
organizations.
The FEC heavily relies on the district’s court 2000
decision in Buchanan, which permitted the agency’s
control test as applied to the CPD. As described above,
that test assessed whether the CPD was “controlled by”
the two major parties, whether either party was

6

According to the Oxford Dictionary, “endorse” means to
“declare one’s approval of”; “support” means “contributing to the
success of or maintaining the value of”; and “oppose” means to
“set oneself against” or “stand in the way of.” See Oxford, The New
Shorter Oxford English Dictionary 818, 3153, 2009 (4th ed. 1993).

170a

“involved in” the CPD’s operations, or whether those
parties “had input in” CPD’s debate decisions.
However, the court in Buchanan simply noted that the
control standard was used to refute the specific
control-specific facts alleged in that case. 112 F. Supp.
2d at 71 n.8. Here, Plaintiffs’ do not allege that the
Democratic or Republican parties exercised control over
the CPD, but instead that the CPD and its directors
acted on a partisan basis to support those parties.
Therefore, unlike in Buchanan, there are no
control-specific factual allegations here to warrant
applying a control standard an incorrect construction of
the regulation. Moreover, as noted above, a plain
reading of the regulation in the context of the following
subsection does not support applying a control
standard, and to do so may be an incorrect construction
of the regulation.
Courts are to be “exceedingly deferential” when
reviewing an agency’s construction of its own
regulations, and the court “is not to decide which
among several competing interpretations best serves
the regulatory purpose.” Thomas Jefferson Uni. v.
Shalala, 512 U.S. 504, 512 (1994); Trinity Broadcasting
of Fla., Inv. v. FCC, 211 F.3d 618, 625 (D.C. Cir. 2000).
The court must defer to the FEC unless the agency fails
to meet the “minimal burden of showing a ‘coherent
and reasonable explanation [for] its exercise of
discretion.’” Carter/Mondale Presidential Comm., Inc.
v. FEC, 775 F.2d 1182, 1185 (D.C. Cir. 1985) (quoting
MCI Telecommunications Corp. v. FCC, 675 F.2d 408,
413 (D.C. Cir. 1982)); see also FEC v. Democratic
Senatorial Campaign Comm., 454 U.S. 27, 37 (1981)

171a

(FEC “is precisely the type of agency to which deference
should presumptively be afforded”). However, deference
is not appropriate “when the agency interpretation is
plainly erroneous or inconsistent with the regulation”
or “when there is reason to suspect that the agency’s
interpretation does not reflect the agency’s fair and
considered judgment.” Christopher v. SmithKline
Beecham Corp., 132 S. Ct. 2156, 2166 (2012) (quoting
Auer v. Robbins, 519 U.S. 452, 462 (1997)).
The Buchanan court was satisfied that while the
FEC’s “terse explanation could have been more clear
and thorough,” the court could still determine what
legal analysis was “apparent from the report.” 112 F.
Supp. 2d at 72. This court is not as willing to read
thoughtful consideration into the FEC’s threadbare
Factual & Legal Analyses. Here, the FEC either applied
a “control” standard that is contrary to the plain text of
the regulation, or it possibly applied no analytical
standard at all, given that it articulated none.
Therefore, the court cannot defer to the FEC’s analysis
and further concludes that the FEC acted arbitrarily
and capriciously and contrary to law when it
determined that the CPD did not endorse, support, or
oppose political parties in the 2012 election.
The court therefore GRANTS Plaintiffs’ motion and
DENIES Defendant’s cross- motion with respect to the
appropriateness of the legal standard applied. On
remand, the FEC is ORDERED to articulate its analysis
in determining whether the CPD endorsed, supported,
or opposed political parties or candidates.

172a

2. FEC’s Alleged Failure to Give Evidence a
Hard Look
Plaintiffs next argue that the FEC failed to
adequately consider the evidence it presented with its
two administrative complaints. Courts must assess
whether agencies have considered the “relevant factors”
and must “engage in a ‘substantial inquiry’ into the
facts, one that is ‘searching and careful.’” Ethyl Corp.
v. EPA, 541 F.2d 1, 34 (D.C. Cir. 1976) (quoting Overton
Park, 401 U.S. at 415). While the court’s review is
deferential, it is not required to “rubber-stamp the
agency decision.” Id. Here, the court finds that the
FEC’s Legal & Factual Analyses do not provide any
evidence that the FEC considered the relevant factors
or took a hard look at the evidence. Indeed, the FEC
fails to cite or discuss virtually any of the evidence
submitted with Plaintiffs’ complaints.
a. Evidence Submitted
Complaints

With Past

The parties agree that some of evidence submitted
with the complaints in this case was identical to
evidence submitted with prior CPD-related complaints,
including MURs 4987, 5004, and 5021, which were
reviewed by the court in Buchanan. In those
complaints, Plaintiffs presented evidence that the CPD
was created by the then-chairmen of the Republican
and Democratic parties, who entered into a
Memorandum of Agreement that the debates “should
be principally and jointly sponsored and conducted by
the Republican and Democratic National Committees,”
and that the press release announcing the CPD’s

173a

formation stated it was a “bipartisan . . . organization.”
(AR 2244, 2249).
Plaintiffs also submitted numerous statements by
the CPD chairmen and directors, including: the CPD
was not likely to look with favor on including
third-party candidates in the debates (CPD
Co-Chairman Fahrenkopf, AR 2252); the CPD should
exclude third-party candidates from the debates (CPD
Co-Chairman Kirk, AR 2252); “Democrats and
Republicans on the commission [] are interested in the
American people finding out more about the two major
candidates—not about independent candidates who
mess things up” (CPD Director Alan Simpson, AR
3095); “[t]here’s no question” that “the two major
parties [have] absolute control of the presidential
debate process” (CPD Director John Lewis, AR 3095);
“responsibility for [the debates] should rest with the
political system—with the Democratic and Republican
Parties . . . [and] if the Democratic and Republican
nominees agreed, other candidates could be included”
(CPD Director Minow, AR 3095); the CPD “is not really
nonpartisan[;] [i]t’s bipartisan” (CPD Director
Norcross, AR 3095); and the CPD is “extremely careful
to be bi-partisan” (CPD Director Vucanovich, AR 3095).
Finally, Plaintiffs submitted evidence from the 1993
Congressional testimony of Bobby Burchfield, who
served as General Counsel of President Bush’s
re-election campaign in 1992, that the CPD did not
want to invite Ross Perot to participate in the 1992
election debates, but “the Bush campaign insisted, and
the Clinton campaign agreed, that Mr. Perot and

174a

Admiral Stockdale be invited to the debates,” after
which Perot was included. (AR 2299–304).
The court in Buchanan noted that this evidence of
the CPD’s alleged partisanship was “not insubstantial”
and “[a]n ordinary citizen might easily view the
circumstances surrounding the creation of the CPD
along with the evidence of major-party influence over
the past three debates as giving some ‘reason to believe’
that the CPD always has supported, and still does
support, the two major parties to the detriment of all
others.” 112 F. Supp. 2d at 72. However, the court
found that Plaintiffs lacked “contemporaneous
evidence” specifically relating to the CPD’s decisions
regarding the 2000 election debates at issue in that
case. Id.
b.

Plaintiffs’ New Evidence

In this case, Plaintiffs submitted new evidence in
addition to the evidence described above. Much of this
evidence pointed to the recent partisanship of the
CPD’s chairs and directors. According to the submitted
materials, CPD Chairman Fahrenkopf donated more
than $23,000 between 2008 and 2012 and $35,000
between 2012 and 2014 to the Republican Party. (AR
2370, 2373–80). Similarly, CPD Chairman McCurry
donated almost $85,000 to Democrats between 2008
and 2012. (AR 2370). Additionally, several of the CPD
directors contributed tens of thousands of dollars to the
two major political parties and candidates. (AR 2370,
2403–05, 2407–08). CPD directors also have engaged in
active partisanship. For example, in 2011, Fahrenkopf
referred to the Republican Party as “our great party,”

175a

and in April 2015, he stated that the CPD “primarily
go[es] with the two leading candidates” in its debates.
(AR 2382–83, 3099).
Plaintiffs also submitted the reports of two experts:
Dr. Clifford Young, who discussed the ability of
third-party or independent candidates to meet the
CPD’s fifteen percent polling criterion (AR 2487–526);
and Douglas Schoen, who discussed the financial
obstacles to achieving the name recognition necessary
for a third-party or independent candidate to meet the
CPD’s polling requirement (AR 2552–82). Finally, in
support of their argument that using polling as the
single criterion for admission into the debates is not
objective or fair, Plaintiffs in MUR 6942 submitted
evidence that Gallup was no longer polling during the
2016 presidential election, because polling “has become
inherently unreliable.” (AR 4946–76).
c.

FEC’s Consideration of the Evidence

In its two Factual & Legal Analyses, the FEC
addressed just two items from this mountain of
submitted evidence: the April 2015 quote from
Fahrenkopf that the CPD goes with the two leading
candidates in its debates (AR 3180; AR 5008–09), and
Gallup’s decision to not conduct polling during the 2016
election (AR 5003 n.1).7 The FEC accepted on its face
7

The court notes with concern that the Fahrenkopf
interview quote was presented to the FEC in April 2015 as an
amendment to the original September 2014 complaint (see AR
3093–96), and the Gallup information was similarly submitted in
an amendment in October 2015 (see AR 4852–54), rather than with
the initial submission of evidence. The FEC’s decision to address

176a

Fahrenkopf’s declaration that he was merely stating a
historical fact (AR 3180; AR 5008–09), and similarly
accepted the statement in a declaration submitted by
Gallup’s Editor-in-Chief that the polling decision was
“based on allocation of resources[,] not any lack of
confidence in Gallup’s ability to conduct accurate polls”
(AR 5003 n.1).
At oral argument, when asked why the FEC had only
mentioned these two items of evidence, counsel for the
FEC stated that this was the only other evidence that
“required [a] separate response.” (Tr. at 31:2–14). A
casual reader of the Factual & Legal Analyses would
get the distinct impression that these two pieces of
evidence were all that Plaintiffs had even submitted.
Certainly, the court does not expect the FEC to discuss
every single page of evidence in order to demonstrate
that it had carefully considered the facts, but here the
FEC did not even mention the vast majority of the
substantive evidence submitted regarding partisanship,
party support, and the non-objectivity of the CPD’s
fifteen percent threshold. While the court hopes that
the FEC carefully reviewed the evidence submitted by
Plaintiffs before thoughtfully reaching its conclusions,
the two Factual & Legal Analyses provide no basis
whatsoever for the court to reach that conclusion.
Therefore, the court GRANTS Plaintiffs’ motion and
DENIES Defendant’s cross-motion with respect to
whether the FEC acted arbitrarily and capriciously and

only these stray, supplemental pieces of submitted evidence
suggests that the FEC may not have considered or even reviewed
the originally submitted evidence at all.

177a

contrary to law by not reasonably considering the
evidence before it. On remand, the FEC must
demonstrate how it considered the evidence,
particularly, but not necessarily limited to, the
newly-submitted evidence of partisanship and political
donations and the expert analyses regarding
fundraising and polling.
3. FEC’s Failure to Include CPD Directors as
Respondents
Plaintiffs’ two administrative complaints were filed
against the CPD, its two co- chairmen, and ten other
directors. The FECA requires that “[w]ithin 5 days
after receipt of a complaint, the Commission shall
notify, in writing, any person alleged in the complaint
to have committed such a violation.” 52 U.S.C. §
30109(a)(1). Despite the Act’s dictate, the FEC only
notified the CPD and the two chairmen, only solicited
responses from them, and mentioned only them in its
Factual & Legal Analyses. Plaintiffs argue that the
FEC’s failure to notify the ten other respondents and to
consider the evidence and allegations made against
them is further indication that the agency’s dismissals
were arbitrary and capricious. Despite its clear violation
of the Act’s procedural requirements, the FEC
maintains that this failure amounted to no more than
harmless error because this failure “is almost always
harmless error.” (Def. Mem. at 30).
In support, the FEC cites Nader v. FEC, 823 F. Supp.
2d 53, 67–68 (D.D.C. 2011), which found that under the
facts of that case the agency’s failure to notify
respondents was indeed harmless error because the

178a

plaintiff did not “identify the harm to him.” Here, while
Plaintiffs’ allegations against the ten un-notified
respondents were the same as those against the CPD,
Fahrenkopf, and McCurry, Plaintiffs did submit new
evidence specific to those ten directors regarding their
partisan financial contributions and partisan political
activity. Whether the FEC considered this evidence is
essential in assessing the FEC’s final determination as
to whether the CPD has supported, endorsed, or
opposed political parties or candidates.
The FEC may ultimately decide that its conclusions
would be the same regarding these ten directors as with
the CPD and two chairmen, but from the record before
the court, it appears that the FEC did not even consider
this evidence or these allegations. The court cannot
brush aside this procedural violation of the Act and
determine that it was harmless error, because there is
no way for the court to determine that Plaintiffs
experienced no harm from having their evidence
ignored. Therefore, the court GRANTS Plaintiffs’
motion and DENIES Defendant’s cross-motion with
respect to whether it was arbitrary and capricious and
contrary to law to ignore the allegations made against
ten of the CPD’s directors in violation of the Act’s
notification requirements. On remand, the FEC must
notify these ten remaining directors, address these
allegations, and consider the evidence presented against
these respondents.

179a

4. FEC’s Conclusion that the CPD’s Polling
Criterion Was Objective
Finally, Plaintiffs argue that the FEC’s dismissals
were arbitrary and capricious because the agency
unreasonably found that the CPD’s fifteen percent
polling criterion was “objective” under the regulation.
The regulation requires that staging organizations such
as the CPD “use pre-established objective criteria to
determine which candidates may participate in a
debate,” but does not define what it means for criteria
to be “objective.” 11 C.F.R. § 100.13(c); see also Perot v.
FEC, 97 F.3d 553, 559–60 (D.C. Cir. 1996) (regulation
“does not spell out precisely what the phrase ‘objective
criteria’ means,” giving “the individual organizations
leeway to decide what specific criteria to use”). In
Buchanan, however, the court noted that “the
objectivity requirement precludes debate sponsors from
selecting a level of support so high that only the
Democratic and Republican nominees could reasonably
achieve it.” 112 F. Supp. 2d at 74.
In support of their assertion that the fifteen percent
requirement was not objective, but instead designed to
keep third-party or independent candidates out of the
CPD’s debates, Plaintiffs submitted evidence that no
non-major party nominee had or would have qualified
under this requirement since the CPD began staging
debates in 1988, as well as the reports of two experts,
one of whom found that polling is not inherently
reliable, particularly in races with more than two
candidates, and the other who concluded that achieving
fifteen percent support in polls requires spending about
$266 million before the debates even take place. The

180a

FEC gave this evidence only glancing attention, writing
in a footnote in both its Factual & Legal Analyses,
without reference to any specific evidence or how it
came to this conclusion, that “[e]ven if CPD’s 15%
polling criterion may tend to exclude third-party and
independent candidates, the available information does
not indicate—as the available information in previous
complaints did not indicate—that the CPD failed to use
pre-established, objective criteria.” (AR 3181 n.4; AR
5010 n.5).
As discussed above, the court is faced with the
difficult task of determining the reasonableness of the
FEC’s analysis when the FEC did not provide any
indication that it actually considered the submitted
evidence and engaged in any reasoned decision-making.
This task is made all the more difficult by the fact that
the evidence unaddressed—or outright ignored—by the
FEC is quite substantial. Dr. Clifford Young’s expert
report concluded that for a third-party or independent
candidate to achieve fifteen-percent approval in polls,
she “must achieve a minimum of 60% [national] name
recognition, and likely 80%,” (AR 2493), while
participation in the Republican or Democratic party
primary process affords greater name recognition and
even greater reported support in polls due to the “party
halo effect” (AR 2500–01). Dr. Young’s report also
concluded that election polling, particularly involving
third-party candidates, suffers from “sampling and
non-sampling error,” including “coverage bias and
measurement error,” which make polling of “three-way
races [] more error prone than two-way races.” (AR
2518–19). He also calculated that, due to these polling

181a

errors, a hypothetical independent candidate with a
seventeen percent level of support had a thirty-seven to
forty-one percent likelihood of reporting as under
fifteen percent support and thus being excluded from
the debates. (AR 2519).
Douglas Schoen’s report discussed the realities of
modern media markets and campaign spending, and
concluded that to achieve name recognition of sixty
percent and support of fifteen percent, an independent
candidate “should reasonably expect to spend”
approximately 266 million dollars on her
campaign—before the debates—including “broadcast,
cable, and digital media placement costs.” (AR 2555).
To reach the eighty percent name recognition Dr.
Young found was “likely” necessary to achieve fifteen
percent support, Schoen determined that an
independent candidate would have to spend nearly forty
million additional dollars, bringing the total to over
$300 million—just to hope to gain access to the CPD’s
debates, a de facto prerequisite for competing in the
presidential election. (See AR 2564). In Schoen’s
opinion, such a spending threshold “is, for all practical
purposes, impossible for all but the major-party
candidates” in part because of competition with the
nominating processes of the major parties, the potential
lack of ties with media networks and broadcast
companies, and a lack of media interest in third-party
candidates prior to the debates. (AR 2556).
Given these expert analyses, the evidence that since
1988 only one non-major party candidate, Ross Perot,
has participated in the debates, and only then at the
request of the two major parties, and the evidence that

182a

the CPD’s chairmen and directors are actively invested
in the partisan political process through large
donations, the court is perplexed that the full extent of
the FEC’s analysis consisted of no more than a footnote
stating that even if the fifteen percent threshold
excluded third-party candidates, this still did not
indicate that it was not an objective criterion. (See AR
3181 n.4; AR 5010 n.5). This begs the question: if
under these facts the FEC does not consider the fifteen
percent polling criterion to be subjective, what would
be? Unfortunately, the FEC articulated no analysis, and
the court cannot discern the FEC’s reasoning.
In its briefs on this issue, the FEC again relies
heavily on the district court’s decision in Buchanan
sixteen years ago. In that case, the court found that the
FEC’s conclusion that the CPD’s polling threshold was
objective was not arbitrary and capricious. 111 F. Supp.
2d at 76. As the court in Buchanan noted, the record
before it regarding the objectivity of the polling
threshold was limited to the plaintiffs’ arguments that
federal funding eligibility for presidential candidates is
tied to a much lower five percent threshold, that polling
is inexact because “even the best polls have significant
margins of error,” and that pre-debate polls fail to
reflect the level of support that could result from
participation in the debates themselves. See id. at
73–76. Here, however, the record is far more developed
and involves different and considerably stronger
evidence. The FEC’s reliance on the holding in
Buchanan is thus misplaced.
With regard to Plaintiffs’ arguments on the objective
criteria, the FEC’s Factual & Legal Analyses suffer

183a

from two notable flaws. First, there is no discussion, or
even mention, of Plaintiffs’ substantial and lengthy
evidence and arguments. Second, there appears to be
little to no legal analysis applying the agency’s
regulation. Missing from the single footnote that the
FEC devoted to this issue is any explanation as to how
it reached its conclusion, what it considered, what
analysis it engaged in, and any other information that
would allow the court to find the FEC’s conclusions
were the result of reasoned decision-making. The court
therefore GRANTS Plaintiffs’ motion and DENIES
Defendant’s cross-motion as to whether the FEC’s
analysis of the criterion’s objectivity was arbitrary and
capricious and contrary to law. While the court cannot
and does not mandate that the FEC reach a different
conclusion on remand, the court notes that the weight
of Plaintiffs’ evidence is substantial, and the FEC must
demonstrate that it actually considered the full scope of
this evidence, including the CPD chairmen’s and
directors’ partisan political activity and the expert
reports, as well as explain how and why it rejected this
evidence in deciding that the CPD’s polling requirement
is an objective criterion.
In sum, with respect to Plaintiffs’ allegation that the
FEC acted arbitrarily and capriciously and contrary to
law when it dismissed their two administrative
complaints, this court agrees and grants their motion
for summary judgment and denies Defendant’s
cross-motion. Pursuant to the Act, 52 U.S.C. §
30109(a)(8)(C), the FEC is ORDERED to reconsider the
evidence and allegations and issue a new decision
consistent with this Opinion “within 30 days, failing

184a

which the complainant[s] may bring, in the name of
such complainant[s], a civil action to remedy the
violation involved in the original complaint.”
B. FEC’s Decision
Rulemaking

to

Not

Engage in

LPF also moves for summary judgment on its claim
that the FEC’s decision not to initiate rulemaking was
arbitrary and capricious in violation of the APA.8 The
court’s review of an agency’s decision not to engage in
rulemaking is very limited, and that decision “is at the
high end of the range of levels of deference we give to
agency action under our ‘arbitrary and capricious’
review.” Defenders of Wildlife v. Gutierrez, 532 F.3d
913, 919 (D.C. Cir. 2008) (internal quotation omitted).
The proper inquiry is “whether the agency employed
reasoned decision-making in rejecting the petition.” Id.
In making this assessment, the court “must examine
‘the petition for rulemaking, comments pro and con . . .
and the agency’s explanation of its decision to reject the
petition.” Am. Horse Prot. Ass’n, Inc. v. Lyng, 812 F.2d
1, 5 (D.C. Cir. 1987) (quoting WWHT, Inc. v. FCC, 656
F.2d 807, 817–18 (D.C. Cir. 1981)). An order to

8

The FEC contends that the Green Party is barred from
challenging the FEC’s refusal to engage in rulemaking following
the denial of the Petition because “it previously litigated the
question” of whether 11 C.F.R. § 110.13 is contrary to the FECA.
(FEC Mem. at 35). The court disagrees. The claim here is about the
refusal to engage in rulemaking, not whether a regulation is
unlawful under the Act, and more importantly, this claim is
brought by LPF alone, not by the Green Party. (See Second Am.
Compl. ¶¶ 142–44; Pls. Rep. at 17 n.6).

185a

overturn the agency’s decision and require
promulgation of a rule is reserved for only “the rarest
and most compelling of circumstances.” WWHT, 656
F.2d at 818. However, if the agency fails to provide a
reasonable explanation for its decision, an appropriate
remedy may be a remand to the agency for
reconsideration and publication of a new decision or the
commencement of rulemaking if the agency so decides.
See, e.g., Shays v. FEC, 424 F. Supp. 2d 100, 116–17
(D.D.C. 2006).
In its Petition requesting rulemaking, LPF
requested the following:
The FEC should conduct a rulemaking to revise
and amend 11 C.F.R. § 110.13(c), the regulation
governing the criteria for candidate selection that
corporations and broadcasters must use in order
to sponsor candidate debates. The amendment
should (A) preclude sponsors of general election
presidential and vice-presidential debates from
requiring that a candidate meet a polling
threshold in order to be admitted to the debates;
and (B) require that any sponsor of general
election presidential and vice-presidential debates
have a set of objective, unbiased criteria for debate
admission that do not require candidates to satisfy
a polling threshold to participate in debates.
(AR 0009–10). In support of this request, LPF
presented much of the same evidence, including the
Young and Schoen reports, as it presented in support of
its administrative complaint. LPF’s basic argument is
that the use of a single polling criterion to determine

186a

admission to candidate debates is particularly
susceptible to excluding candidates and lending support
to the two major party candidates, creating an
appearance of corruption or unlawful conduct. LPF
therefore argues that in the unique context of
presidential and vice-presidential debates, which are
run solely by the CPD, the FEC should continue
permitting the CPD or future debate staging
organizations to craft their own objective criteria but
disallow the use of polling thresholds. The FEC received
1,264 comments, and only one—from the
CPD—opposed the Petition. (AR 1903). FEC published
its Notice of Disposition in the Federal Register,
notifying the public that it had declined to engage in
rulemaking and stating its reasoning.
In its Notice, the FEC first noted that “the purpose
of section 110.13 . . . is to provide a specific exception so
that certain nonprofit organizations . . . and the news
media may stage debates, without being deemed to have
made prohibited corporate contributions to the
candidates taking part in debates.” (AR 1904). It stated
that “debate staging organizations may use [objective
selection criteria] to control the number of candidates
participating in . . . a meaningful debate but must not
use criteria designed to result in the selection of certain
pre-chosen participants,” and “[t]he choice of which
objective criteria to use is largely left to the discretion
of the staging organization.” (Id. (internal quotations
omitted)). Moreover, the agency stated that the
regulation “is not intended to maximize the number of
debate participants” but instead “is intended to ensure
that staging organizations do not select participants in

187a

such a way that the costs of a debate constitute
corporate contributions to the candidates taking part.”
(Id.). The FEC therefore found “that section 110.13(c)
in its current form provides adequate regulatory
implementation of the corporate contribution ban and
is preferable to a rigid rule that would prohibit or
mandate use of particular debate selection criteria in all
debates.” (Id.).
In response to the specific evidence that CPD’s use of
the fifteen percent polling threshold has the result of
excluding third-party and independent candidates, the
FEC stated only that “[t]he use of polling data by a
single debate staging organization for candidate debates
for a single office . . . does not suggest the need for a
rule change.” (AR 1905). It further acknowledged that
a “polling threshold could be used to promote or
advance one candidate (or group of candidates) over
another,” but noted that “this would already be
unlawful under the Commission’s existing regulation,”
and “the Commission can evaluate the objectivity and
neutrality of a debate sponsor’s selection criteria
through the enforcement process.” (AR 1904–05). The
FEC did not explain why the enforcement process was
preferable.
The FEC also did not explain why it was rejecting the
Petition’s request for a specific debate rule for
presidential and vice-presidential debates. Instead, it
responded to the Petition as if it requested a general
rule change (which the Petition did not), only stating,
again without any additional explanation or analysis,
that “[i]n the absence of any indication that polling
thresholds are inherently unobjective or otherwise

188a

unlawful as applied to all federal elections . . . the
Commission declines to initiate a rulemaking that
would impose a nationwide prohibition on the use of
such thresholds.” (AR 1905).
As with the above review of the FEC’s dismissals, the
court must accord substantial deference to the agency’s
decisions. However, the court is again concerned at the
agency’s cursory treatment of Plaintiff LPF’s Petition,
its arguments, and its evidence. LPF clearly argued,
and attempts to establish with significant evidence, that
in presidential elections CPD’s polling threshold is
being used subjectively to exclude independent and
third-party candidates, which has the effect of allowing
corporations to channel money to the CPD’s
expenditures to the campaigns they would be prohibited
from giving the campaigns directly. It further argued
and presented evidence that polling thresholds are
particularly unreliable and susceptible to this type of
subjective use at the presidential level, undermining the
FEC’s stated goal of using “objective criteria to avoid
the real or apparent potential for a quid pro quo, and to
ensure the integrity and fairness of the process.” In its
Notice, the FEC brushed these arguments aside,
describing the practice as “[t]he use of polling data by
a single debate staging organization for candidate
debates for a single office.” (AR 1905).
This
characterization makes little sense. Referring to the
CPD as just “a single debate staging organization”
ignores the fact that for thirty years it has been the only
debate staging organization for presidential debates;
similarly, referring to the presidential debates as simply
“debates for a single office” ignores that the entire

189a

Petition is aimed at the unique characteristics of
presidential elections and debates.
In light of the court’s conclusions above that the FEC
acted arbitrarily and capriciously in its enforcement
decisions by failing to address evidence or articulate its
analysis, the court views with some skepticism the
FEC’s assertion that rulemaking is unnecessary
because the agency has chosen to root out subjective
debate criteria through the enforcement process. By
citing past practice—and the Buchanan decision—as its
only response to LPF’s Petition, the FEC appears to
have stuck its head in the sand and ignored the
evidence that its lack of rulemaking and lack of
enforcement may be undermining the stated purpose of
its regulations and the Act. This is not the reasoned
decision-making that is required of all agencies.
Therefore, despite the deferential standard of review,
this court concludes from reviewing the Petition and
Notice of Disposition that the FEC acted arbitrarily and
capriciously by refusing to engage in rulemaking
without a thorough consideration of the presented
evidence and without explaining its decision.
The decision in Shays v. FEC is instructive, and the
court reaches a similar conclusion here. The FEC’s
failure to provide a reasoned and coherent explanation
for its decision requires remand for reconsideration.
However, the court will not order the FEC to
promulgate the rule requested in the Petition based on
the record here. Such a remedy is appropriate in “only
the rarest and most compelling of circumstances.”
WWHT, 656 F.2d at 818. The D.C. Circuit has found
such circumstances when an agency refused rulemaking

190a

despite new evidence and behavior that “strongly
suggest[ed] that it ha[d] been blind to the nature of [its]
mandate from Congress.” Am. Horse Prot. Ass’n, 812
F.2d at 7. While the FEC’s refusal to engage in
thoughtful, reasoned decision-making in either
enforcement or rulemaking in this case may strike
some, including Plaintiffs, as being “blind to the nature
of [its] mandate from Congress,” this court will not take
the extraordinary step of ordering promulgation of a
new rule, but instead will permit the FEC a second
opportunity to give the Petition the consideration it
requires.
LPF’s motion is therefore GRANTED as to its
rulemaking petition, and Defendant’s cross-motion is
DENIED. The FEC is ORDERED to reconsider the
Petition for Rulemaking and issue a new decision
consistent with this Opinion within sixty days.
IV. CONCLUSION
For the foregoing reasons, Plaintiffs’ motion for
summary judgment is GRANTED in full, and
Defendant’s cross-motion is also DENIED.
Date: February 1, 2017
/s/ Tanya S. Chutkan
TANYA S. CHUTKAN
United States District Judge

191a

APPENDIX F
1. 11 C.F.R. § 110.13 provides:
Candidate debates.
(a) Staging organizations.
(1) Nonprofit organizations described in 26 U.S.C.
501 (c)(3) or (c)(4) and which do not endorse,
support, or oppose political candidates or political
parties may stage candidate debates in accordance
with this section and 11 CFR 114.4(f).
(2) Broadcasters (including a cable television
operator, programmer or producer), bona fide
newspapers, magazines and other periodical
publications may stage candidate debates in
accordance with this section and 11 CFR 114.4(f),
provided that they are not owned or controlled by a
political party, political committee or candidate. In
addition, broadcasters (including a cable television
operator, programmer or producer), bona fide
newspapers, magazines and other periodical
publications, acting as press entities, may also cover
or carry candidate debates in accordance with 11
CFR part 100, subparts B and C and part 100,
subparts D and E.
(b) Debate structure. The structure of debates staged in
accordance with this section and 11 CFR 114.4(f) is left
to the discretion of the staging organizations(s),
provided that:

192a

(1) Such debates include at least two candidates; and
(2) The staging organization(s) does not structure
the debates to promote or advance one candidate
over another.
(c) Criteria for candidate selection. For all debates,
staging organization(s) must use pre-established
objective criteria to determine which candidates may
participate in a debate. For general election debates,
staging organizations(s) shall not use nomination by a
particular political party as the sole objective criterion
to determine whether to include a candidate in a
debate. For debates held prior to a primary election,
caucus or convention, staging organizations may
restrict candidate participation to candidates seeking
the nomination of one party, and need not stage a
debate for candidates seeking the nomination of any
other political party or independent candidates.
*****

193a

2. 11 C.F.R. § 114.4 provides:
Disbursments for communications by
corporations and labor organizations beyond the
restricted class in connection with a Federal
Election.
*****
(f) Candidate debates.
(1) A nonprofit organization described in 11 CFR
110.13(a)(1) may use its own funds and may
accept funds donated by corporations or labor
organizations under paragraph (f)(3) of this
section to defray costs incurred in staging
candidate debates held in accordance with 11
CFR 110.13.
(2) A broadcaster (including a cable television
operator, programmer or producer), bona fide
newspaper, magazine or other periodical
publication may use its own funds to defray costs
incurred in staging public candidate debates held
in accordance with 11 CFR 110.13.
(3) A corporation or labor organization may
donate funds to nonprofit organizations qualified
under 11 CFR 110.13(a)(1) to stage candidate
debates held in accordance with 11 CFR 110.13
and 114.4(f).

194a

3. 52 U.S.C. § 30101 provides:
Definitions.
*****
(B) The term “expenditure” does not include–
*****
(ii) nonpartisan activity designed to encourage
individuals to vote or to register to vote;
*****

195a

4. 52 U.S.C. § 30118 provides:
Contributions or expenditures by national
banks, corporations, or labor organizations.
(a) In general
It is unlawful for any national bank, or any corporation
organized by authority of any law of Congress, to make
a contribution or expenditure in connection with any
election to any political office, or in connection with
any primary election or political convention or caucus
held to select candidates for any political office, or for
any corporation whatever, or any labor organization, to
make a contribution or expenditure in connection with
any election at which presidential and vice presidential
electors or a Senator or Representative in, or a Delegate
or Resident Commissioner to, Congress are to be voted
for, or in connection with any primary election or
political convention or caucus held to select candidates
for any of the foregoing offices, or for any candidate,
political committee, or other person knowingly to
accept or receive any contribution prohibited by this
section, or any officer or any director of any
corporation or any national bank or any officer of any
labor organization to consent to any contribution or
expenditure by the corporation, national bank, or labor
organization, as the case may be, prohibited by this
section.
*****

